<html>
<title> - LEGISLATIVE HEARING ON H.R. 2964, CAPTIVE PRIMATE SAFETY ACT; AND H.R. 5534, BEAR PROTECTION ACT OF 2008.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





H.R. 2964, CAPTIVE PRIMATE SAFETY ACT; AND H.R. 5534, BEAR PROTECTION 
                             ACT OF 2008.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                        Tuesday, March 11, 2008

                               __________

                           Serial No. 110-63

                               __________

       Printed for the use of the Committee on Natural Resources


<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov








                     U.S. GOVERNMENT PRINTING OFFICE

41-235 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Tom Cole, Oklahoma
Solomon P. Ortiz, Texas              Bill Sali, Idaho
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                






















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 11, 2008..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     2
        Prepared statement of....................................     4

Statement of Witnesses:
    Evans, Sian, Ph.D., Director, DuMond Conservancy.............    12
        Prepared statement of....................................    13
        Response to questions submitted for the record...........    15
    Golab, Gail, Ph.D., Director, Animal Welfare Division, 
      American Veterinary Medical Association....................     6
        Prepared statement of....................................     8
    Goodall, Jane, Ph.D., DBE, Founder, The Jane Goodall 
      Institute, UN Messenger of Peace...........................    32
        Prepared statement of....................................    34
        Response to questions submitted for the record...........    35
    Hogan, Matt, Executive Director, Association of Fish and 
      Wildlife Agencies..........................................    25
        Prepared statement of....................................    26
        Response to questions submitted for the record...........    28
    Pacelle, Wayne, President and CEO, Humane Society of the 
      United States..............................................    50
        Prepared statement of....................................    52
        Response to questions submitted for the record...........    62
    Perez, Benito A., Chief, Law Enforcement, Fish and Wildlife 
      Service, U.S. Department of the Interior...................    47
        Prepared statement of....................................    48
    Ross, Steve, Supervisor of Behavioral and Cognitive Research, 
      and Chair, AZA Chimpanzee Species Survival Plan, Lincoln 
      Park Zoo...................................................    63
        Prepared statement of....................................    64
        Response to questions submitted for the record...........    67
    Schoenke, Ray, President, American Hunters and Shooters 
      Association................................................    22
        Prepared statement of....................................    23
    Wissinger, Lewis ``Skip,'' Criminal Investigator (Retired), 
      Shenandoah National Park...................................    18
        Prepared statement of....................................    20

Additional materials supplied:
    Archery Trade Association, Association of Fish and Wildlife 
      Agencies, Bear Trust International, et al., Letter 
      submitted for the record...................................    73
    Garshelis, Dr. David L., Co-Chair IUCN/SSC Bear Specialist 
      Group, Bear Project Leader, Minnesota Department of Natural 
      Resources, Adjunct Professor, University of Minnesota, 
      Statement submitted for the record.........................    76












 
LEGISLATIVE HEARING ON H.R. 2964, CAPTIVE PRIMATE SAFETY ACT; AND H.R. 
                   5534, BEAR PROTECTION ACT OF 2008.

                              ----------                              


                        Tuesday, March 11, 2008

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Capps, and Young.
    Also present: Representatives Grijalva and Wittman.

    STATEMENT OF THE HON. MADELEINE BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Good morning. The legislative hearing by the 
Subcommittee on Fisheries, Wildlife and Oceans will come to 
order.
    The Subcommittee is meeting today to hear testimony on two 
bills that amend the Lacey Act amendments of 1981: H.R. 2964, 
the Captive Primate Safety Act and H.R. 5534, the Bear 
Protection Act of 2008.
    Pursuant to Committee Rule 4[g], the Chairman and the 
Ranking Minority Member will make opening statements.
    The Subcommittee on Fisheries, Wildlife and Oceans meets 
this morning to hear testimony regarding two bills to amend the 
Lacey Act amendments of 1981: to provide protections for 
nonhuman primates and bears.
    The first is H.R. 2964, which would prohibit the interstate 
trade of nonhuman primates. While infant primates often seem 
endearing and adorable, they do grow up to become stronger and 
more aggressive. During the last decade there were 100 
incidents reported of human injury by these animals, about 30 
of which involved children. Additionally, nonhuman primates are 
vectors for diseases, including herpes-B, tuberculosis, and the 
Ebola virus.
    The purpose of the bill is to limit the interstate movement 
of these animals to diminish chances of injury and disease 
spread, thereby protecting human health and safety.
    Second, I commend my colleague, Congressman Raul Grijalva, 
for introducing H.R. 5534, which would prohibit the import, 
export, and interstate trade in bear viscera, particularly the 
gall bladder and the bile, which are coveted in traditional 
Asian medicines.
    Specifically, the Bear Protection Act would amend the Lacey 
Act amendments of 1981 to extend its protection to bears 
illegally harvested for their viscera, in the same manner as it 
protects prohibited wildlife species.
    Currently a patchwork of U.S. state laws increases the 
likelihood that illegally poached bear viscera will enter into 
domestic and international trade. The Bear Protection Act is 
intended to serve as a Federal backstop to aid the states in 
enforcing their own wildlife laws. While it will not address 
the multi-faceted problem of bear poaching internationally, it 
is an important first step.
    In short, the Captive Primate Safety Act and the Bear 
Protection Act are intended to protect the welfare of nonhuman 
primates and bears, respectively, but also to protect human 
health and safety in the United States.
    As our planet becomes smaller with increasing trade, the 
repercussions of how we choose to protect our wildlife here in 
the United States will be felt globally. These bills can be an 
important tool in that effect.
    And now, as Chairwoman, I recognize Mr. Brown, the Ranking 
Republican Member, for any statement that he may have.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
             Subcommittee on Fisheries, Wildlife and Oceans

    The Subcommittee on Fisheries, Wildlife and Oceans meets this 
morning to hear testimony regarding two bills to amend the Lacey Act 
Amendments of 1981 to provide protections for non-human primates and 
bears.
    The first is H.R. 2964, which would prohibit the interstate trade 
of nonhuman primates. While infant primates often seem endearing and 
adorable, they do grow up to become stronger and more aggressive. 
During the last decade, there were one hundred incidents reported of 
human injury by these animals, about thirty of which involved children. 
Additionally, nonhuman primates are vectors for diseases, including 
Herpes B, tuberculosis, and the Ebola virus. The purpose of the bill is 
to limit the interstate movement of these animals to diminish chances 
of injury and disease spread, thereby protecting human health and 
safety.
    Second, I commend my colleague, Congressman Raul Grijalva, for 
introducing H.R. 5534, which would prohibit the import, export, and 
interstate trade in bear viscera, particularly the gallbladder and 
bile, which are coveted in traditional Asian medicines. Specifically, 
the Bear Protection Act would amend the Lacey Act Amendments of 1981 to 
extend its protections to bears illegally harvested for their viscera 
in the same manner as it protects prohibited wildlife species. 
Currently, a patchwork of U.S. State laws increases the likelihood that 
illegally poached bear viscera will enter into domestic and 
international trade. The Bear Protection Act is intended to serve as a 
federal backstop to aid the States in enforcing their own wildlife 
laws. While it will not address the multifaceted problem of bear 
poaching internationally, it is an important first step.
    In short, the Captive Primate Safety Act and the Bear Protection 
Act are intended to protect the welfare of nonhuman primates and bears, 
respectively, but also to protect human health and safety in the United 
States. As our planet becomes smaller with increasing trade, the 
repercussions of how we choose to protect our wildlife here in the 
United States will be felt globally. These bills can be an important 
tool in that effort.
                                 ______
                                 

   STATEMENT OF THE HON. HENRY E. BROWN, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Good morning. Thanks, Madame Chairman.
    Today we will hear testimony on two wildlife bills that 
amends the Lacey Act by mandating new, far-reaching 
requirements on the U.S. Fish and Wildlife Service.
    Just two weeks ago we examined a budget request to the Fish 
and Wildlife Service, and learned that a number of special 
agents within the Law Enforcement Division has declined by 
nearly 10 percent in the last two years.
    At the same time, Congress has continued to mandate 
additional law enforcement responsibilities, and we would 
significantly increase that burden with the enactment of these 
two bills. In fact, we seem to be ever expanding their mission 
without giving them either the people or the resources to 
accomplish their job.
    In terms of H.R. 2964, I share the concerns raised by the 
Department of the Interior that regulation of the primate pet 
industry is a state, and not a Federal, issue. While I have 
heard from some of my constituents who support this 
legislation, including the Grand Strand Humane Society, and I 
agree that big cats and nonhuman primates make terrible pets, 
the State of South Carolina should retain the right to ban or 
restrict that ownership in the future.
    The primary purpose of the Fish and Wildlife Service is 
wildlife conservation, and this fundamental goal is not 
enhanced by requiring them to spend their precious resources 
regulating the pet trade. In fact, if you look at actual 
statistics and not just press releases, you will find that far 
more Americans are injured each year by pet dogs than pet 
primates. Yet I haven't heard anyone suggest we should amend 
the Lacey Act to add man's best friend as a prohibited species.
    We are all aware of the highly publicized incident in 
Bakersfield, California, where a 62-year-old man was savagely 
attacked and seriously injured by two chimpanzees. While this 
was a terrible attack, it happened at a certified sanctuary, 
and not at a private residence. And by the way, this sanctuary 
is exempt under this legislation. In fact, the vast majority of 
documented injuries have occurred at facilities not even 
covered by H.R. 2964.
    In terms of H.R. 5534, which was just introduced, my 
concerns are similar. There are 34 states that have already 
banned the trade in bear organs, and the regulation of bear 
viscera is inherently a State Wildlife management issue.
    Second, the highly respected World Wildlife Fund has 
completed a comprehensive report in the black, which concludes 
that black bear numbers appear to be stable and increasing 
across their range; and that enforcement of such a ban could 
distract from the conservation of other species that are far 
more endangered or threatened by trade.
    It is disappointing that these experts were not invited to 
testify today.
    Finally, I am interested in hearing what additional 
statutory authority H.R. 5534 will give to the U.S. Fish and 
Wildlife Service above and beyond what they already have under 
the Lacey Act.
    I am sure there is no one on this committee who supports 
illegal trade in bear parts. The question is whether the state 
or the Federal government has the expertise, resources, 
manpower, and the historical responsibility to effectively 
perform this management job.
    Thank you, Madame Chairwoman. I look forward to hearing the 
testimony this morning.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
         Member, Subcommittee on Fisheries, Wildlife and Oceans

    Good morning, Madam Chairwoman, today, we will hear testimony on 
two wildlife bills that amend the Lacey Act by mandating new far 
reaching requirements on the U.S. Fish and Wildlife Service.
    Just two weeks ago, we examined the budget request of the Fish and 
Wildlife Service and learned that the number of special agents within 
the Law Enforcement Division has declined by nearly ten percent in the 
last two years. At the same time, Congress has continued to mandate 
additional law enforcement responsibilities and we would significantly 
increase that burden with the enactment of these two bills. In fact, we 
seem to be ever expanding their mission without giving them either the 
people or the resources to accomplish their job.
    In terms of H.R. 2964, I share the concerns raised by the 
Department of the Interior that the regulation of the primate pet 
industry is a state and not federal issue. While I have heard from some 
of my constituents who support this legislation, including the Grand 
Strand Humane Society, and I agree that big cats and nonhuman primates 
make terrible pets, the State of South Carolina should retain the right 
to ban or restrict their ownership in the future.
    The primary purpose of the Fish and Wildlife Service is wildlife 
conservation and this fundamental goal is not enhanced by requiring 
them to spend their precious resources regulating the pet trade.
    In fact, if you look at the actual statistics and not just press 
releases, you will find that far more Americans are injured each year 
by pet dogs than pet primates. Yet, I haven't heard anyone suggest we 
should amend the Lacey Act to add man's best friend as a prohibited 
species.
    We are all aware of the highly publicized incident in Bakersfield, 
California where a 62-year old man was savagely attacked and seriously 
injured by two chimpanzees. While this was a terrible attack, it 
happened at a certified sanctuary and not at a private residence and by 
the way this sanctuary is exempt under this legislation. In fact, the 
vast majority of documented injures have occurred at facilities not 
even covered by H.R. 2964.
    In terms of H.R. 5534, which was just introduced, my concerns are 
similar. There are thirty four states that have already banned the 
trade in bear organs and the regulation of bear viscera is inherently a 
state wildlife management issue.
    Second, the highly respected World Wildlife Fund has completed a 
comprehensive Report ``In the Black'' which concluded that ``Black bear 
numbers appear to be stable and increasing across their range and that 
the enforcement of such a ban could detract from the conservation of 
other species that are far more endangered or threatened by trade''. It 
is disappointing that these experts were not invited to testify today.
    Finally, I am interested in hearing what additional statutory 
authority, H.R. 5534, will give to the U.S. Fish and Wildlife Service 
above and beyond what they already have under the Lacey Act.
    I am sure there is no one on this Committee who supports the 
illegal trade in bear parts. The question is whether the states or the 
federal government has the expertise, resources, manpower and inherent 
historical responsibility to effectively perform this management job.
    Thank you, Madam Chairwoman.
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Brown, for your opening 
statements.
    Since this hearing room is rather limited in seating and I 
see a lot of people standing, would you please come forward? 
You can take these seats around the table here. It is probably 
going to be a lengthy hearing, so I would hate to see you stand 
the entire time. Thank you.
    I would now like to ask unanimous consent that the 
gentleman from Arizona, Mr. Grijalva, be allowed to join the 
members of the Subcommittee on the dais and participating in 
the hearing. Hearing no objection, so ordered.
    Mr. Grijalva, being the sponsor of H.R. 5534, would you 
like to make any remarks before the Subcommittee?
    Mr. Grijalva. Thank you very much, Madame Chair and Ranking 
Member Brown, for your courtesy in allowing me to be part of 
this hearing.
    First of all, I want to thank you for agreeing to hear H.R. 
5534, and join with you in welcoming our distinguished guests 
and their testimony.
    H.R. 5534, the Bear Protection Act of 2008, would establish 
a national prohibition on the import, export, and interstate 
commerce in bear viscera, such as bear gall bladders. The bile 
from bear gall bladders is used in traditional Asian medicines 
to treat a variety of illnesses, from diabetes to heart 
disease, as well as in some cosmetics and shampoos. Asian 
demand for bear viscera and products has increased with growing 
human population, and increased well.
    Although humane alternatives clearly exist, including 
herbal substitutes approved by the traditional Asian medicine 
community and synthetic formulations, huge profits can be made 
selling endangered bear parts in Asia. Dwindling Asian bear 
populations have caused poachers to look to American bears to 
meet market demand for bear parts and products.
    While each year more than 30,000 American Black Bears are 
legally hunted in North America, some estimates suggest the 
number illegally killed by poachers may equal or exceed that 
number. Law enforcement agents report finding dead bears in 
this country with only the gall bladders and paws removed, and 
the rest of the carcass left to rot in the woods.
    Bears that have been radio-collared for scientific purposes 
are particularly vulnerable, as are bears hibernating in dens 
during the winter. Organized poaching gangs use sophisticated 
technology, such as radio tracking and night-vision goggles, to 
corner their prey.
    According to a police officer who videotaped poaching 
activity involving a bear cub repeatedly stabbed, then set upon 
by dogs after its mother's gall bladder had been removed, 
remarked, ``The cruelty was beyond our expectations.''
    The current patchwork of state laws addressing the bear-
parts trade creates an enforcement nightmare. Thirty-four 
states prohibit trade in bear gall bladders and bile; five 
states allow it freely, and others have a complex mesh of 
either no regulations or laws that prohibit trade of bear parts 
from bears taken in state, but allow commercialization of bear 
parts if the bear was killed elsewhere. There is an incentive 
to kill bears illegally in one state because individuals can 
then sell the parts legally in another state, completely 
circumventing the state laws that do prohibit the sale of bear 
parts in some states.
    Because the illegal trade in bear parts crosses state and 
national boundaries, a Federal remedy is needed. The patchwork 
of state law creates loopholes that are exploited by those 
engaged in the bear-parts trade. The loopholes enable poachers 
to launder gall bladders through states that permit their sale, 
often escaping effective prosecution even when they are caught.
    The Bear Protection Act would assist local and state law 
enforcement by establishing national prohibition on import, 
export, and interstate commerce in bear viscera. The Bear 
Protection Act is focused on deterring bear poaching, and 
prosecuting bear poachers and bear-parts traders.
    The bill in no way impacts lawful hunting under applicable 
state laws, including the keeping of bear trophies; nor does it 
impact a state's ability to set hunt seasons, hunt methods, or 
bag limits.
    Thank you again, Madame Chair, and members of the committee 
for agreeing to hear this bill, which deals with, I believe, a 
very important subject matter.
    Thank you.
    Ms. Bordallo. Thank you very much, Mr. Grijalva. And I 
would now like to recognize our first panel of witnesses.
    Dr. Gail Golab, Director of the Animal Welfare Division, 
American Veterinary Medical Association; Dr. Sian Evans, 
Managing Director of the DuMond Conservancy; Mr. Lewis ``Skip'' 
Wissinger, Retired Criminal Investigator at the Shenandoah 
National Park; Mr. Ray Schoenke, President of the National 
Hunters and Shooters Association; Mr. Matt Hogan, the Executive 
Director of the Association of Fish and Wildlife Agencies; and 
finally, Dr. Jane Goodall, Founder of the Jane Goodall 
Institute and the U.N. Messenger of Peace.
    I want to thank you all, all of the witnesses, for being 
here today. And I would like to express our pleasure in having 
Dr. Goodall as a witness this morning. She will be joining is a 
bit late, but should arrive in time to give her prepared 
statement at the end of this panel.
    I will start by recognizing our first witness this morning, 
Dr. Golab, to testify for five minutes. And I would note for 
all witnesses that the timing lights on the table will indicate 
when your time has concluded. And we would appreciate your 
cooperation in complying with the limits that have been set, as 
we have many witnesses to hear from today. And I would add that 
this committee does watch the timing light.
    Be assured that your full written statement will be 
submitted for the hearing record.
    Dr. Golab.

   STATEMENT OF GAIL GOLAB, Ph.D., DIRECTOR, ANIMAL WELFARE 
       DIVISION, AMERICAN VETERINARY MEDICAL ASSOCIATION

    Ms. Golab. Thank you, Madame Chairperson and members of 
this subcommittee, for giving the American Veterinary Medical 
Association the opportunity to speak in support of the Captive 
Primate Safety Act, H.R. 2964.
    I am Dr. Gail Golab, Director of the AVMA's Animal Welfare 
Division. The AVMA represents more than 76,000 U.S. 
veterinarians who protect the health and welfare of our 
nation's animals, help conserve endangered species, and prevent 
and control zoonotic diseases.
    Nearly 600 of our members work with wildlife in natural or 
zoologic settings, 1,000 work in biomedical research, and 300 
spend at least 50 percent of their time with exotic pets. 
Approximately 170 AVMA members have contact with nonhuman 
primates on a regular basis.
    As a preface to our testimony, I emphasize that the AVMA 
fully supports the animal health professionals who work with 
nonhuman primates in conservation and biomedical research. As 
you can imagine, it is one thing to work with these animals in 
settings where there are appropriate enclosures and trained 
personnel, and quite another when they are kept in the backyard 
or living room of an unqualified individual. In fact, more than 
80 percent of health and behavioral issues with nonhuman 
primates arise from those that are kept as pets.
    AVMA policy fully supports limiting or prohibiting private 
ownership of wild animals that pose a substantial risk to 
public health, domestic animal health, the ecosystem, or whose 
welfare is unacceptably compromised.
    Because nonhuman primates pose these risks, the AVMA 
supports limiting or prohibiting private ownership of these 
animals. Furthermore, the AVMA does not support the use of 
nonhuman primates as service animals.
    The risk posed by nonhuman primates maintained by private 
individuals fall into four broad categories: Inadequate 
husbandry, physical injury, disease transmission, and ecosystem 
concerns. It is estimated that more than 15,000 nonhuman 
primates are privately owned in the United States today.
    Nonhuman primates are highly intelligent and social. 
Captive environments provided by private owners cannot meet the 
complex physical and behavioral needs of these species. It also 
can be difficult to identify veterinarians who are not only 
qualified, but willing to care for nonhuman primates kept as 
pets.
    To create suitable pets, baby primates may be removed from 
their mothers when only days old, and both exhibit signs of 
depression as a result of this forced separation. As nonhuman 
primates reach sexual maturity, their behavior becomes 
unpredictable and aggressive. Nonhuman primates can also be 
very destructive in home environments.
    To deal with these problems, many owners resort to 
restrictive confinement. This conflicts with the social needs 
of most nonhuman primates.
    Given good care and nutrition, nonhuman primates may live 
from 25 to more than 50 years. Many primate owners are not able 
to make a lifelong commitment to a dog or cat, let alone a pet 
as challenging as a nonhuman primate. Zoos don't have the space 
for former pets, and sanctuaries are over-burdened.
    Nonhuman primates can also seriously injury their human 
caretakers and other domestic animals. Reviews of injuries 
inflicted by nonhuman primates indicate that severe 
lacerations, wound infections, and permanent complications were 
the result of one third of bites.
    Between 1995 and 2005 there were 132 incidents of human 
injury caused by captive primates or escapes by captive 
primates in the United States. Most injuries occur when 
nonhuman primates have contact with people other than their 
owners or trained caretakers. Some nonhuman primates acquired 
as pets are purchased over the internet or during weekend 
events, and the probability of contact with unfamiliar and 
untrained individuals increases during these activities and the 
associated interstate transport.
    Each species of nonhuman primate also has the capacity to 
spread illnesses to humans and other animals. Transmission of 
exotic disease is bidirectional, and nonhuman primates are 
highly susceptible to some common human pathogens.
    Like humans, nonhuman primates may acquire bacterial 
infections, including salmonellosis and campylobacteriosis. 
Tuberculosis is especially common among macaques and their 
owners. Nonhuman primates also carry viruses, such as herpes-B, 
polio, yellow fever, and pox viruses, including monkeypox and 
chickenpox. Herpes-B virus is highly prevalent in around 80 
percent to 90 percent of macaques, and can cause a fatal 
meningoencephalitis in people.
    New world monkeys can carry and acquire the measles virus, 
which is easily contracted and transmitted by young children 
and the elderly. Nonhuman primates and people share fungal and 
parasitic diseases, as well.
    Finally, nonhuman primates that are released into the wild 
may naturalize. Once established, nonhuman primates can become 
reservoirs of disease, may contaminate water supplies, present 
risk of injury for people, livestock, and pets, and may destroy 
public and private property.
    Although importing nonhuman primates into the United States 
for the pet trade has been banned by Federal legislation since 
1975, and many states prohibit keeping these animals as pets, a 
vigorous trade in these animals remains. Federal legislation is 
needed because many nonhuman primates move via interstate 
commerce.
    The AVMA supports this legislation, and is pleased to 
continue to work with Members of Congress on its behalf.
    I thank you for the opportunity to appear today.
    [The prepared statement of Ms. Golab follows:]

             Statement of Gail Golab, PhD, DVM, Director, 
    Animal Welfare Division, American Veterinary Medical Association

    Thank you, Madam Chairperson and members of the Subcommittee, for 
giving the American Veterinary Medical Association the opportunity to 
speak in support of the Captive Primate Safety Act, H.R. 2964.
    I am Dr. Gail Golab, Director of the American Veterinary Medical 
Association's Animal Welfare Division. The AVMA represents more than 
76,000 U.S. veterinarians engaged in every aspect of veterinary 
medicine and public health. Among other things, our members protect the 
health and welfare of our nation's animals, help conserve endangered 
species, and protect animal and human health through prevention and 
control of zoonotic diseases. Nearly 600 of our members work with 
wildlife in natural or zoologic settings, 1,000 of our members work in 
biomedical research, and 300 spend at least 50% of their time working 
with exotic pets. Within these environments, we have approximately 170 
members who work with or come into contact with nonhuman primates on a 
regular basis. Other veterinarians work at federal agencies, such as 
the National Institutes of Health or the Centers for Disease Control 
and Prevention, where they deal with the implications of diseases 
affecting human health that originate in nonhuman primates.
    As a preface to our testimony, I emphasize that arguments presented 
by the AVMA herein are applicable only to the private ownership of 
nonhuman primates by unlicensed individuals. The AVMA fully supports 
animal health professionals who work with nonhuman primates in 
conservation and biomedical research efforts. As you can imagine, it is 
one thing to work with these animals in settings in which there are 
appropriate enclosures and trained personnel and quite another when 
they are kept in the backyard or living room of an unqualified 
individual. The data support this belief: according to the Captive Wild 
Animal Protection Coalition,\1\ more than 80% of health and behavioral 
issues with nonhuman primates arise from those that are kept as pets.
    AVMA policy, based on considerable research and deliberation, 
supports limiting or prohibiting private ownership of indigenous and 
non-native wild animals that pose a substantial risk to public health, 
domestic animal health, or the ecosystem, or whose welfare is 
unacceptably compromised.\2\ The AVMA thereby supports related 
regulatory efforts to limit or prohibit private ownership, and 
importation for the purpose of private ownership, of such indigenous 
and non-native wild animals. Because nonhuman primates pose significant 
risks to the health of the public and domestic animals--including the 
possibility of severe injury to the humans and domestic animals with 
which they come in contact--the AVMA opposes private ownership of these 
animals. Furthermore, the AVMA also does not support the use of 
nonhuman primates as assistance or service animals because of animal 
welfare concerns, the potential for serious injury, and zoonotic 
risks.\3\ Risks of human injury and zoonotic disease are often greatest 
in the very populations such animals serve.
    The risks posed to and by nonhuman primates maintained by private 
individuals fall into four broad categories: inadequate husbandry, 
physical injury to humans and other domestic animals, disease 
transmission, and ecosystem concerns. Precise numbers are difficult to 
elucidate, but Born Free USA and the Captive Wild Animal Protection 
Coalition estimate\4\ that more than 15,000 nonhuman primates are owned 
by private individuals in the United States today. Raising and training 
these animals is complex, and most private owners are inexperienced in 
meeting related challenges. Privately owned nonhuman primates have 
attacked humans and other animals, and they have escaped from their 
cages to roam freely in communities.\5\
    Nonhuman primates are highly intelligent and social animals that 
present unique husbandry challenges. Most captive environments cannot 
meet the complex physical and behavioral needs of these species. 
Monkeys need large, secure enclosures and specialized diets, and they 
must be provided with a variety of ever-changing toys and exercise 
equipment to keep them challenged and stimulated.\6\ If multiple 
nonhuman primates are kept, consideration must be given to providing 
sufficient numbers of food and water stations, an adequate number and 
appropriate type of nest boxes, and visual barriers that prevent direct 
eye contact with dominant animals. Sanitation can become a significant 
issue because monkeys are not easily housebroken and will often remove 
diapers that are applied in an effort to control excreta.\7\ It can 
also be difficult to identify veterinarians who are not only qualified, 
but willing to care for nonhuman primates kept as pets. As one board-
certified zoo veterinarian told us, ``I am very comfortable working 
with primates in zoo and laboratory settings, but I refuse to work with 
primates in private practice settings because of concerns for the 
safety of my staff and myself due to bites and disease.''
    To create suitable pets, baby primates may be taken away from their 
mothers when only hours or days old. Evolved to have continual body 
contact with their moms, infant primates will cling to towels or 
stuffed animals as substitutes, and both mothers and infants often 
exhibit signs of depression as a result of forced separation.\8\ \9\ 
\10\ Infant females taken away from their mothers don't develop the 
parental skills necessary to raise their own young, and this initiates 
a vicious cycle of rejected infants that must be raised by people to 
physically survive.\11\ When young, nonhuman primates are dependent on 
their natural mother or a surrogate human and are generally 
cooperative; however, as they reach sexual maturity, their behavior 
becomes more unpredictable and aggressive.\12\ The response of the 
private owner to changed behavior may be to reduce contact with the 
nonhuman primate. In addition, nonhuman primates can be very 
destructive in home environments and will shred furniture, curtains, 
clothes, and other personal belongings; turn on faucets; and unlock and 
open doors.\13\ A typical private owner's response to this behavior is 
more restrictive confinement. The isolation resulting from both owner 
behaviors directly conflicts with the psychological needs of most 
nonhuman primates, which tend to live in social groups.\14\
    Given good care and proper nutrition, nonhuman primates have long 
lifespans. Twenty-five to 30 years is not unusual for smaller species, 
while macaques, baboons, and spider monkeys can reach 40 years old, and 
apes 55. Many private owners are not able to make a life-long 
commitment to common domestic pets, let alone a pet as challenging as a 
nonhuman primate. Zoos don't have the space for nonhuman primates that 
were formerly pets, and sanctuaries are overburdened.\12\ Furthermore, 
once a nonhuman primate has been hand-raised to adulthood by people, it 
can be difficult or impossible to reintroduce it into a peer group.\15\ 
\16\ If an introduction can be accomplished without the former pet 
being harassed, intimidated or attacked, the nonhuman primate may still 
remain a social outcast. Neurotic behavior and depression can be the 
consequences of such alienation.
    Make no mistake about it, nonhuman primates kept as pets--while 
cute, cuddly, and often very entertaining--can also pose serious injury 
risks for their human caretakers and other domestic animals. Infant 
primates may seem adorable, but as they grow larger, they become 
stronger and more aggressive. Many nonhuman primates exhibit 
unpredictable behavior as they mature; males can become aggressive, and 
both males and females will strike, scratch, and bite to defend 
themselves and establish their place in the hierarchy of their peer 
group or surrogate human family.\17\ Reviews of bite injuries inflicted 
to humans by nonhuman primates indicate that severe lacerations, wound 
infections, and permanent complications (e.g., muscle contractures, 
osteomyelitis) resulted in 33% of cases.\18\ \19\ Nonhuman primates are 
proportionately much stronger than human beings, and as a result, the 
risk of unintentional injury is high.
    The Captive Wild Animal Protection Coalition reported that between 
January 1, 1995 and January 1, 2005 there were 132 incidents of human 
injury caused by captive primates or escapes by captive primates in the 
United States.\5\ More incidents may have occurred but not been 
reported. Deprived of social relationships with other nonhuman primates 
(as often happens when nonhuman primates are kept as pets), it is not 
unusual for nonhuman primates to become highly bonded to their owners. 
They may attack unfamiliar individuals,\17\ and in fact, most injuries 
occur when nonhuman primates have contact with people other than their 
owners or trained caretakers. Although many nonhuman primates are 
purchased from licensed breeders or brokers, some nonhuman primates 
acquired as pets are purchased over the Internet or during weekend 
events. The probability of contact with unfamiliar and untrained 
individuals increases during such activities and during associated 
interstate transport.
    In addition to inadequate husbandry concerns and human and domestic 
animal injury risks, nonhuman primates can and do spread viral, 
bacterial, fungal, and parasitic diseases. Each species of nonhuman 
primate has the capacity to introduce or spread illnesses that threaten 
human and domestic animal heath. Transmission of zoonotic disease is, 
of course, bidirectional and nonhuman primates are highly susceptible 
to some common human viral, bacterial, and fungal pathogens. An example 
is transmission of herpes simplex virus to marmosets as a result of 
private owners kissing or breathing on their nonhuman primate pets. 
Although herpes simplex infections in humans may cause disease as mild 
as a cold sore, in marmosets exposure to the virus can result in acute 
disseminated disease with neurologic involvement and a high fatality 
rate.\20\
    Like humans, all of the more than more than 240 species of extant 
nonhuman primates are susceptible to bacterial infections, including 
tuberculosis, salmonellosis, shigellosis, and campylobacter.\21\ 
Tuberculosis is especially common among macaques\22\ and their owners. 
New world monkeys (mostly frugivores) are prime candidates for 
infection with water-borne, gram-negative bacteria, such as 
klebsiella.\21\ Primates infected with klebsiella pose a special danger 
to human infants and children with mild respiratory infections.
    Nonhuman primates also carry viruses, such as Herpes B, Simian 
Immunodeficiency Virus (SIV), polio, yellow fever, and poxviruses 
(including monkeypox and chickenpox) that can be passed to other 
nonhuman primates and to people. Herpes B virus, which is subject to 
both bite and airborne transmission, is highly prevalent (80-90%) \23\ 
in adult macaques and can cause a potentially fatal meningoencephalitis 
in people. The Marburg virus affects both nonhuman primates and people, 
and causes a hemorrhagic fever, which is rare, but fatal in 23-25% of 
human cases;\24\ case fatality rates in nonhuman primates are up to 
100%. Although the Marburg virus is indigenous to Africa, a healthy 
black market trade in nonhuman primates\25\ creates an ever-present 
risk of importation into the United States. New world monkeys can carry 
and acquire the measles virus,\26\ which is easily contracted and 
transmitted by young children and the elderly. All four poxviruses are 
found in new world monkeys, with monkeypox being the most frequent.\21\ 
Viral hepatitis A is common in capuchins, owl monkeys, and tamarins. 
Often undetectable in these monkeys, the disease can still be passed to 
humans and primate handlers often contract this virus from recently 
shipped animals.\21\ In addition, live rabies vaccines that are 
manufactured for dogs and cats, and sometimes inappropriately 
administered to nonhuman primates, can cause rabies in old world 
monkeys, which can then be spread to humans.\21\
    Nonhuman primates and people share fungal and parasitic diseases as 
well.\27\ Although not common, fungal diseases of potential concern 
include streptothricosis (a skin infection), candidiasis (an infection 
of the mucous membranes), and ringworm. Many primates harbor parasites 
that are easily transmitted to people, including protozoa, nematodes 
(elongated cylindrical worms), tapeworms, and arthropods (lice, mites, 
and fleas). Giardia, a protozoan parasite that reproduces in the small 
intestine, can cause recurrent diarrhea in both nonhuman primates and 
people, although clinical signs are often not apparent in the 
former.\28\ Amebiasis, a disease caused by another zoonotic protozoan 
parasite, may result in no clinical signs or protracted diarrhea from 
chronic colitis and, occasionally, abscesses in the brain, liver, and/
or lungs.\21\
    Finally, keeping of nonhuman primates by private individuals 
presents ecologic risks. Nonhuman primates that are intentionally 
released into the wild or that unintentionally escape from their human 
caretakers may naturalize, particularly in warm, southern states. Once 
established, these nonhuman primates have the potential to become 
reservoirs of disease (e.g., yellow fever), may contaminate water 
supplies, present risks of injury for humans and domestic animals 
(e.g., livestock, pets), and may destroy private and public property, 
including crops cultivated for human consumption.
    As described in our testimony, nonhuman primates maintained by 
private individuals pose serious husbandry, physical injury, disease-
transmission, and ecologic risks. Although importing nonhuman primates 
to the United States for the pet trade has been banned by federal 
regulation since 1975 and many states already prohibit keeping these 
animals as pets, a vigorous trade in these animals remains. Federal 
legislation is needed because many of these animals move via interstate 
commerce.
    This bipartisan bill amends the Lacey Act to prohibit transporting 
monkeys, great apes, lemurs, and other nonhuman primates across state 
lines, much like the Captive Wildlife Safety Act, passed unanimously in 
2003, did for tigers and other big cats. This bill has no impact on 
trade or transport of animals for zoos, medical and other licensed 
research facilities, veterinarians, or certain other licensed and 
regulated entities. As such, the AVMA supports this legislation and 
looks forward to continue working with Members of Congress on its 
behalf.
    Thank you for the opportunity to appear before you today and speak 
on behalf of this important legislation.
References
    \1\ 153 Cong Rec S13520 (2007)
    \2\ 2American Veterinary Medical Association. Private ownership of 
wild animals. Available at: www.avma.org/issues/policy/
wild_animal_ownership.asp. Accessed March 5, 2008.
    \3\ American Veterinary Medical Association. Nonhuman primates as 
assistance animals. Available at: www.avma.org/issues/policy/
nonhuman_primates.asp. Accessed March 5, 2008.
    \4\ Captive Wild Animal Protection Coalition. Congress urged to 
move swiftly on bill to protect primates. Available at: www.cwapc.org/
pr/pr_20050316_Primate
Bill.html. Accessed March 5, 2008.
    \5\ Captive Wild Animal Protection Coalition. Primate incidents 
1995-2005. Available at: www.cwapc.org/pr/download/
PrimateIncidents1995-2005.pdf. Accessed March 5, 2008.
    \6\ University of Missouri Office of Animal Resources. 
Environmental enrichment. Available at: oar.missouri.edu/OAR_WEB$/osop/
sopDocs/Environmental_enrich
ment/General_Environmental_Enrichment.doc. Accessed March 5, 2008.
    \7\ University of Wisconsin-Madison Veterinary Medical Teaching 
Hospital. Do monkeys make good pets? Available at: 
vmthpub.vetmed.wisc.edu/sa_services/special_species/faq.htm. Accessed 
March 5, 2008.
    \8\ Willner P. The validity of models of animal models of 
depression. Psychopharmacology 1984;83(1):1-16.
    \9\ Hoff MP, Nadler RD, Hoff KT, et al. Separation and depression 
in infant gorillas. Developmental Psychobiology 1994;27:439-452.
    \10\ Kaufman IC, Rosenblum LA. The reaction to separation in infant 
monkeys: anaclitic depression and conservation-withdrawal. 
Psychosomatic Medicine 1967;29:648-675.
    \11\ Harlow HF, Harlow MK, Dodsworth RO, et al. Maternal behavior 
of rhesus monkeys deprived of mothering and peer associations in 
infancy. Proceedings of the American Philosophical Society 
1966;110(1):58.
    \12\ Porton I, Carter S, Beck B, et al. Bedtime for Bonzo: the real 
bedtime story. Available at: www.honoluluzoo.org/pets.htm. Accessed 
March 5, 2008.
    \13\ Primate Info Net. Are you sure you want a monkey? (reprinted 
from Monkey Matters Magazine). Available at: pin.primate.wisc.edu/
aboutp/pets/areyousure.html. Accessed March 5, 2008.
    \14\ Anthropology Program, Department of Behavioral Sciences, 
Palomar College, California. Social structure. Available at: 
anthro.palomar.edu/behavior/behave_2.htm. Accessed March 5, 2008.
    \15\ Meder A. Integration of hand-reared gorillas into breeding 
groups. Zoo Biology 1990;9:157-164.
    \16\ Inglett BJ, French JA, Simmons LG, et al. Dynamics of 
intrafamily aggression and social reintegration in lion tamarins. Zoo 
Biology 2005;8:67-78.
    \17\ Hevesi R. Welfare and health implications for primates kept as 
pets. In: Born to be wild: primates are not pets. International Fund 
for Animal Welfare. Available at: www.ifaw.org/ifaw/dfiles/
file_553.pdf. Accessed March 5, 2008.
    \18\ Goldstein EJC, Pryor EP, Citron DM. Simian bites and bacterial 
infection. Clin Infect Dis 1995;20:1551-1552.
    \19\ Janda DH, Ringler DH, Hilliard JK, et al. Nonhuman primate 
bites. J Orthop Res 1990;8:146-150.
    \20\ Lefaux B, Duprez R, Tanguy M, et al. Nonhuman primates might 
be highly susceptible to cross-species infectivity by human alpha-
herpesviruses. Vet Pathol 2004;41(3):302-304.
    \21\ Renquist DM, Whitney RA. Zoonoses acquired from pet primates. 
Vet Clin North Am: Sm Anim Pract 1987;17(1):219-240.
    \22\ Willis J, Webb JL, LeRoy BE, et al. An overview of 
tuberculosis in macaques. Available at: www.vet.uga.edu/vpp/clerk/
willis/index.php. Accessed March 5, 2008.
    \23\ Ostrowski SR, Leslie MJ, Parrott T, et al. B-virus from pet 
macaque monkeys: an emerging threat in the United States? Emerg Inf Dis 
1998;4(1):117-121.
    \24\ Centers for Disease Control and Prevention. Marburg 
hemorrhagic fever fact sheet. Available at: www.cdc.gov/ncidod/dvrd/
spb/mnpages/dispages/marburg/qa.htm. Accessed March 5, 2008.
    \25\ Webster D. The looting and smuggling and fencing and hoarding 
of impossibly precious, feathered and scaly wild things: inside the $10 
billion balck market in endangered animals. The New York Times Magazine 
1997;Feb 16: 27-33, 48-50.
    \26\ Institute for Laboratory Animal Research. The psychological 
well-being of nonhuman primates. Washington, DC: National Academies 
Press, 1998; 89.
    \27\ Baskin G. Pathology of nonhuman primates. Available at: 
www.afip.org/vetpath/POLA/nhp.txt. Accessed March 5, 2008.
    \28\ Division of Veterinary Medicine, Walter Reed Army Institute. 
Significant zoonotic disease of non-human primates. Available at: 
netvet.wustl.edu/species/primates/primzoon.txt. Accessed March 5, 2008.
                                 ______
                                 
    Ms. Bordallo. I thank you, Dr. Golab, for your excellent 
points regarding H.R. 2964.
    Dr. Evans, it is a pleasure to welcome you before the 
Subcommittee. And you are now recognized to testify for five 
minutes.

           STATEMENT OF SIAN EVANS, Ph.D., DIRECTOR, 
                       DuMOND CONSERVANCY

    Ms. Evans. I thank you for the opportunity to testify today 
in opposition of the Captive Primate----
    Ms. Bordallo. Could you put the microphone a little bit 
closer? And before you continue, I would like to welcome 
Congressman Wittman from the State of Virginia.
    Please proceed.
    Ms. Evans. Is this better? OK, thank you.
    My name is Dr. Sian Evans, and I am a scientist. And I have 
over 30 years of experience of studying primates, their 
behavior, and managing them in captivity.
    I am here as a member and representing UAPPEAL, Uniting a 
Proactive Primate and Exotic Animal League. And this is an 
organization of 453 members in 42 states. And it educates 
people who are interested in responsibly sharing their lives 
with pet primates.
    About 25 years ago I had a remarkable experience. I had the 
great privilege to meet a sign language gorilla named Coco. 
Coco lives in California, and she can communicate with humans 
using sign language.
    As I strolled across the lawn to Coco's enclosure, I 
noticed that she was signing vigorously at me, and I was very 
embarrassed. I didn't know what she was trying to tell me. A 
translator said that she was interested to know whether I was 
wearing lipstick--I wasn't--and whether I would pick her a 
flower--and I did. And I was spellbound. She transformed the 
way I thought about wildlife, and in fact nature in general.
    I have a great empathy with members of UAPPEAL that have 
enjoyed a similar experience to mine, with these wonderful 
nonhuman primates that can enter our lives. UAPPEAL members are 
very strongly bonded to their pets, and they also offer a 
lifetime commitment to their care.
    We are here to talk about the Lacey Act and an amendment to 
this Act. The Lacey Act is an Act which seeks to preserve 
wildlife. Now, no nonhuman primates have been allowed to be 
imported into the United States as pets for over 30 years, so 
there is no possibility that infant monkeys being ripped from 
the bodies of their dead mothers in Africa to fuel the pet 
trade in the United States. So this has no conservation benefit 
whatsoever.
    The nonhuman primates are being described as a prohibited 
species. And because of this prohibition, they are not able to 
cross state lines. This has to be justified, and the major 
justification has been that they are a public health threat. I 
strongly disagree with this assertion, and as far as I am 
aware, there is no documentation of pet primates being a threat 
to public health.
    In fact, as primates go, they are remarkably disease-free, 
in large part for having been bred for several generations in 
captivity, and because of the practice of removing many infant 
primates from their species at birth, so they do not acquire 
other diseases.
    I think that we do an enormous disservice to nonhuman 
primates by describing them as dangerous wild animals. Because 
this Act will not substantially decrease the pet trade in 
primates, it will only add a burden to existing law-abiding 
primate owners who seek to transport their primates across 
state lines to obtain adequate veterinary care.
    A very unfortunate consequence of the fear that many people 
have because of the disease transmission in nonhuman primates 
was regrettably demonstrated in 2001, when at Cairo Airport a 
baby gorilla and a baby chimpanzee were intercepted. The 
veterinarians were so frightened of the public health risk that 
they drowned, in a vat of chemicals, both of them. That was a 
direct consequence of irrational fear of public health threats 
from nonhuman primates.
    Thank you.
    [The prepared statement of Ms. Evans follows:]

               Statement of Sian Evans, Ph.D., Director, 
  DuMond Conservancy for Primates and Tropical Forests, Miami, Florida

    Madam Chairwoman, and Members of the Subcommittee, I am Dr. Sian 
Evans, a scientist whose 30-year professional career has involved the 
study and captive management of nonhuman primates. I appreciate this 
opportunity to testify today in opposition to H.R. 2964, the Captive 
Primate Safety Act.
    I am a member of and represent a national organization--Uniting a 
Proactive Primate and Exotic Animal League (UAPPEAL)--an organization 
that educates people who are interested in sharing their life with 
nonhuman primates by making them aware of a primate's special needs, 
giving them realistic expectations, and making sure they are willing 
and able to make a lifelong commitment to the nonhuman primates in 
their care. UAPPEAL discourages the casual acquisition of any animals 
and supports fair regulation of animals in regard to animal welfare and 
public safety issues. For many reasons, which I will outline for you 
today, UAPPEAL opposes the Captive Primate Safety Act.
    I received B.S., M.S., and Ph.D. degrees in the United Kingdom and 
belong to the following professional organizations; the International 
Primatological Society (IPS), the American Society of Primatologists 
(ASP) the Primate Society of Great Britain and the Association for the 
Study of Animal Behavior. I am the Director of the DuMond Conservancy 
for Primates and Tropical Forests, a not-for-profit organization 
located in Miami, Florida, whose mission is to study, improve the 
captive welfare and preserve nonhuman primates and their habitats. In 
addition to behavioral research, I also have a strong interest in 
education and teach a university course in Primate Biology (which 
includes lectures on nonhuman primate conservation). I was Vice 
President for Education of the International Primatological Society 
from 1996-2000 and served for many years on the Education Committee of 
the American Society of Primatologists.
    There are over two hundred species of non-human primate and over 
eighty percent of them live in tropical rainforests. Thirty per cent of 
primate species are endangered and international authorities consider 
all primate species to be threatened and/or vulnerable. Thus, there is 
every reason to try and protect these magnificent, intelligent near 
relatives. H.R. 2964 would amend the Lacey Act to extend the list of 
``prohibited wildlife species'' to include all nonhuman primates. The 
bill declares it a prohibited act, for any person, with some 
exceptions, to import, export, transport, sell, receive, acquire or 
purchase in interstate commerce nonhuman primates. The Lacey Act is a 
federal wildlife law that combats the illegal commercial exploitation 
of wildlife and rare plants and allows the federal government to help 
states, tribes and countries around the world safeguard their wildlife 
resources. However, the intent of this bill is an attempt to limit 
private ownership of primates.
    As the geographical range of nonhuman primates does not include the 
United States and the importation of primates as pets is prohibited 
under a U.S. Public Health Service quarantine regulation adopted in 
1975, all nonhuman primate pets are required by law to be captive born. 
Furthermore, the interstate movement of any endangered nonhuman primate 
species is already federally regulated by the U.S. Department of the 
Interior and so, the restrictions created by this bill appears to be 
duplicative for those nonhuman primates in greatest need of protection. 
It is an undisputable fact that this bill serves no conservation 
purpose whatsoever.
    Because my own academic research and subsequent behavioral studies 
of nonhuman primates have required the management of monkey colonies, I 
have a great deal of experience with primates that require intensive 
individual care (for health or behavioral reasons) and in hand-raising 
infants rejected by their parents. Consequently, nonhuman primate 
owners often consult me with questions regarding health and husbandry. 
While I am not an advocate of primate pet ownership, I do not support 
the enactment of legislation that would create unnecessary burdens for 
pet owners or make it harder for them to care for their pets. My own 
life has been enormously enriched by the close contact I have 
experienced with most of the common monkey species. In fact, I have 
learned a great deal about some aspects of primate behavior available 
only to those private owners who chose to live in close contact with 
them in the private sector.
    The justifications that have been proposed in this bill to include 
all nonhuman primate species as prohibited are that they are a threat 
to both public safety and public health and require standards of 
captive care beyond the ability of private owners. However, there is no 
documentation or scientific evidence to support these claims and in my 
experience.
    The claim that primates are a threat to public health is of 
especial concern to me. Public health decisions should be based on the 
highest quality of scientific data, openly and objectively derived. Pet 
primates are not a documented source of disease to humans. Some of this 
absence of zoonotic (animal to human) disease risk has been attributed 
to the frequent practice of removal of pet primates from their species 
shortly after birth and having been bred in captivity for many years 
(and many generations). In fact, it is the pet primates themselves that 
are documented to be susceptible to some human diseases. As a result, 
some veterinarians suggest common childhood immunization, occasional 
tuberculin skin tests and even rabies vaccination (although few, if 
any, pet primates are ever potentially exposed to the bites of rabid 
vectors).
    The disease that is frequently cited as a public health threat by 
opponents of pet primates is infection with a herpes virus, B-virus or 
Herpes simiae. This virus may be found in macaque monkeys and while, 
much like the human cold sore virus, it does not cause any significant 
disease in infected macaques, if it is transmitted to humans it can 
cause fatal encephalitis. However, those that cite this potential 
disease risk from pet primates overlook several well-documented facts. 
This disease is extremely hard to transmit and transmission has only 
occurred in laboratory settings when imported research monkeys are 
stressed and much more likely to be infectious. Also, the practice of 
removing infant macaques from their mothers shortly after birth, almost 
certainly eliminates the possibility that these infant monkeys can 
acquire the virus. The overwhelming majorities of pet macaques are 
screened for and are negative for B-virus. Finally, and most 
importantly, there has never been a case of Herpes B virus transmission 
from a pet macaque. My strong objection to describing primates as a 
public health risk is that it does a great disservice to these 
wonderful animals and can discourage their study and conservation. My 
efforts to correct this misconception include organizing a roundtable 
discussion on Primates and Public Health at the 23rd meeting of the 
American Society of Primatologists (ASP) in Boulder, Colorado in June 
2000 and I was subsequently successful in lobbying the ASP to retract 
their description of primates as a public health threat in their 
position statement on the private ownership of primates.
    The issue of animal welfare is frequently raised as justification 
that private individuals should not own nonhuman primates. I have 
visited the homes of many primate pet owners, attended their social 
events and spoken at conventions where the owners bring their pets, and 
I have been impressed by how responsible and informed the primate pet 
owners are. The housing that primate pet owners provide can equal and 
sometimes surpass that at zoos and is far superior to conditions in any 
research laboratory that I have visited. In my experience, primate pet 
owners are compassionate, dedicated individuals that make a serious 
social commitment to the lifelong care of their primate pets. These pet 
primates depend on their owners for social contact and typically travel 
with their owners frequently crossing state lines. Primate pet owners 
are well informed about the regulations in the different states they 
may travel to and through and are conscientious about obtaining the 
health certificate required for entry into each state. Restricting the 
movement of nonhuman pet primates with their owners is inhumane as it 
causes anxiety in such bonded pets as a result of social separation. 
Furthermore, primate pet owners of my acquaintance provide the best 
veterinary care possible and frequently cross state lines to obtain the 
quality and specialized care that they seek for their pets. It is 
ironic that the most likely outcome of the passage of this bill would 
only compromise the health and emotional well being of pet primates and 
the ability of their owners to provide the best care for their pets. 
Nonhuman primates are not only pets in the private sector, but, many 
are service animals aiding physically challenged individuals. There is 
no reason why private owners should not be allowed to cross state lines 
in accordance with existing state laws be it for health care, travel, 
relocating, or placing an animal in the best qualified place in the 
event of the owner's death or life change.
    It is my opinion that this bill is based on false premises with the 
intent of interfering with the constitutional right of law-abiding 
citizens to own a primate. It will do nothing to protect public health 
and safety or improve animal welfare. It seems regrettable that 
nonscientific interests have taken the time and resources of this 
important subcommittee in an effort to control an undocumented problem 
and an insignificant issue.
    In conclusion, I would like to ask this committee, on behalf of 
UAPPEAL, to please consider the negative consequences of this 
unnecessary legislation. This legislation will be a burden to 
responsible nonhuman primate owners who want to provide the necessary 
care for their pet's needs by meeting their social, welfare and health 
care needs which are not always available within their state of 
residence. These owners have the right to provide their pets with a 
lifetime of quality care without regulations that tie their hands in 
the process.
                                 ______
                                 

   Response to questions submitted for the record by Dr. Sian Evans, 
          DuMond Conservancy for Primates and Tropical Forests

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
    I am in receipt of the following additional questions you have 
requested that I answer. I am particularly pleased that several of them 
deal with issues of animal care. I have 32 years of direct experience 
of caring for non-human primates in research environments, zoos and my 
own home (curriculum vitae previously submitted). I have cared for a 
wide variety of primate species from gorillas to the smallest monkey, 
pygmy marmosets. Thus, I am exceptionally well qualified to help the 
sub-committee understand the needs of non-human primates and the 
ability of primate pet owners to meet these needs.
1.  Dr. Evans, thank you for your testimony. In your statement, you 
        noted that your organization makes sure that nonhuman primate 
        owners are willing and able to make a lifelong commitment to 
        the nonhuman primates in their care.
<bullet>  Can you describe how you can assure this commitment?
    UAPPEAL (Uniting a ProActive Primate and Exotic Animal League) 
members and their pets from strong emotional bonds and the owners 
suffer grief when these bonds are severed either through the death of 
the pet primate or the confiscation of their pet by court order. The 
pets of UAPPEAL members are treated with love and loyalty and together 
they form a cohesive social unit.
<bullet>  What happens when an owner can no longer care for his or her 
        nonhuman primate pet?
    UAPPEAL members have made arrangements for the care of their pet(s) 
in the case of an illness or death (see statements/documents in 
Appendix). Also included is a document that primate pet owners have 
prepared to be included in their wills.
2.  You also state that you are not an advocate of primate pet 
        ownership. Can you elaborate more on this point?
    Owning a primate pet requires an enormous time commitment and not 
all prospective primate pet owners can make this commitment. In my 
professional experience, empathy, deep interest, and the ability to 
nurture effectively are more important than other credentials in 
effectively responding to the complex needs of nonhuman primates in 
captivity.
3.  Is the point that you raise about pet primates being susceptible to 
        human diseases another reason to limit unnecessary additional 
        contact between people and nonhuman primates?
    The purpose of H.R. 2964 is to limit the interstate transport of 
non-human primates by making a case that they are dangerous wild 
animals. Whether they are susceptible to human disease (anthroponosis) 
or not, is irrelevant to H.R.2964 and only mentioned in my testimony to 
emphasize the complete lack of documentation for zoonotic (animal to 
human) transmission from pet monkeys to humans.
4.  Can you further explain the reason why infant macaques need to be 
        removed from their mothers shortly after birth?
    Both United States Department of Agriculture (USDA) registered 
research facilities and USDA licensed zoos remove infant primates from 
their mothers at birth (Barr et al., 2008; Goodall, 2005; Kinnally et 
al., 2008). If this practice is permitted by the federal agency charged 
with regulating animal welfare, and presents no danger to humans, I 
fail to see any reason for the subcommittee to address this question.
5.  Of the potential 15,000 pet primates in the United States, do you 
        have an estimate of what percentage are cared for well and in a 
        healthy environment?
    First, this 15,000 figure is highly problematic. The only reference 
to this figure that I could find was a quote by a Mr. Adam Roberts of 
Born Free USA in a press release in 2002 (Captive Wild Animal 
Protection Coalition, 2002). A telephone call (Evans, S 2008a) and e-
mail enquiry (Evans, S, 2008b) to Mr. Roberts provided no documentation 
for his confident assertion that 15,000 primates was a minimum figure. 
I made several unsuccessful attempts to contact Mr. Wayne Pacelle of 
The Humans Society of the United States (HSUS) by telephone for 
clarification of his use of the 15,000 figure in testimony to this sub-
committee (Captive Primate Safety Act, 2008) and was finally referred 
to Ms. Beth Price of HSUS. Ms. Price was very helpful and was able to 
clarify that the 15,000 figure does not refer to pet primates 
exclusively but all privately owned primates (Price, 2008) the vast 
majority of which are owned by UDSA licensees (public exhibitors and 
breeders) and thus exempt from this bill. Questions about the care and 
environment of these primates in USDA licensed facilities are best 
directed to USDA who maintain inspection reports of these facilities on 
file. Pet primates (not regulated by USDA) are regulated in several 
states with Florida having the most comprehensive regulations (Rule 
68A-6.00022, Florida Regulations). Florida issues personal pet primate 
permits and inspects the pet primate(s) regularly (Chapter 372.921, 
Florida Statutes). Lt. Pat Reynolds of the Florida Fish and Wildlife 
Conservation Commission (FWC) is an enforcement officer who is 
confident, that in his experience of inspecting primates in zoos, 
research institutions and human homes, that the ``healthiest and 
happiest'' primates are those living in human homes (Reynolds, P. 
2008). He attributes this to the close bond formed between the pet 
primate and their human caretakers and the varied and superior diets 
that pet owners provide. Lt. Reynolds has 30 years of experience with 
FWC and, in all likelihood, is more experienced in inspecting pet 
primates than any other wildlife enforcement officer in the Unites 
States.
6.  Are there other possible ways for private owners to get veterinary 
        care if there are no veterinarians in their state of residence? 
        Could veterinarians make house calls?
    Veterinarians are typically licensed in individual states. It would 
be illegal for a veterinarian to cross state lines and practice 
veterinary medicine in a state in which they were unlicensed.
7.  You mention the unnecessary burden that H.R. 2964 places on 
        nonhuman primate owners. Can you think of other ways in which 
        the balance between the burden to responsible owners and the 
        societal burden of irresponsible owners can be better achieved?
    H.R. 2964 will not prevent irresponsible ownership of pet primates, 
it will only prevent any primate pet owner from crossing state lines 
with their pet(s) to seek veterinary care, flee from hurricanes or 
visit friends and family. There is no documentation of any significant 
societal burden from irresponsible primate per owners, thus H.R. 2964 
creates rather than resolves any imbalance. I am recommending that the 
sub committee withdraw this bill (supported only by entities opposed to 
exotic pet ownership) but, I do encourage state regulation of pet 
primates (using Florida as a model) to address any kind of societal 
issues that might concern you. More importantly these recommendations 
would directly benefit the welfare of pet primates.
    I was very encouraged to learn that The Chair of the House Natural 
Resource Committee, Rep. Nick J. Rahall (D-WV), is ``Very heartened 
that the Department of the Interior is stepping up to the plate to 
begin addressing the ``politics trumps science ploy'' endemic in this 
administration'' (Committee on Natural Resources, 2007). It would be a 
great shame if one of his own subcommittees were to disappoint him by 
doing likewise.
References and Citations
Barr CS, Schwandt ML, Lindell SG, Higley, JD, Maestripieri D, Goldman 
        D, Suomi SJ, Heilig M. (2008) Variation at the mu-opioid 
        receptor gene (OPRM1) influences attachment behavior in infant 
        primates. Proc Natl Acad Sci U S A. Apr 1;105(13):5277-81. Epub 
        2008 Mar 31.
Captive Primate Safety Act. Hearings of the House of Representatives, 
        Subcommittee on Fisheries, Wildlife and Oceans. 100th Congress, 
        2nd Session (Testimony of Wayne Pacelle).
Captive Wild Animal Protection Coalition. ``Congress urged to move 
        swiftly on bill to protect primates.'' Available at: 
        www.cwapc.org/pr/pr_20050316_PrimateBill.html. Accessed April 
        8, 2008.
Committee on Natural Resources (2007). ``Rahall: Interior Fesses Up on 
        Politics Trumping Science'' 20/07
Evans S. (2008a) Telephone conversation with Roberts, A. 18/04
Evans S. (2008b) E-mail to Roberts, A. 19/04.
Goodall J. (2005 Letter to Sponsors of Parrot Jungle Island) 20/05
Kinnally EL., Lyons L.A., Abel K., Mendoza S., Capitanio J.P. 
        (2008)Effects of early experience and genotype on serotonin 
        transporter regulation in infant rhesus macaques Genes Brain 
        Behav. Jan 16 [Epub ahead of print]
Price B. (2008) Telephone conversation with Evans, S. 16 /04
Reynolds P. (2008) Telephone conversation with Evans, S, 17 /04
APPENDIX
     Uniting a Proactive Primate and Exotic Animal League (UAPPEAL)
        guidelines for the voluntary placement of exotic animals
    The following are UAPPEAL requirements for our involvement in the 
placement of exotic animals.
NONHUMAN PRIMATE
    <bullet> 30 day quarantine
    <bullet>  All animals must have a health certificate from an 
experienced nonhuman primate veterinarian showing a negative TB test, a 
negative Herpes B and Hepatitis A viral panel and any other 
recommendations from the experienced nonhuman primate veterinarian.
    <bullet>  The new caregiver must have experience with nonhuman 
primates and appropriate enclosures and enrichment protocols.
    <bullet>  The new caregiver must have all applicable local, state 
and/or federal licensing and reside in a legal area.
    <bullet>  There is to be no breeding or selling of the nonhuman 
primate and if the new placement home does not work out for any reason, 
the animal is to be returned to UAPPEAL for replacement into another 
home.
    <bullet>  The disposition of the nonhuman primate will be 
considered in the placement so that the most compatible match can be 
made.
    <bullet>  The costs associated with the placement will be the 
responsibility of the owner and/or the new caregiver and is not the 
responsibility of UAPPEAL
EXOTIC FELINES
    <bullet>  30 day quarantine
    <bullet>  All animals must have a health certificate from an 
experienced exotic feline veterinarian showing a negative parasite 
screening and a negative FIV/FeLV viral panel and any other 
recommendations from the experienced exotic feline veterinarian.
    <bullet>  The new caregiver must have experience with exotic 
felines and appropriate enclosures and enrichment protocols.
    <bullet>  The new caregiver must have all applicable local, state 
and/or federal licensing and reside in a legal area.
    <bullet>  In the case of large cats all interstate placement will 
be to USDA licensed facilities or 501c3 sanctuaries according to the 
laws set by the Captive Wildlife Safety Act.
    <bullet>  There is to be no breeding or selling of the exotic 
feline and if the new placement home does not work out for any reason, 
the animal is to be returned to UAPPEAL for replacement into another 
home.
    <bullet>  The disposition of the exotic feline will be considered 
in the placement so that the most compatible match can be made.
    <bullet>  The costs associated with the placement will be the 
responsibility of the owner and/or the new caregiver and is not the 
responsibility of UAPPEAL
    [NOTE: Examples of documents used by UAPPEAL members have been 
retained in the Committee's official files.]
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Evans, for your very 
helpful comments.
    Mr. Wissinger, I am looking forward now to hearing from you 
next. Please begin.

  STATEMENT OF SKIP WISSINGER, RETIRED CRIMINAL INVESTIGATOR, 
                     NATIONAL PARK SERVICE

    Mr. Wissinger. Madame Chairwoman and members of the 
committee, my name is Skip Wissinger. I recently retired from 
the National Park Service after 33 years as a National Park 
Ranger and a Criminal Investigator/Special Agent in Shenandoah 
National Park.
    Throughout my career, much of my law enforcement efforts 
were specifically focused on the protection of the natural 
resources within our National Parks, including the 
investigating of widespread poaching of wildlife and the 
commercialization of threatened species, such as the American 
Black Bear and certain plant species. I have investigated or 
supervised the investigation of hundreds of cases involving the 
illegal taking or selling of wildlife, particularly from our 
NPS jurisdictions.
    During the last 10 years of my career, I planned and 
supervised the Federal side of several long-term interagency 
covert operations that specifically targeted the poaching of 
black bears, and the commercialization of black bear parts in 
widespread domestic and international black markets.
    These covert investigations extended for up to three years 
in length, involved operating a storefront as a platform to 
gather evidence, and at time utilized as many as five officers 
functioning covertly at the same time. All of the 
investigations, particularly the last, known as Operation VIPER 
[Virginia Interagency Effort to Protect Environmental 
Resources], provided a very clear picture of the nature and 
structure of the illegal black market trade in American Black 
Bear and bear parts within the United States.
    Operation VIPER utilized a storefront operation adjacent to 
SNP in a small community of Elkton, Virginia. While the store 
sold sporting goods on the surface, it quickly became well 
known as a source to illegally purchase black bear gall 
bladders and American ginseng roots.
    Over a three-year period this investigation netted over 100 
individuals, with approximately 700-plus violations of wildlife 
buying and/or selling crimes. Once this storefront was accepted 
as a trusted source of illegal products, we found ourselves in 
the bear gall trade to be almost insatiable. There were many, 
many customers who would have purchased two or three times the 
quantity of bear parts that we offered, who wanted to come back 
for additional purchases more frequently than we permitted, and 
who often wanted discounted prices so they could make more 
profit themselves when reselling to others. So demanding was 
this market that we frequently found ourselves limiting the 
volume of each sale in order to have enough products to sell to 
other interested buyers.
    After 33 years of protecting wildlife, investigating 
wildlife crimes, and experiencing first-hand the size and 
breadth of the black market in black bear trade, I can share 
the following observations, which would be echoed by many of my 
comrades from other agencies in the wildlife protection 
business.
    The cultural, ecological, and economic value of a healthy 
black bear population demonstrates a true national treasure 
that bears represent to all of us. The experience of a hunter 
legally bagging a black bear, or the sheer excitement of a 
family visiting one of our national parks and visiting bears in 
their natural habitat, are just two examples.
    The black market trade in bears has substantially grown in 
the United States in the past two decades. What was once 
believed to be mainly an international market is now primarily 
a domestic market here in the United States. This clearly 
expanded illegal black bear market clearly creates challenges 
for those of us entrusted with protecting wild bear populations 
throughout the country.
    With this in mind, relatively simple but comprehensive 
legislation targeted specifically toward the illegal trade of 
bear parts would provide effective and consistent enforcement 
by agencies throughout the United States.
    The illegality of trafficking in protected species is well 
known by both domestic and international buyers. Traffickers 
have little fear of getting caught. There is a common belief 
that the American judicial system will not be very hard on you, 
particularly for first-time offenders, and any fines imposed 
are simply the cost of doing business.
    The largest fear these buyers typically have is actually a 
concern about the authenticity of the product, not of getting 
caught. Again, buyers perceive that most defendants prosecuted 
will not be incarcerated but for short periods of time, or will 
only be required to pay a fine.
    The black market buyers are not concerned about the impact 
they have on our domestic wildlife population. They are very 
aware of the scarcity of the same product in their native 
country. They see our bears in the U.S. as vastly less 
expensive, more readily available than their own seriously 
depleted population.
    About one-third of our buyers were not just consumers 
themselves, but were acting as middlemen to sell, resell bear 
products.
    Ms. Bordallo. Mr. Wissinger, could you wrap up your 
statement, please?
    Mr. Wissinger. Yes. I would appreciate entering the rest of 
my written testimony into evidence. And I thank you for the 
opportunity to appear today.
    Ms. Bordallo. Mr. Wissinger, we include the full statement 
into the record.
    Mr. Wissinger. Thank you.
    [The prepared statement of Mr. Wissinger follows:]

      Statement of Skip Wissinger, Retired Criminal Investigator, 
                         National Park Service

    My name is Skip Wissinger. I recently retired from the National 
Park Service after 33 years as a National Park Ranger and a Criminal 
Investigator/Special Agent in Shenandoah National Park. Throughout my 
career much of my law enforcement efforts were specifically focused on 
the protection of the natural resources within our National Parks 
including the investigating of widespread poaching of wildlife and the 
commercialization of threatened species, such as the American Black 
bear and certain plant species. I have investigated or supervised the 
investigation of hundreds of cases involving the illegal taking or 
selling of wildlife, particularly from our NPS jurisdictions.
    During the last 10 years of my career, I planned and supervised the 
federal side of several long-term interagency covert operations that 
specifically targeted the poaching of black bears and the 
commercialization of black bear parts in widespread domestic and 
international black markets.
    These covert investigations extended for up to 3 years in length, 
involved operating a storefront as a platform to gather evidence, and, 
at times, utilized as many as 5 officers functioning covertly at the 
same time. All of the investigations, particularly the last, known as 
Operation VIPER (Virginia Interagency Effort to Protect Environmental 
Resources) provided a very clear picture of the nature and structure of 
the illegal black market trade in American Black bear and bear parts 
within the United States.
    Operation VIPER utilized a storefront operation adjacent to SNP in 
a small community of Elkton, Va. While the store sold sporting goods on 
the surface, it quickly became well-known as a source to illegally 
purchase black bear, bear gall bladders and American ginseng roots. 
Over a three year period this investigation netted over 100 individuals 
with approximately 700+ violations of wildlife buying and/or selling 
type of crimes. Once this store front was accepted as a trusted source 
for these illegal products, we found business in the bear gall trade to 
be almost insatiable. There were many, many customers who would have 
purchased two or three times the quantity of bear parts that we 
offered, who wanted to come back for additional purchases more 
frequently than we permitted, and who often wanted discounted prices so 
they could make more profit themselves when reselling to others. So 
demanding was this market, that we frequently found ourselves limiting 
the volume of each sale in order to have enough products to sell to 
other interested buyers.
    After 33 years of protecting wildlife, investigating wildlife 
crimes and experiencing first hand the size and breadth of the black 
market trade in black bears in the US, I can share the following 
observations which would also be echoed by many of my comrades from 
other agencies in the wildlife protection business.
    <bullet>  The cultural, ecological and economic value of a healthy 
black bear population demonstrates the true national treasure that 
bears represent to all of us. The experience of a hunter legally 
bagging a black bear or the sheer excitement of a family visiting one 
of our National Parks and witnessing bears in their natural habitat are 
just two examples of the importance of careful stewardship of this 
wildlife treasure for today as well as future generations.
    <bullet>  The black market trade in bears has substantially grown 
in the U.S. in the past two decades. What was once believed to be 
mainly an international market is now primarily a domestic market here 
in the U.S. This newly expanded illegal bear market clearly creates 
challenges for those entrusted with protecting the wild bear population 
throughout the country. With this in mind, relatively simple but 
comprehensive legislation (targeted specifically toward the illegal 
trade of bear parts) would provide effective and consistent enforcement 
by agencies throughout the U.S.
    <bullet>  The illegality of the trafficking in protected species is 
well-known by both domestic and international buyers. Traffickers have 
little fear of getting caught. There is a common belief that the 
American judicial system will not be very hard on you, particularly for 
first time offenders, and that any fines imposed are simply a cost of 
doing business. The largest fear these buyers have is actually a 
concern about the authenticity of the product, not of getting caught. 
Again buyers perceive that most defendants prosecuted in state and 
federal courts will not be incarcerated for even short periods and will 
only be required to pay a fine.
    <bullet>  The black market buyers are not concerned about the 
impact they have on our domestic wildlife populations, however, they 
are very aware of the scarcity of the same products in their native 
country. They see our bears in the U.S. as vastly less expensive and 
more readily available than their own seriously depleted populations. 
About 1/3 of our buyers were not just consumers themselves--but were 
also acting as middlemen to resell bear products for profit purposes.
    <bullet>  The majority of time spent by our dedicated conservation 
officers throughout the country is devoted toward policing hunter 
behavior and protecting land-owner rights and property. Unfortunately 
little time, manpower or money is invested in investigating wildlife 
trafficking crimes.
    <bullet>  I feel very privileged for the NPS to have been able to 
partner with other agencies such as the Va. Dept. of Game and Inland 
Fisheries in numerous interagency investigations. From an operational 
standpoint, it is critical that LE agencies be free to conduct 
investigations, either together or at times independently, without 
jurisdictional, authority or regulatory limitations and be nimble, 
timely and flexible enough to react to situations as they arise. Any 
legislation that limits conservation officers' ability to quickly 
pursue an investigation will hinder the success of that operation.
    <bullet>  I would also point out that federal prosecution of 
eligible trafficking cases can be severely limited due to the small 
number of laboratories available, capable and willing to perform 
``species specific'' forensic analysis. This scarcity of forensic 
support weakens prosecutorial evidence and often allows felonious 
conduct to result in lesser misdemeanor convictions and reduced 
sentences.
    <bullet>  I understand that in previous versions of the bill, 
HR3029, there was a prohibition not only in the trafficking in bear 
viscera, but also in the trafficking of products labeled, advertised, 
or said to contain bear viscera. The intent of illegal traffickers 
should be prosecutable as well as the actual act. If an illegal sale is 
represented as a black bear gall bladder by the seller, then the seller 
should be prosecuted of selling the same, and the buyer of purchasing 
the same, whether or not the gall bladder in question is forensically 
proven to be black bear. This small legislative point is essential and 
could also eliminate the requirement for exhaustive field sampling and 
subsequent forensic testing, as similar statutory measures have 
assisted prosecutions within the illegal drug trade.
                                 ______
                                 
    Ms. Bordallo. I want to thank you for your statement and 
your perspective. And I would now like to invite Mr. Schoenke 
to testify on behalf of the American Hunters and Shooters 
Association.
    Please begin.

             STATEMENT OF RAY SCHOENKE, PRESIDENT, 
           AMERICAN HUNTERS AND SHOOTERS ASSOCIATION

    Mr. Schoenke. Thank you, Madame Chairwoman. My name is Ray 
Schoenke. I am President of the American Hunters and Shooters 
Association, and I appreciate the opportunity to share with you 
our support for H.R. 5534, the Bear Protection Act of 2008.
    My experience as an outdoorsman includes being a lifelong 
gun owner, hunter, and conservationist. And I was a former 
professional football player and businessman. I own and operate 
a 300-acre farm on Maryland's eastern shore, and have hunted 
throughout the United States.
    Madame Chairwoman, we have a history in common in 
Polynesia. One of my favorite places to hunt is in Hawaii.
    My organization is a new pro-hunting gun rights 
organization which believes in sound management of our wild 
natural resources. Responsible and ethical actions are the duty 
of all hunters and shooters who enjoy the shooting sports. By 
setting a proper example, AHSA believes we can protect the 
natural environment for future generations to enjoy.
    Sound conservation policies assure quality hunting 
opportunities and the managed use of our wildlife and other 
natural resources.
    Madame Chairwoman, as you are likely aware, most black bear 
populations in the United States appear to be very healthy, and 
generally increasing. Also as you are likely aware, the 
responsibility for the conservation and management of bear 
species in the United States lies largely with State Fish and 
Wildlife agencies.
    Our fear is that the growing illegal trade in bear parts 
has put our country on a fast track toward the eventual decline 
of otherwise healthy bear populations here in the United 
States.
    Wildlife management experts agree that the market demand 
for bear gall bladders and bile is on the rise, and is 
negatively impacting bear populations worldwide. Evidence 
points to a pattern of killing bears in the United States and 
Canada in order to satisfy the demand for bear parts in 
consuming nations, primarily Asian markets.
    The current approach of trying to regulate the illegal 
bear-parts trade on a state-by-state basis in the United 
States, and on a country-by-country basis globally, has failed.
    AHSA believes it is time to recognize the usefulness, if 
not the necessity, for national legislation uniformly 
prohibiting commercialization of bear viscera. We know the 
Asian bear population has declined rapidly. But because Asia's 
economic development is expanding, the demand for bear viscera 
will increase. Add into the problem the fact that the 
international trade in American black bear parts is largely 
unregulated.
    Conservationists maintain that because it is impossible to 
tell an American black bear gall bladder from that of a 
protected species, traders can claim the organs come from 
legally hunted animals.
    The wide-open policy of some states that allow the sale and 
export of bear viscera may be driving the bear-poaching 
problem. Recently there have been several highly successful 
sting operations to uncover bear poaching and illicit trade in 
bear parts, as was already explained to you.
    Evidence that the bear trade parts from East Coast, West 
Coast, and Mid-Atlantic Region of the U.S. continues today 
unfettered. H.R. 5534, the Bear Protection Act of 2008, would 
assist state and Federal wildlife law enforcement efforts 
regarding bear management, while creating a sound national 
policy against the trade in bear gall bladders and bile.
    H.R. 5534 is narrowly crafted to address U.S. involvement 
in the bear gall bladder trade, without Federalizing hunting. 
Usurping lawful sportsmen's ability to hunt bears in accordance 
with state laws and regulations, or undermining the ability of 
state game agencies to otherwise manage their resident bear 
populations.
    AHSA believes a uniform national ``bright line'' 
prohibition on the trade of bear gall bladders and viscera will 
greatly clarify the rules for all American hunters. Similar 
legislation, which was approved by the U.S. Senate twice 
before, had overwhelming bipartisan support, and was supported 
by dozens of representatives of state wildlife agencies.
    Historically, human decisions to protect wildlife from 
exploitation usually come long after it is time for taking 
necessary action. Some wildlife populations have been 
drastically diminished, sometimes past the point of recovery, 
before appropriate steps have been taken to prevent further 
declines.
    By learning from these conservation mistakes and applying 
responsible wildlife management principles, we can prevent 
ecological mistakes and protect our precious natural resources 
before it is too late.
    Thank you for the opportunity to share our views.
    [The prepared statement of Mr. Schoenke follows:]

                 Statement of Ray Schoenke, President, 
            American Hunters and Shooters Association, Inc.

    Thank you, Madam Chairwoman. I am Ray Schoenke, President of the 
American Hunters and Shooters Association (AHSA) and I appreciate the 
opportunity to share with you AHSA's support for H.R. 5534, The Bear 
Protection Act of 2008.
    My experience as an outdoorsman includes being a lifelong gun 
owner, hunter, conservationist and former Washington Redskin football 
player. I own and operate a 300-acre hunting preserve on Maryland's 
Chesapeake Bay, and have hunted throughout the United States and 
Europe; from the plains of South Dakota, to the panhandle of Texas, to 
the slopes of Mauna Kea, Hawaii, to the countryside of England.
    My organization, AHSA, is a new pro-hunting, gun rights 
organization, which has only been in existence for about two years. 
Despite that fact, AHSA is steadily gaining national recognition for 
not being afraid to speak out in favor of policy positions that may not 
always be popular with traditional gun organizations. AHSA has national 
membership base of hunters and shooters who not only believe in the 
individual right to keep and bear arms, but also believe that along 
with our 2nd amendment right comes a civic responsibility to make sure 
our communities are safe and our environment is protected and 
maintained for future generations.
    AHSA believes in the biologically sound management of our wild 
natural resources. Responsible and ethical actions are the duty of all 
hunters and shooters who enjoy the shooting sports. Our hunting 
heritage depends upon hunters understanding their contribution to the 
maintenance of a healthy, productive environment. By setting the proper 
example, AHSA believes we can protect the natural environment for 
future generations to enjoy. Sound conservation policies assure quality 
hunting opportunities and the managed use of our wildlife and other 
natural resources.
    We firmly believe hunting is a natural, beneficial and enjoyable 
use of our renewable wildlife resources and it is an American tradition 
to be passed on to future generations.
    Madam Chairwoman, as you are likely aware, most black bear 
populations in the United States appear to be healthy and generally 
increasing. Also, as you are likely aware, the statutory responsibility 
for the conservation and management of bear species in the United 
States lies largely with state fish and wildlife agencies. Our fear 
however, is that the growing illegal trade in bear parts has put our 
country on a fast track toward the eventual decline of otherwise 
healthy bear populations here in the United States.
    Wildlife management experts agree that the market demand for bear 
gallbladders and bile is on the rise and is negatively impacting bear 
populations worldwide. Evidence points to a systematic pattern of 
killing bears in the United States and Canada in order to satisfy the 
demand for bear parts in consuming nations, primarily Asian markets. 
The bear parts trade is international in scope and difficult to 
regulate and contain. The current approach of trying to regulate the 
legal bear parts trade on a state-by-state basis in the United States 
and on a country-by-country basis globally has failed and, according to 
some experts, has actually facilitated illegal markets. AHSA believes 
it is time to recognize the usefulness, if not the necessity, for 
national legislation uniformly prohibiting commercialization of bear 
viscera.
    In the late 1980s, U.S. and Canadian park rangers began finding 
carcasses of American black bears, missing only their gallbladders and 
paws or claws. It was not long before law enforcement officials began 
to realize the nature and scope of the problem: American black bears 
were slaughtered to meet demand in South Korea, Japan, Taiwan and 
China. In these countries, the bile from bear gallbladders is 
considered to have great medicinal qualities.
    We know the Asian bear population has declined rapidly. All five of 
Asia's bear species are so rare that captive animals are being farmed 
for their gallbladders and bile. Overall, all but two of the world's 
eight bear species are in danger of extinction. As Asia's economic 
development expands, the demand for bear viscera will very likely 
increase.
    Adding to the problem is the fact that international trade in 
American black bear parts is largely unregulated. States such as New 
York, Virginia, West Virginia, Idaho, Wyoming, New Hampshire, Vermont, 
and Maine allow the sale and export of the bear parts. Conservationists 
maintain that because it is impossible to tell an American black bear's 
gallbladder from that of a protected species, traders can claim the 
organs come from legally hunted animals. The wide open policy of some 
states that allow the sale and export of bear viscera may be driving 
the bear poaching problem.
    Worth noting here, is a recent highly successful sting operation to 
uncover bear poaching and the illicit trade in bear parts in the 
Shenandoah National Park in Virginia. Operation VIPER (Virginia 
Interagency Effort to Protect Environmental Resources), which was 
announced in January 2004, documented nearly 500 state violations and 
more than 200 federal violations by 100 or more people in seven states 
and the District of Columbia for their roles in this illegal trade. 
Shenandoah National Park Superintendent Douglas K. Morris unequivocally 
stated that ``Commercialization of protected natural resources is a 
nationwide, worldwide problem, and some of it starts right here in 
Shenandoah National Park as well as other National Park Sites.''
    Operation VIPER uncovered evidence that the trade in bear parts 
from the East Coast, West Coast, and Mid-Atlantic region of the U.S. 
continues unfettered, involving whole bears, bear gallbladders, paws, 
and other parts being trafficked to Washington, DC, Maryland, West 
Virginia, North Carolina, New Jersey, New York, and California. 
Nationals of the Republic of Korea have been implicated in the trade as 
the destination of the bear parts in this case and in other cases as 
well.
    Wildlife management experts have long warned that the variations in 
state laws that regulate the trade in bear parts create an unhealthy 
incentive for poachers. Cases such as VIPER are not unusual. Even 
Alaska, a state with the largest bear population, is susceptible to 
poaching and illegal trade. As a U.S. Fish and Wildlife Service Special 
Agent in Alaska told the Anchorage Daily News the danger poaching poses 
is that it ``can make a significant impact [to the bear population] in 
a small area.'' Despite the fact that Alaska has a ban on the 
commercialization of bear parts, poaching occurs because gallbladders 
can easily be smuggled out of the state and sold in other non-
restrictive states.
    The H.R. 5534, the Bear Protection Act of 2008 would assist state 
and federal wildlife law-enforcement efforts regarding bear management 
while creating a sound national policy against the trade in bear 
gallbladders and bile.
    H.R. 5534 is narrowly crafted to address U.S. involvement in the 
bear gallbladder trade without federalizing hunting, usurping lawful 
sportsmen's ability to hunt bears in accordance with state laws and 
regulations, or undermining the ability of state game agencies to 
otherwise manage their resident bear populations. AHSA believes a 
uniform national ``bright line'' prohibition on the trade of bear 
gallbladders and viscera will greatly clarify the rules for all 
American hunters.
    Similar legislation, which was approved by the United States Senate 
twice before, had overwhelming bi-partisan support and was supported by 
dozens of representatives of state wildlife agencies.
    In fact, opponents of federal legislation that had been introduced 
in previous sessions of Congress to prohibit the commercialization of 
bear parts argued simply that the relative health of the U.S. bear 
population makes such legislation unnecessary.
    Historically, human decisions to protect wildlife from exploitation 
usually come long after its time for taking necessary action. Some 
wildlife populations have been drastically diminished, sometimes past 
the point of recovery, before appropriate steps have been taken to 
prevent further declines. By learning from these conservation mistakes, 
and applying responsible wildlife management principles, we can prevent 
ecological mistakes and protect our precious natural resources before 
it is too late.
    Thank you for the opportunity to share AHSA's view on this 
important piece of legislation, and I would be happy to answer any 
questions.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Schoenke, and I 
appreciate your view.
    Mr. Hogan, it is now your turn to testify, so please 
proceed.

         STATEMENT OF MATT HOGAN, EXECUTIVE DIRECTOR, 
           ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Hogan. Thank you, Madame Chair and members of the 
Subcommittee. I am Matt Hogan, the Executive Director of the 
Association of Fish and Wildlife Agencies.
    I appreciate the opportunity to share with you the 
Association's perspectives on H.R. 5534, the Bear Protection 
Act. The Association of Fish and Wildlife Agencies was founded 
in 1902 as a quasi-governmental organization of public agencies 
charged with the protection and management of North America's 
fish and wildlife resources. The Association's governmental 
members include the Fish and Wildlife Agencies of all 50 
states, provinces, territories, and Federal governments of the 
U.S., Canada, and Mexico.
    The Association does not support H.R. 5534 as it is 
currently written. We conclude that this bill would do little, 
if anything, to address the intended purpose of the bill, the 
poaching of bears for their viscera. In fact, it may hinder 
efforts to address the illegal harvest and trade of their 
viscera, as well as other wildlife and their parts.
    Therefore, we believe that it represents an unnecessary 
intrusion into state wildlife management authorities without a 
demonstrated need.
    Under existing law, any interstate movement of viscera, 
from or into a state, from a bear that has been illegally taken 
or poached is already subject to prosecution under the Lacey 
Act. Currently bear populations in the United States are 
healthy, robust, and expanding in most places. When and where 
domestic poaching occurs, state and Federal enforcement is 
adequately addressing it.
    With respect to populations of Asian bears, which are most 
subject to poaching for their viscera, this bill would have 
arguably minimal effect. In fact, H.R. 5534 could quite 
possibly have a negative impact on efforts to address the 
serious threats to Asian bear populations by detracting from 
capacity in the U.S. Fish and Wildlife Service's Division of 
Law Enforcement from higher priorities, especially addressing 
illegal international trade, and commerce of wildlife parts of 
products.
    The Association is far from alone in this conclusion. The 
April 2002 comprehensive report from WWF TRAFFIC North America 
on the status, management, and trade of American Black Bear in 
North America definitively concludes, and I quote, ``Given the 
information gleaned from its surveys and the continuing growth 
of most North American Black Bear populations, TRAFFIC 
concluded that further laws banning all trade in bear gall 
bladders or other parts at the national level are currently 
unnecessary. Indeed, concerns exist that closing legal markets 
have the unintended consequence of raising prices in the 
underground market, and perhaps stimulating poaching in illegal 
trade.
    ``In addition, TRAFFIC is concerned that expending the 
necessary resources to enforce such a ban could detract from 
the conservation of other species that are far more endangered 
or threatened by trade or other reasons.''
    Information from the states substantiates that while 
incidental illegal harvest occurs, there is no significant 
population impact from illegal harvest in any bear range state. 
If there were, I can assure you that State Fish and Wildlife 
agencies would take appropriate actions to address it.
    The states spend tens of millions of dollars each year in 
wildlife law enforcement, and I assure you would be aware of 
any significant poaching of domestic bear populations.
    Our state-based system of fish and wildlife conservation in 
the United States is justifiably the envy of the rest of the 
world. Accordingly, we would respectfully suggest that rather 
than the creation of additional Federal statutory authority, as 
contemplated in H.R. 5534, the provision of additional 
resources to the U.S. Fish and Wildlife Service's Division of 
Law Enforcement would be a more appropriate and effective means 
of protecting Asian bear populations by the regulation of 
illegal trade in their parts and products.
    The Association has long been an advocate for increasing 
funds for Fish and Wildlife Service special agents and wildlife 
inspectors to more effectively deal with illegal trade in 
foreign commerce.
    The Association is certainly willing to work with this 
subcommittee, the bill sponsors, and the U.S. Fish and Wildlife 
Service on a more appropriately focused import-export bill that 
would address any existing regulatory deficiencies under the 
Convention on International Trade in Endangered Species, or 
CITES. However, a bill that addresses only domestic activities 
is simply without need, and does little to address the real 
problem.
    Again, Madame Chair, thank you for providing us the 
opportunity to testify on this legislation. I would be happy to 
answer any questions that you or other members of the 
Subcommittee might have.
    [The prepared statement of Mr. Hogan follows:]

             Statement of Matt Hogan, Executive Director, 
               Association of Fish and Wildlife Agencies

    Thank you, Madam Chair. I am Matt Hogan, Executive Director, of the 
Association of Fish and Wildlife Agencies (Association). I appreciate 
the opportunity to share with you the Association's perspectives on 
HR5534, the Bear Protection Act. The Association of Fish and Wildlife 
Agencies was founded in 1902 as a quasi-governmental organization of 
public agencies charged with the protection and management of North 
America's fish and wildlife resources. The Association's governmental 
members include the fish and wildlife agencies of the states, 
provinces, and federal governments of the U.S., Canada, and Mexico. All 
50 states are members. The Association has been a key organization in 
promoting sound resource management and strengthening federal, state, 
and private cooperation in protecting and managing fish and wildlife 
and their habitats in the public interest.
    The Association opposes HR5534 as it is currently written. We 
conclude that this bill would do little if anything to address the 
intended purpose of the bill--the poaching of bears for their viscera. 
In fact, it may hinder efforts to address the illegal harvest and trade 
of bear viscera as well as other wildlife and their parts. Therefore, 
we believe strongly that it represents an unnecessary intrusion into 
state wildlife management authorities.
    Under existing law, any interstate movement of viscera from or into 
a state from a bear that has been illegally taken and/or where 
possession, use or sale is not legal is already subject to prosecution 
under the Lacey Act. Currently bear populations in the United States 
(and North American) are healthy, robust and expanding in most places. 
When and where domestic poaching occurs, state and federal law 
enforcement is adequately addressing it. With respect to populations of 
Asian bears which are most subject to poaching for their viscera, but 
also under intense pressure from habitat loss, this bill would have 
arguably minimal affect. HR5534 is therefore both unnecessary and could 
quite possibly have a negative impact on efforts to address the serious 
threats to Asian bear populations by detracting from capacity in the 
U.S. Fish and Wildlife Service's Division of Law Enforcement from 
higher priorities, especially addressing illegal international trade 
and commence of wildlife parts or products.
    The Association is far from alone in this conclusion. The April 
2002 compreshensive report from TRAFFIC North America on the status, 
management and trade of the American black bear in North America 
definitively concludes ``Given the information gleaned from its 
surveys, and the continuing growth of most North American black bear 
populations, TRAFFIC concluded that further laws banning all trade in 
bear gallbiaders or other parts at the national level are currently 
unnecessary. Indeed, concerns exist that closing legal markets have the 
unintended consequence of raising prices in the undergrounnd market and 
perhaps stimulating poaching and illegal trade. In addition, TRAFFIC is 
concerned that expending the necessary resources to enforce such a ban 
could detract from the conservation of other species that are far more 
endangered or threatened by trade or for other reasons.''
    Madam Chair, we understand that the intent of the bill sponsor is 
to help address the poaching of Asian bear species for their gall. We 
applaud efforts to address the poaching of Asian bear species for their 
gall. However, the bill as currently drafted focuses its application 
only on the regulation of trade of bear viscera in the United States 
based on the premise that domestic poaching of U.S. indigenous bear 
species is contributing to the market demand for bear gall, and is 
having (or could in the future have) a significant negative impact on 
U.S. bear populations. There is no substantiation to support either of 
these premises, and the Association therefore concludes that as 
introduced, HR5534 is neither necessary nor helpful in addressing the 
decline of foreign bear species. The Association is certainly willing 
to work with the bill sponsors and the USFWS on a more appropriately 
focused import-export bill that would address any existing regulatory 
deficiencies under the Convention on International Trade in Endangered 
Species of Fauna and Flora (CITES). However, a bill that addresses only 
domestic activities is simply without need and does little to address 
the real need.
    As noted above, bear populations throughout the United States are 
robust and generally increasing. Also,, the statutory responsibility 
for the conservation and management of bear species in the United 
States lies largely with the State fish and wildlife agencies, with the 
exception of polar bear, grizzly bear and Louisiana black bear, where 
the USFWS shares jurisdiction for these species with the States.
    Regulation of bear harvest and allowable use of any parts or 
products (fur, claws, gall, etc.) is thus closely regulated by all 
State Fish and Wildlife agencies including through the application and 
enforcement of the Lacey Act by State and federal wildlife officers. As 
you are aware, the Lacey Act already makes it a federal violation to 
transport or sell in interstate or foreign commerce any wildlife that 
is illegally taken in the state of origin. Accordingly, any bear that 
was illegally taken (poached) for it's viscera or any other purpose is 
already a violation of state law and if that bear or any part of that 
bear (including the viscera) was transported out of the state from 
which it was taken, it would immediately trigger the Lacey Act. In 
addition, information from the States substantiates that while 
incidental illegal harvest occurs, there is no significant population 
impact from illegal harvest in any bear range state. If there were, I 
can assure you that our State fish and wildlife agencies would take 
appropriate action to address it. The states spend tens of millions of 
dollars each year in wildlife law enforcement and I assure you would be 
aware of any significant poaching of domestic bear populations. The 
several States' record on conservation law enforcement speaks for 
itself and there is no substantiated evidence that would compel federal 
intervention. The State fish and wildlife agencies are prepared to 
respond to any increase in poaching of bears.
    This conclusion is also corroborated by the USFWS in a paper 
delivered in 1997 at the 2nd International Symposium on the Trade of 
Bear Parts, in which Dr. Gnam and Dr. Lieberman of the Office of 
Management Authority conclude that the FWS ``...Division of Law 
Enforcement has determined that the poaching of American black bear for 
their gall bladders and other parts to supply the demands of the Asian 
market for these products is not a significant problem and does not 
occur on any large scale.''
    The Association believes, therefore, that the application of the 
Lacey Act to all U.S. domestic commerce in bear viscera, whether it is 
legal in a state or not, as proposed in HR5534 is unnecessary for bear 
resource protection, and is an inappropriate federal intrusion into 
state management authorities and prerogatives.
    Our state-based system of fish and wildlife conservation in the 
United States is justifiably the envy of the rest of the world. 
Accordingly, we would respectfully suggest that rather than the 
creation of additional federal statutory authority as contemplated in 
H.R. 5534, especially where it preempts state management prerogatives, 
the provision of additional resources to the U.S. Fish and Wildlife 
Service's Division of Law Enforcement would be a more appropriate and 
effective means of affecting Asian bear populations by the regulation 
of illegal trade in their parts or products. The Association has long 
been an advocate for increasing funds for FWS Special Agents and Port 
(of Entry) Inspectors to more effectively deal with illegal trade in 
foreign commerce.
    I would reiterate as indicated earlier, the Association would be 
happy to work with the bill sponsors and USFWS on a more narrowly 
focused import-export bill that could address some legal deficiencies 
in CITES that might exist now. With respect to the savings clause in 
H.R. 5534, it does not adequately save the states' authorities. 
However, we do have language which we believe would do that, and will 
be happy to work with staff if you so desire.
    In conclusion, the Association believes HR5534 as introduced is 
both unnecessary and inappropriately expansive in its reach to domestic 
bear species, while doing little to protect and conserve bear 
populations at risk of poaching for their viscera. Accordingly, we 
therefore must oppose HR5534 as introduced.
    Again, thank you for providing us with the opportunity to testify 
on this legislation.
                                 ______
                                 

      Response to questions submitted for the record by Matt Hogan

CHAIRWOMAN BORDALLO QUESTIONS
 QUESTION 1: Does the Bear Protection Act require individual states to 
        allow or disallow bear hunting?
ANSWER:
    No.
 QUESTION 2: Does the Bear Protection Act require states that allow 
        bear hunting to conduct those hunts in a certain manner, with 
        certain weapons, for a season of a certain length, or with 
        certain bag limits?
ANSWER:
    No
 QUESTION 3: Which state game agencies does your Association represent?
ANSWER:
    All 50 State Fish and Wildlife Agencies are members of the 
Association of Fish and Wildlife Agencies.
 QUESTION 4: I've seen many statements in the past discussions on the 
        Bear Protection Act where state game agencies supported a 
        federal prohibition because they felt it would deter poaching 
        and help prosecute wildlife criminals. So who speaks for those 
        agencies that support the bill?
ANSWER:
    The Association of Fish and Wildlife Agencies represents the 
collective perspectives of the 50 state fish and wildlife agencies as 
arrived at through a deliberative process of subject matter committee, 
a legislative committee, and ultimately the assembled body of 
Directors. However, any state fish and wildlife agency is free to take 
its own individual position even if it is contrary to the Association 
position.
 QUESTION 5: Do you know of any demand for bear gall bladders within 
        the U.S.?
ANSWER:
    Some state fish and wildlife agencies report use of legally taken 
bear gall in their state.
 QUESTION 6: Can you explain what a robust bear population is? What is 
        this in comparison to: 10 years ago; 50 years ago; 100 years 
        ago?
ANSWER:
    A robust bear population is one with stable or increasing numbers, 
stable or expanding range and good fecundity. Black bear populations in 
the U.S. are much healthier now than both10 or 50 years ago. Data from 
100 years ago are sparse, but while it is evident that the black bear 
range has diminished, extant populations are healthy where habitat 
remains.
 QUESTION 7: While the overall bear population in North America is 
        healthy, aren't there some states with very small bear 
        populations? Would you agree that if one of these poaching 
        rings were set up in a state with a small population, poaching 
        might not make a dent in the continent-wide population, it 
        could have serious consequences in those states with small 
        populations of wild bears? I would not expect the Association 
        to support, for example, the loss of 20% or 30% or 40% of a 
        small statewide bear population to poachers, would it?
ANSWER:
    Yes, there are some states with small bear populations, but every 
state has diligent law enforcement capability to deter poaching that 
would be significantly deleterious to that state's bear population. 
And, to make it clear for the record, of course the Association would 
not support poaching loss to bear populations, but poaching occurs and 
is one of those population constraints that require management 
attention.
 QUESTION 8: Should individual states be allowed to decide for 
        themselves whether traditional medicine practitioners can use 
        tiger bone or rhino horn in their pharmacopoeia? (The answer 
        will likely be that these are endangered species and their 
        import is banned under CITES because they are Appendix, I, so 
        the follow up would be:) (2) Do you agree that the federal 
        government is within its right to prohibit the import and sale 
        of endangered Appendix I specimens? (3) However, currently if 
        someone succeeds in importing bear gallbladders from highly 
        endangered Asiatic bear galls or bile into New York they can be 
        fraudulently sold as American bear parts. And since it's legal 
        in New York, there would be no need for state authorities to 
        investigate or uncover this dangerous fraud? (4) Those parts 
        could then be shipped to other states as well-so essentially 
        the status quo facilitates interstate commerce in prohibited, 
        endangered species parts and derivatives?
ANSWER:
    All questions herein seem to dismiss acknowledgement that under 
circumstances where bear gall is illegally taken and/or moved to or 
from a state where it is not legal to posses it, the Lacey Act is 
triggered. We acknowledge that the U.S. is obligated under CITES to 
impose international commerce restrictions. Under the circumstances 
described in the question that someone ``succeeds in importing bear 
gallbladders from highly endangered Asiatic bear into the New York'', 
then a federal prohibition is already triggered and a violation has 
occurred.
 QUESTION 9: Mr. Hogan, in your testimony you state that passage of the 
        Bear Protection Act would constitute ``an unnecessary federal 
        intrusion into state management authorities and prerogatives.'' 
        How exactly, on the ground, would enactment of this legislative 
        harm state wildlife management?
ANSWER:
    Conservation of resident fish and wildlife is not a federal 
authority delegated to the states. The states under the U.S. 
Constitution retain the principal authority for management of resident 
fish and wildlife and share jurisdiction where Congress has given 
federal agencies certain conservation responsibilities for migratory 
birds, listed threatened and endangered species, etc. States are 
succeeding very well in managing for robust populations of black bears, 
including possession and use of certain parts or products under state 
law. There is no substantiated need to federalize black bear 
management.
 QUESTION 10: Members of this subcommittee, including myself, would be 
        very supportive of your suggested alternative to passing the 
        Bear Protection Act. We would love to see sufficient federal 
        funding appropriated for U.S. Fish and Wildlife Special Agents 
        and Port Inspectors. While we can advise the appropriators on 
        priority needs, unfortunately, this subcommittee can only 
        really affect change by authorizing or prohibiting actions. And 
        yet we feel very strongly that bears in the United States 
        should benefit from the strongest possible protections. I have 
        to be frank and tell you I don't understand why you wouldn't 
        support the Bear Protection Act and then seek additional 
        protections such as additional safeguards in international 
        trade through, for example, the Ways and Means Committee.
ANSWER:
    The Association of Fish and Wildlife Agencies has long advocated 
increased funding for U.S. Fish and Wildlife Service Special Agents and 
Port Inspectors and will continue to do so. 4 State Fish and Wildlife 
Directors are also on the U.S. Department of State CITES delegation to 
the CoPs. So, we are significantly involved in both domestic and 
international bear conservation efforts. State fish and wildlife 
agencies are recognized under CITES protocol as the management 
authorities for resident fish and wildlife in the U.S. The real 
deficiency in international bear conservation efforts lies outside of 
North America, not domestically. There is simply no need to federalize 
black bear management, and yet there is a large unmet need in 
international bear conservation efforts.
 QUESTION 11: You state in your testimony that H.R. 5534 does not 
        adequately save the States' authorities. I find that very 
        concerning. So I look to the bill's section 5, and I read, 
        ``None of the amendments made by this Act shall be construed to 
        affect the regulation by any State of its bear populations or 
        to affect the hunting of bears that is lawful under applicable 
        State laws and regulations.'' I don't believe that's language 
        that is subject to interpretation. Could you please explain?
ANSWER:
    The Association proffers an improvement to the savings clause thus: 
``None of the amendments made by this Act shall be construed to affect 
the regulation by any state of its bear populations or to affect the 
hunting of bears or the possession or use of the parts or products 
including viscera that is lawful under applicable state laws and 
regulations.''
BROWN QUESTIONS
 QUESTION 1: Mr. Hogan, I understand that there are five states that 
        allow the trade of legally acquired bear parts. Can you 
        identify those and briefly comment on the provisions in those 
        states?
ANSWER:
    This bill would preempt state authority in the following states:
    <bullet>  NEW YORK: allows trade in bear parts. Bear populations 
are healthy and expanding in the state. New York has seen no need to 
restrict trade in bear parts.
    <bullet>  6NYCRR 1.31: (6) Parts of bear, other than flesh, may be 
possessed and sold provided the parts are from a black bear legally 
taken and reported in New York State.
    <bullet>  VERMONT: In the harvest of black bears there are 32 laws 
and regs on hunting of bears and subsequent sale of legally harvested 
bear parts. 250-750 black are taken each fall during a 77 day season. 
Harvest equates to 20,000--45,000 lbs of bear meat harvested annually 
from the forests of Vermont.
    While is it legal to sell bear parts only 9% of successful hunters 
sold any part of their bear; only 7% sold the gall bladder (10 gall 
bladders sold instate, 4 sold out of state); average price of a gall 
bladder was $59.
    Section 4783(b) (2): A person may buy or sell at any time the head, 
hide, paws and internal organs of a black bear, legally taken.
    <bullet>  WYOMING: The sale of viscera from legally harvested bears 
is not prohibited. Wildlife law enforcement officers have not 
documented any trade or sale of bear viscera in Wyoming during the last 
five years.
    <bullet>  IDAHO: allows the sale of bear parts, including viscera.
    Possession and Sale of Wildlife Parts: Lawfully harvested
    Wildlife parts ``except edible meat from game animals--may be 
purchased, bartered and sold when accompanied by a written statement 
showing said wildlife was lawfully harvested. If black bear or mountain 
lion parts--excluding tanned/finished rugs or mounts--are sold or 
bartered, a signed written statement showing the taker's name, address, 
license and tag numbers, date and the location of kill must be provided 
to the buyer. Buyers must submit completed transaction statements to 
the state agency within ten (10) days of sale.
    <bullet>  MAINE: 3,000--4.000 bears taken annually; the sale of 
bear parts has never driven the kill of bears, demand for galls lower 
than 10 years ago. Teeth and claws are used for jewelry and skins for 
rugs, but not high volume. Real bear moneymaker is guiding bear 
hunters.
    Section 11217(2) (A): A person may sell the head, teeth, gall 
bladder, claws and hide of a bear.
 QUESTION 2: As a follow-up, what is your understanding of the 
        implications of this bill on those state laws and regulations?
ANSWER:
    Unless you fall within one of the exemptions of the Act, this bill 
would prohibit States from regulating movement of bear viscera across 
State lines. Prohibited activities would include:
    <bullet>  Interstate sale and purchase;
    <bullet>  Transport across State lines; and
    <bullet>  Receiving or acquiring bear viscera if the viscera is 
moved from the State to Another state.
    This bill would void all five states' laws and regulations and is 
an unnecessary intrusion into state wildlife management authorities. 
There is no need for this bill. Any interstate movement of bear viscera 
from or into a state where possession, use or sale is not legal is 
already subject to prosecution under the Lacey Act.
 QUESTION 3: Speaking from your experience as a Deputy Director of the 
        U.S. Fish and Wildlife Service, would you conclude that this 
        bill would assist the Service in fulfilling any of its highest 
        priority needs?
ANSWER:
    When I was Deputy Director, the Service had an authorized force of 
253 special agents to enforce our wildlife laws and treaties that 
protect trust resources, including endangered species, marine mammals 
and migratory birds. Given the scope of the agency's conservation 
mission, the limited manpower available, and the Service's needs to 
focus on the highest priority needs, the Fish and Wildlife Service 
concentrates its enforcement efforts on preventing illegal activities 
that jeopardize the continued viability of wild populations of 
protected species. Management of bear populations and regulation of 
parts or products from bears are management decisions for individual 
states, rather than at the federal level. The bill, as currently 
drafted, does not save State authority.
 QUESTION 4: What are the deficiencies in the ``Saving Clause'' 
        language in H.R. 5534?
ANSWER:
    The Association proffers an improvement to the savings clause thus: 
``None of the amendments made by this Act shall be construed to affect 
the regulation by any state of its bear populations or to affect the 
hunting of bears or the possession or use of the parts or products 
including viscera that is lawful under applicable state laws and 
regulations.''
 QUESTION 5: How many U.S. states currently ban the trade in bear 
        organs?
ANSWER:
    35 according to the Traffic North America, World Wildlife Fund, 
April 2002 report, ``In the Black.''
 QUESTION 6: The disturbing trend seems to be that Congress continues 
        to increase the workload on the U.S. Fish and Wildlife Service 
        without giving them adequate resources or manpower to get the 
        job done. If everything pending before the Congress is enacted, 
        than the list of prohibited species would include big cats, 
        illegal timber and wood products, nonhuman primates and bear 
        viscera, are you concerned that this is a systematic effort to 
        federalize all wildlife management? What would be wrong with 
        that approach?
ANSWER:
    Yes, the Association is very concerned that there is an increasing 
trend to federalize wildlife management, especially since there is 
little or no substantiated validation of need for many of these 
proposals. The U.S. system of fish and wildlife conservation based on 
the North American Model of Wildlife Conservation is the most 
successful government fish and wildlife conservation program in the 
world. Authorities that exist now at the federal and state levels are 
generally comprehensive and appropriate to ensure success. What is 
lacking is adequate funding. Imposing unnecessary additional 
obligations on the federal government without additional funding simply 
further dilutes and diminishes their ability to satisfy the obligations 
they currently have.
 QUESTION 7: Is it your view that this legislation is a solution in 
        search of a problem? How big is the harvesting of American 
        black bear parts for the illegal gall bladder trade in Asia?
ANSWER:
    As I substantiated in my written statement, there is no evidence to 
suggest that American black bear gall are significantly contributing to 
the illegal gall trade in Asia.
 QUESTION 8: Mr. Hogan, are you familiar with the comprehensive TRAFFIC 
        North America report ``In the Black''? This report had a number 
        of specific conclusions and recommendations. Do you recall, 
        whether the report recommend the enactment of a federal Bear 
        Protection Act? Why not take this approach?
ANSWER:
    The report recommended, as I indicated my statement, against the 
enactment of the BPA. First because it would detract from other 
international conservation law enforcement priorities of the USFWS, a 
point with which the Association concurs. And, TRAFFIC concludes that 
enacting the BPA could further encourage black-market trade.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Hogan, for your 
remarks.
    And the Chair would like to recognize another member of the 
committee, Rep. Capps from the State of California.
    Dr. Goodall has arrived, and I would like to welcome her 
before the Subcommittee. It is a pleasure to introduce a woman 
who continues to deeply enrich the field of primatology, and is 
able to offer years of expertise on this subject.
    Dr. Goodall, you may begin your testimony. Would you please 
move closer? See that the microphone is placed close to her. 
Yes.

            STATEMENT OF DR. JANE GOODALL, FOUNDER, 
                   THE JANE GOODALL INSTITUTE

    Ms. Goodall. I am a bit off the table here. So first of 
all, I am very, very glad that I was able to fit in coming here 
this morning to add my testimony to the Captive, what is it, 
the Captive Primate Safety Act. And I would like to add some 
comments to the written testimony that I believe you already 
have in your possession.
    And I speak on behalf of the Jane Goodall Institute, as 
well as very many years of working mostly with chimpanzees, 
both in the wild and in captive situations, in Africa and 
throughout the United States, and also in Europe. And obviously 
during this time, I have had experience with other nonhuman 
primates, as well.
    And I speak from the vantage point of studying these 
amazing beings in the wild. And we know that chimpanzees in 
particular, but the other nonhuman primates as well, have very 
complex social structures. They have long-term bonds between 
family members. It is very important to them to maintain these 
bonds. In chimps, this can mean supportive relationships 
between family members lasting through a life of over 60 years.
    And when the mother/child bond is broken, we find that this 
leaves psychological scars on the youngster. The baby may even 
die if removed from its mother.
    So now when we come to consider chimpanzees being kept as 
pets, or other nonhuman primates being kept as pets--and I put 
pets in quotes, because they don't make good pets. And when 
they are small, they can seem cuddly and cute and sweet. But 
they very quickly grow up and grow stronger.
    Chimpanzees of a certain age--five, six--can be stronger 
than a man, a human male. And they do not wish to be a human 
child dressed up in silly clothes, as they are often kept. So 
they can become----
    [Buzzer sounds.]
    Ms. Goodall. does that mean I have to stop?
    Ms. Bordallo. No, no.
    [Laughter.]
    Ms. Bordallo. You continue, Doctor. That is another signal.
    Ms. Goodall. OK. So at the age of five or six, they can be 
potentially dangerous. They can escape. And the dangers to 
human beings include not only biting--and they are strong. Let 
me show you as part of my testimony that my two thumbs are of 
different lengths, and that was an encounter with a captive 
chimpanzee. So they can be very strong. They are potentially 
dangerous. They have no business being kept in people's houses.
    Monkeys, some are very small, but even they can bite. They 
have needle-sharp teeth. And just as a human bite can inflict 
you with a--a human bite is said to be the worst of all bites 
because of the infection. Well, nonhuman primate bites--it is 
the same thing.
    So these beings that you take into your house can become 
quite quickly a liability. They can escape and inflict injuries 
on other people. They are incredibly smart, so they can find 
ways to escape. So as they get older, and again I particularly 
talk about chimpanzees because I know them best, it is very 
hard to contain them in a home in a way that means that the 
general public is safe, or the members in the household are 
safe.
    So we find that either the pet owner must give away the 
chimpanzee or other primate. And because bonds have probably 
been created between the human and the nonhuman, this is 
anguish for the human, and it is devastating for the nonhuman 
primate.
    If they are kept in the home, they are usually maintained 
in inappropriate cages, sometimes in garages or other, you 
know, inappropriate places. We have been to see them. We get 
calls to have a look at or find out about these captive 
primates. People report them to the Jane Goodall Institute. We 
either go ourselves or send somebody to see. And it is pretty 
grim reports coming in about chimpanzees, macaques, marmosets, 
and other primates who are in positions where they shouldn't 
be.
    If you don't keep them in the house and you give them away 
and you go through the anguish, what happens to them? Major 
zoos either don't want to take them because they don't know how 
to behave like normal primates, because they haven't had a 
chance to learn, and so they end up in poor wayside zoos, again 
in inappropriate situations; or they are handed to medical 
research labs, where this pampered little creature, who has had 
all possible amenities in the house, now is in a five-foot-by-
five-foot cage if it is a chimpanzee, or a smaller one if it is 
some other smaller nonhuman primate. And the quality of life is 
completely changed.
    Or they go back to become breeders for the entertainment 
industry. And that in itself is something which we need to 
stop. And you know, again, I have seen ways that these primates 
are trained.
    The nonhuman primates harbor many diseases, viruses, and 
retroviruses which are extremely dangerous to us, which can be 
passed off with a bite, or spitting, or you know, any kind of 
contamination. That includes things like Ebola virus, to kind 
of go to the worst, but also TB, herpes-B, and so forth.
    And so the dangers to us and the damage to the primate are 
of equal concern to us. They simply do not belong as pets. And 
I fully, fully support this bill.
    There is a possibility of sending these animals to 
sanctuaries, but those are usually full and over-funded--under-
funded. So I think that is sufficient to convey my extreme 
disapproval of primates as pets.
    But I would, since I am here, I would also like to add one 
word in support of the Bear Protection Act.
    I have been in Asia. I have seen the conditions of the 
bears being milked for their bile. The more that the trade in 
bile is approved by the United States, the harder it is to stop 
this barbaric practice in Asia and other countries. So I would 
fully, fully support the Bear Protection Act.
    I think killing bears for their parts is not appropriate in 
a civilized part of the world. So I would like to add my 
support for that bill, as well.
    [The prepared statement of Ms. Goodall follows:]

                Statement of Dr. Jane Goodall, Founder, 
                       The Jane Goodall Institute

    Thank you for this opportunity to express my strong support for the 
Captive Primate Safety Act. It is a pleasure to be here on this 
important matter.
    The Jane Goodall Institute is dedicated to ensuring that captive 
primates receive the attention and care they deserve--attention and 
care which cannot be provided by the average pet owner. We therefore 
fully support the legislation introduced by Representative Eddie 
Bernice Johnson to prohibit the interstate commerce of monkeys, 
chimpanzees and other primates as pets.
    Non-human primates seem attractive as pets largely due to their 
close physical and behavioral similarities to humans. But, due in part 
to the genetic similarities we share, all non-human primates can carry 
a variety of rare and sometimes fatal diseases and viruses that can be 
contracted by humans, including tuberculosis, herpes-B, hepatitis, and 
Ebola.
    All too often, well-intentioned animal enthusiasts will attempt to 
raise and care for an infant primate, such as a chimpanzee. But 
chimpanzees and other primates grow up quickly. In fact, by the age of 
five, chimpanzees are often stronger than human adults. They become 
destructive, difficult to contain, and dangerous. When they escape--a 
risk that is much greater when they are moved from one place to 
another--they may pose a unique threat to public health and safety, and 
their capture can be costly. Many kinds of monkeys, marmosets, lemurs 
and other prosimians are in homes across America. These animals can 
infect us with disease and inflict serious bites.
    While some pet owners take steps to tame or control their non-human 
primate pets, these measures often are inhumane or not reliable. 
Regardless of the steps taken to tame and control non-human primates, 
once they reach sexual maturity it can be difficult if not impossible 
to contain and appropriately care for them, for essentially they remain 
wild animals. As a consequence, a once pampered member of the family is 
relegated to a small, inappropriate cage, often in a basement or garage 
because, when free, they can, and will, bite. Non-human primate owners 
have lost fingers, suffered facial and other physical damage and 
contracted dangerous diseases from their ``pets.''
    Non-human primates--even the small species such as tamarins or 
marmosets--have complicated needs that are impossible for the average 
pet owner to provide. Non-human primates are behaviorally more like us, 
and as such they are uniquely intelligent creatures and need complex 
sensory stimuli to meet their psychological needs. They need space and 
a rich environment; they need social groups within which they can 
establish social bonds for, above all, most non-human primates are 
highly social creatures. Keeping them alone is psychologically 
stressful and damaging, as is moving them from one place to another.
    When kept as ``pets,'' once they reach maturity and are no longer 
manageable, those individuals who are not placed in small, barren 
enclosures are often sold or donated to unaccredited zoos or research 
institutions, or euthanized.
    It is time for us to end this dangerous, selfish and inhumane 
trade. Non-human primates of all sizes have complex minds, 
personalities and emotions and do not belong in our homes and pet 
shops.
    I applaud the Subcommittee on Fisheries, Wildlife and Oceans for 
considering this important legislation. I urge you to do all you can to 
pass it. In doing so, you will be promoting public health and safety, 
as well as taking a reasonable and sound step toward protecting these 
amazing wild creatures.
    In addition, while I am here to support the Captive Primate Safety 
Act, I am also concerned for all wildlife and feel that it is vital to 
prevent poaching, whether it's related to the bushmeat trade or the 
slaughter of wild animals for their parts or products made from them. I 
would like to express my complete support to stop the trade in bear 
gallbladders and bear bile. I have seen the terrible suffering this 
inflicts on these animals. I strongly support the Bear Protection Act 
and hope you will approve it when the time comes.
                                 ______
                                 

  Response to questions submitted for the record by Dr. Jane Goodall, 
                         Jane Goodall Institute

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  In your experience, should nonhuman primates be kept as pets?
    Nonhuman primates should not be kept as pets. Nonhuman primates are 
unpredictable. There is a lot of irresponsible selling of them. 
Regardless of the steps taken to tame and control nonhuman primates, 
once they reach sexual maturity it can be difficult, if not impossible, 
to contain and appropriately care for them, for essentially they remain 
wild animals. Nonhuman primates can spread diseases that pose serious 
health risks to humans, including herpes B, tuberculosis, hepatitis, 
Ebola, and monkeypox. Nonhuman primates can become aggressive and 
unmanageable as they mature. Since I began my studies of wild 
chimpanzees in 1960, I have only been seriously harmed by a chimpanzee 
once and that was by a captive chimpanzee.
    Aside from the safety and health concerns I have for people in 
contact with nonhuman primates, I am also concerned for the welfare of 
the creatures themselves. Nonhuman primate infants sold as pets are in 
most cases separated from their mothers at an early age. The stress of 
the separation and the absence of the biological mother can cause 
social, psychological, maternal, and sexual developmental damage. 
Nonhuman primates require a specialized diet, the companionship of 
other nonhuman primates, and housing in very large enclosures--needs 
the average pet owner cannot meet. For all these reasons and more, 
nonhuman primates do not make suitable pets.
2.  We've heard that infant nonhuman primates can grow up to become 
        maladjusted, further encouraging their isolation. In general, 
        what quality of life can we expect these animals to enjoy?
    Infant nonhuman primates kept as pets face a rather dim outlook for 
the future. Nonhuman primates are highly intelligent and possess a 
range of emotions much like our own. Homes are not large enough to keep 
them content. Nonhuman primates require constant enrichment and 
stimulation, which the majority of pet owners do not have the time, 
funds, or skills to provide. The common practice in the pet trade of 
prematurely separating an infant nonhuman primate from its mother can 
cause long term damage and has serious implications for the primate's 
future welfare.
    Nonhuman primates are not born with intrinsic responses that will 
dictate their behavior in complex social situations. Much like a human 
mother, a chimpanzee's mother is responsible for shaping and cushioning 
the infant's first interactions with other individuals. A chimpanzee 
infant may acquire a good deal of knowledge vicariously during the 
months when he is firmly attached to his mother's breast, sensing her 
fear, excitement, or pleasure. Through trial and error, social 
facilitation, observation and imitation, and practice, a young 
chimpanzee learns the nuances of chimp etiquette from his mother and 
family members. If a nonhuman primate is to live amongst his own kind, 
he must be familiar with and able to respond to these species specific 
behaviors. Wild chimpanzees are not weaned from their mother until 
between the ages of four and seven. Yet, offspring continue to travel 
and interact with mothers long after weaning. Relationships between a 
mother and her offspring, as well as between siblings, continue 
throughout all of life.
    Infant nonhuman primates who have been separated prematurely from 
their mother and have not been socialized will often times be unable to 
successfully integrate with their own kind. These nonhuman primates 
lack the social skills that their mother and family members would have 
otherwise instilled in them. Some nonhuman primates may display 
abnormal behaviors such as body-rocking, self biting, and intense 
aggression. Socially deprived nonhuman primates in many cases never 
learn how to copulate or care for their young.
    When kept as ``pets,'' once they reach maturity and are no longer 
manageable, those individuals who are not placed in small, barren 
enclosures are often sold or donated to unaccredited zoos or research 
institutions, or euthanized. Many ``pet'' nonhuman primates do not 
possess the social skills to integrate effectively with the same 
species. Most accredited zoos will not accept them because they lack 
the social skills to fit into established nonhuman primate groups. The 
large majority of accredited zoos and sanctuaries also do not have the 
funds or space to properly house, feed, and care for additional 
nonhuman primates.
3.  Can you elaborate on the physical and social environments that are 
        required by these animals? Can human beings substitute for the 
        needs of these animals in the wild?
    Nonhuman primates are our closest living relatives, and as such 
they are uniquely intelligent creatures and need complex sensory 
stimuli to meet their psychological needs. Chimpanzees need space and a 
rich environment; they need social groups within which they can 
establish social bonds for, above all, most nonhuman primates are 
highly social creatures. Keeping them alone is psychologically 
stressful and damaging, as is moving them from one place to another.
    Every chimpanzee is given the best care by their biological mother. 
I encourage the rearing of nonhuman primates by their mothers whenever 
possible. Only specially trained people, such as those of accredited 
zoos and sanctuaries, who possess a deep understanding of the 
communicative and behavioral patterns of adult nonhuman primates, are 
in a position to supply the enrichment, extensive time, facilities, and 
peer exposure to properly raise a nonhuman primate. Very few nonhuman 
primate owners have the experience, training, funds, facilities, or 
time required to properly care for these creatures.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Doctor. Your expertise 
is recognized by the committee, and of course your full 
statement will be included for the record.
    I will now recognize members for any questions they may 
wish to ask, alternating between the Majority and the Minority. 
And I am going to give my Ranking Member the first occasion to 
ask some questions, and I will act later.
    Mr. Brown. Thank you, Madame Chair. And thank you very much 
for taking your time to come and be with us this morning to 
talk about an issue that is out here, and a lot of people have 
major concerns. And it is good to hear the different sides of 
this particular issue.
    My first question would be to Dr. Golab. Are there 
currently any Federal laws that prohibit the interstate travel 
of domestic and agricultural animals who have the ability to 
transfer various diseases to the public? And do you support the 
enactment of such laws? If not, then this legislation is an 
example of selectively enforcing enforcement against nonhuman 
primate owners.
    Ms. Golab. What is the question?
    Ms. Bordallo. I think we need to repeat the question.
    Mr. Brown. OK. I am sorry we don't have eye contact, and 
that is the reason I moved over during your presentation, so we 
could have that eye contact. But OK, I will repeat it.
    Are there currently any Federal laws that prohibit the 
interstate travel of domestic and agricultural animals who have 
the ability to transfer various diseases to the public? And do 
you support the enactment of such laws? If not, then this 
legislation is an example of selective enforcement against 
nonhuman primate owners.
    [Pause.]
    Mr. Brown. Dr. Golab is who the question is directed to.
    Ms. Goodall. Yes, you are directing the question to me?
    Mr. Brown. No, ma'am, I was directing it to Dr. Gail Golab.
    Ms. Goodall. Oh. Apologies.
    Mr. Brown. Sorry. I got one for you, though.
    [Laughter.]
    Ms. Golab. The American Veterinary Medical Association is 
very opposed to private ownership of nonhuman primates for the 
reasons that I stated.
    The reality is that many of the incidents that occur 
actually happen when nonhuman primates are exposed to those 
other than their owners. One of the most frequent times that 
those incidents occur is during interstate transport.
    Also during interstate transport, there is the opportunity 
for escapes. Any time you have the opportunity for escapes, you 
have the opportunity for introduction of an animal into the 
wild. And when you have the opportunity for the introduction of 
the animal into the wild, you have an opportunity for providing 
reservoirs of disease.
    In terms of zoonotic diseases, one of the problems that we 
have with nonhuman primates is that because they are so close 
to humans, transmission of diseases between humans and nonhuman 
primates is quite simple.
    For example, herpes simplex in people causes often mild 
disease that is along the line of cold sores. However, when 
that particular virus ends up in a marmoset, for example, it 
can cause very, very serious disease.
    You have more problems in nonhuman primates than you have, 
in terms of bite exposure, with domestic animals, because 
again, you are so close in a phylogenetic tree with these 
animals, and diseases are very, very much more easily 
transmitted between nonhuman primates and people.
    Mr. Brown. Dr. Evans, do you agree with that statement?
    Ms. Evans. Do I agree with the statement that, which? The 
final statement?
    Mr. Brown. The transmission of diseases.
    Ms. Evans. It is absolutely true that nonhuman primates and 
human primates share many diseases. But typically, the risk is 
to the nonhuman primates.
    Tuberculosis, for example, is a human disease. And yes, 
nonhuman primates can contract it, but they get it from humans. 
And childhood diseases can cause problems in 7-year-old 
monkeys. And it is for this reason that many pet primate owners 
vaccinate their pets, and also have them TB tested regularly, 
to protect them from these threats.
    But I don't know of any documented public health threat 
from nonhuman primate pets to the human population. I mean, 
such-and-such may happen, such-and-such could happen; but as 
far as I am aware, there is nothing documented in the 
literature.
    Mr. Brown. And I guess that is my point, and that brings me 
to my next question. Please explain why nonhuman primates kept 
as pets pose a health risk to the public, but those living in 
sanctuaries and zoos don't pose the same risk.
    Ms. Golab. I would like to respond to that question with an 
interesting comment. AVMA has an animal welfare committee, and 
on that animal welfare committee we have representatives of a 
broad range of veterinary medical practices, including zoo 
animal medicine.
    The zoo animal representative on our animal welfare 
committee is very, very well respected for working not only 
with primates, but with a number of various species. And also 
has a reputation for being somewhat fearless in terms of 
working with those species.
    His comment to me was he was perfectly comfortable working 
with nonhuman primates in sanctuaries, in research facilities, 
and in zoos. But he absolutely refuses to work with nonhuman 
primates in private practices, because of the risk to himself 
and to his staff.
    Mr. Brown. Then I don't understand the differences between 
the interaction between participants in a zoo than somebody 
living every day with them. I don't understand.
    And I guess what I am trying to sort out in my own mind is 
that I noted it was alluded that, you know, when the babies are 
taken from their moms, that they become depressed, even die. 
And I am wondering if there is a similar reaction with, you 
know, when people exchange these kittens and puppies, and what 
kind of a dialogue do those, you know, those families might 
have.
    I am just trying to sort it out in my own mind, you know, 
the differences between one group of animals and another group 
of animals. And that is the reason I am leading out with those 
questions.
    Ms. Golab. One of the most significant differences is that 
in zoos and in research facilities, you have individuals who 
are trained, and they are trained in appropriate biosecurity 
practices. And so although the risk is there, the risk is 
decreased because you have individuals that know how to deal 
with those situations.
    We also have reports of transmissions that have occurred in 
research facilities, that occur in the literature for some of 
these zoonotic diseases. And so we know that those indeed are a 
risk.
    When it comes to domestic animals, one of the biggest 
differences that you have between nonhuman primates and 
domestic animals is just that. Domestic animals, like dogs and 
cats, have been domesticated for thousands of years. Nonhuman 
primates may have been bred for generations, but they are still 
wild animals. And so the predictability of the behavior of 
domestic dogs and cats as compared with the predictability of 
the behavior of a nonhuman primate is hugely different.
    Mr. Brown. But it is still confusing to me why the disease 
transfer would not take place between the interaction between 
the zoo visitors and the animals, with so many people passing 
through, and why it would be more inherent to a closed 
environment, like keeping a pet at home. I mean, it just 
confuses me that that logic is there.
    Does anybody else want to comment on that? Dr. Evans, do 
you?
    Ms. Evans. I think I mentioned earlier that in my 
experience, that pet primates are freer of disease than 
primates in research laboratories and primates in zoos, in 
large part because of the way they have been bred. Sometimes 
because the infant is removed from the mother, and there is no 
further contact with that species. And also because they are 
vaccinated, they are kept in a very clean environment in their 
homes. They don't always have contact with other nonhuman 
primates, you know, which has its drawbacks. But I do not think 
that there is a serious, or even--I do not think there is a 
public health threat from pet primates to the general public.
    I think we are encouraging fear unnecessarily. And primates 
are wonderful. They are marvelous.
    Mr. Brown. I thank you very much. And Madame Chair, I know 
my time is over. Thanks for your tolerance.
    Ms. Bordallo. Thank you.
    Mr. Brown. And thanks to the witnesses for those comments.
    Ms. Bordallo. Thank you very much. I do have a couple of 
questions for the witnesses.
    The first is to Dr. Gail Golab. You mentioned in your 
testimony that it was difficult to find veterinarians that are 
willing to care for nonhuman primates kept as pets. Can you 
elaborate, or give an example of this?
    Ms. Golab. I had mentioned the individual on our animal 
welfare committee earlier, who actually is currently employed 
by a university and is often asked to consult with those 
animals.
    In the 76,000 members of the American Veterinary Medical 
Association, only 170 of those members actually consistently 
have contact with primates. And a majority of those members are 
actually employed either by zoos or by research institutions. 
And so the number of individuals that are available in private 
practice to care for nonhuman primates is quite limited.
    Ms. Bordallo. So are there special qualifications for a vet 
to be able to care for the primates?
    Ms. Golab. We do have several boarded specialties. One of 
those happens to be in the area of zoological medicine, and we 
also have boarded veterinarians in laboratory animal medicine. 
You may have individuals in both of those fields that are 
qualified.
    Your typical veterinarian in a community practice is not 
going to be seeing a lot of nonhuman primates. And chances are 
that that veterinarian is going to be looking to call somebody 
else in to see that animal. And that is actually one of AVMA's 
concerns regarding the welfare of these animals.
    One of the questions that has come up is that the reason 
that you need to have interstate transport of primates is to 
seek veterinary care. The problem with that is that when you 
own a pet, or if you privately own an animal, you have certain 
responsibilities to that animal. You are expected to understand 
an animal's needs and provide it with appropriate nutrition and 
appropriate housing. You are also expected to provide it with 
appropriate veterinary care.
    American Veterinary Medical Association has some concerns 
when the only way you can get appropriate medical care for that 
animal is to take it into the next state. That, in by itself, 
is a good reason for why you should not be owning that animal.
    Ms. Bordallo. Thank you very much. I have, I know Dr. 
Goodall will be leaving soon, and I have a question for her.
    Other witnesses have commented on the fact that wild 
nonhuman primates are acutely aware of their place in the 
larger social structure, and that this applies to captive 
nonhuman primates as well. How does this affect a captive 
primate's behavior, especially in relation to children?
    Ms. Goodall. Well, the trouble is that we are talking about 
a lot of different species when we talk about nonhuman 
primates. At one end you have chimpanzees, with whom we share 
98.24 or six, depending on where you come from, 98-point-
something percent of our DNA. And you know, we have an immune 
system almost identical, which is why they are used as guinea 
pigs to learn more about human medicine. And then on the other 
end you have the marmosets, who are obviously far more 
different.
    So the answer--what was your question again? I got carried 
away. What was the actual question?
    Ms. Bordallo. OK. Some of the witnesses here have commented 
on the fact that wild nonhuman primates are acutely aware of 
their place in the larger social structure, and that this 
applied to captive nonhuman primates, as well.
    How does this affect a captive primate's behavior, 
especially toward children?
    Ms. Goodall. Well, you know, OK. So this is where I was 
leading. It is different. It is different with a marmoset to a 
chimpanzee. And the danger posed by a marmoset or a chimpanzee 
would be very different.
    A chimpanzee can kill a child. A marmoset can't. A marmoset 
can only bite. And there are stories--I mean, also these 
individuals have different personalities. We are not dealing 
with just a lump of marmosets who all behave the same way, or a 
whole sea of chimpanzees behaving--they behave differently, 
just as we do.
    So of course there are going to be wonderful bonds between 
a particular nonhuman primate, a particular human, a particular 
child. And it can be wonderful. But most people simply aren't 
able to deal with nonhuman primates in their home, because they 
shouldn't really be there.
    And they do indeed remain wild animals. They are 
unpredictable. So that even when you have this wonderful 
relationship, there can be a sudden, something will trigger an 
outburst of aggression. They are very volatile.
    And I am not saying that there can't be a great bond 
between a person and a monkey or a chimp. There can, absolutely 
can. But also, you know, it is not where they belong. And most 
people, when they buy--I mean, you can buy a primate on the 
internet. I have known people who bought a baby chimp because 
they were told this is the species that doesn't get into the 
big, dangerous kind. This one stays small.
    There is a lot of irresponsible selling of primates, and 
people are buying them when they know nothing about them. There 
is no requirement that they have to learn. They can just take 
this little being into their home, and then often the smaller 
ones die because they simply are not looked after. They don't 
get the right diet. And it is a tragedy for the owner, as well 
as for the little being who has been taken from his or her 
mother.
    Ms. Bordallo. Thank you very much, Doctor.
    The Chair now recognizes Mr. Wittman from the State of 
Virginia.
    Mr. Wittman. Thank you, Madame Chairman.
    Dr. Golab, I am interested that there is a variety of 
professional opinion about some of the public health aspects of 
disease transmission between nonhuman primates and human 
primates. And you speak that there is evidence out there.
    I would be interested in the specifics of those evidence. 
Can you cite the referee, the medical publications, or any 
formal public health disease reporting system that indicates an 
instance of disease transmission?
    Ms. Golab. If you actually--in my written testimony, which 
has more detail, there are a number, I am going to say 27 or 28 
cited references in that testimony.
    Some of those cited references actually deal with disease 
risk. And one of the things that you have to keep in mind is 
that we do have quite a few controls on ownership of these 
animals in the U.S., including prohibitions on ownership in 
many states.
    We also know that as a result of some of those 
prohibitions, and also as a result of importation prohibitions, 
we reduce the number of cases that exist.
    We are also aware that there is a black market out there in 
these animals, and the risk of importing these animals, 
particularly animals that may be imported for purposes of pets, 
that may not be as well screened because they don't have the 
controls in place, there definitely is risk there for disease.
    There is a report actually from CDC dealing with herpes-B 
virus in macaques. And so we do know that that risk is there. 
And if you speak to zoo veterinarians in particular, and those 
that work with primates, one of their significant concerns is 
naturalization of these animals in the southern United States 
because of concerns down there about yellow fever. Nonhuman 
primates can serve as reservoirs of yellow fever. And so that 
is an ongoing prevalent concern for those individuals.
    Mr. Wittman. And you cite about 15,000 nonhuman primates. 
Can you tell me, of those that you speak of, how many of those 
are captured in the wild, and how many are imported from 
outside of the United States?
    Ms. Golab. No, unfortunately I can't. And our tracking 
systems, that is another one of our problem. Our tracking 
systems for nonhuman primates again, other than those that are 
within already regulated facilities, are always going to be a 
little bit on the fuzzy side.
    And so if you look at estimates for the number of primates 
that actually exist, you definitely will see some variation.
    Mr. Wittman. Well, of those pets that are held by 
individual owners, are you advocating then that if this Act 
were to pass, that those primates, nonhuman primates be 
released into the wild?
    Ms. Golab. Now, this is a really interesting question. 
Because what this particular piece of legislation does, it 
doesn't necessarily directly affect those private individuals 
that own animals in particular states where ownership is legal. 
What it does is it prohibits them from transporting those 
animals across state lines. And in those situations you 
increase contact with unfamiliar individuals, and you increase 
your potential for escape.
    So people will still be able to own those animals. However, 
they won't be able to transport them. And because AVMA is not 
supportive of private ownership of these animals in the first 
place, our hope is that that will reduce the acquisition of 
those animals, and eventually severely reduce the number of 
such animals that are privately held.
    Ms. Bordallo. I thank the gentleman from Virginia, Mr. 
Wittman. And now I recognize the gentlelady from California, 
Ms. Capps.
    Ms. Capps. Thank you. Thank you, Madame Chair, for calling 
this hearing together, and to each of our witnesses for your 
testimony on two very important topics.
    Dr. Goodall, you are a hero to so many constituents in my 
Congressional district, and I want to thank you for your 
pioneering work, that now hopefully we have a whole new 
generation to become more educated about the work that you have 
done with nonhuman primates.
    I want to particularly make sure in the record that we note 
an organization that you began, which is called Roots and 
Shoots, which is focused on our young people. Because that is 
how I want to direct my question to you, although I am very 
interested also in the fact that in addition to founding the 
Jane Goodall Institute, you are also a U.N. messenger of peace. 
And I think some time we could have a hearing, Madame Chair, on 
the ways in which our nonhuman primates can teach us a lot 
about peace.
    But the Roots and Shoots is a great organization that 
focuses on the natural interest that young people have in 
monkeys, in nonhuman primates, and the great interest they have 
in learning so much about ways that we can protect them. And 
you have designed this so that there are chapters, I believe 
all around the world.
    My question is, can we hope to raise a generation of people 
who will not seek to have these nonhuman primates as pets, 
understanding what happens to them? And maybe you would want to 
tell us a little bit about the kind of quality of life that 
many of them have to experience is isolation because they are 
so much like humans in that they require their own social 
setting.
    Thank you.
    Ms. Goodall. Well, the program you refer to, Roots and 
Shoots, yes, it is in 97 countries around the world. And it is 
involving young people in improving the lives of the human 
community, nonhuman animals, including domestic ones, and the 
environment, as well as learning to live in peace and harmony 
with each other, but also with animals in the natural world.
    And so the aim and the goal of Roots and Shoots is that 
while we are all working to save chimpanzees, to protect 
nonhuman primates from being pets and all the rest of it; 
unless we are raising new generations to do better than we have 
done, we may as well give up. Because we can all be working and 
testifying and getting bills passed, and then if the next 
generations pay no attention, it is going to be pretty sad.
    So indeed, all around the world I get letters from young 
people who have seen the documentaries, read the films, taken 
part in Roots and Shoots, and understand that the place for a 
wild animal is not usually in somebody's home. Although again, 
I want to make quite clear, I am not saying that a nonhuman 
primate cannot be happy in a home. It can, if it is the right 
person. But what I think is so important to realize is that the 
general run of people are not equipped to take care of the 
psychological, let alone the physical, needs of these, of these 
nonhuman--I don't like nonhuman--other-than-human primates.
    Ms. Capps. They are very much like humans.
    Ms. Goodall. What is a nonhuman? A nonhuman is a non, it is 
a non-something.
    Ms. Capps. Right.
    Ms. Goodall. So I prefer to call them other-than-human 
primates, or primate beings.
    Ms. Capps. Thank you very much. With the time that I have 
remaining, Mr. Wissinger, I wanted to switch to the other piece 
of legislation if I could, and ask you if you think a Federal 
law such as the Bear Protection Act could have a deterrent 
effect.
    In other words, if poachers or smugglers knew that there 
was a Federal law prohibiting their activities, might they 
think twice about what their criminal enterprises will lead to?
    Mr. Wissinger. Absolutely, yes. In my observations and in 
discussions with many people who have been defendants and been 
prosecuted through a state or Federal court system, there is, 
first of all, had been a lack of fear of the system.
    Ms. Capps. Right.
    Mr. Wissinger. But simply the word Federal just----
    Ms. Capps. The feds, you mean?
    Mr. Wissinger.--just simply correlates something much worse 
than--whether it is or it is not is another matter--in the 
minds of many people and their families.
    Ms. Capps. Could I just direct this--I know the red button 
went on, but could you mention one word about the need for 
additional forensic support to assist with criminal wildlife 
investigations? Are you referring, for example, to the Fish and 
Wildlife Service Laboratory in Oregon? What more should we be 
doing in this area?
    Mr. Wissinger. Well, currently the National Lab in Ashland, 
Oregon is basically, as far as I know, as of today still the 
only species-specific-capable laboratory that is readily 
available to law enforcement agencies, particularly at the 
state level.
    And as of my retirement, that laboratory service for that 
particular species-specific type of work was simply not 
available, just due to workload factors.
    Ms. Capps. Thank you. Thank you for allowing me to go over.
    Ms. Bordallo. The Chairwoman thanks the gentlelady from 
California, Mrs. Capps.
    And now I would like to recognize the Ranking Member of the 
full Committee on Resources, the gentleman from Alaska, Mr. 
Young.
    Mr. Young. Thank you, Madame Chairman. Mr. Schoenke, how 
many people belong to the American Hunters and Shooters 
Association?
    Mr. Schoenke. We are a new organization, sir, and we are 
very proud of what we have done in a year and a half.
    Mr. Young. How many belong?
    Mr. Schoenke. We have several thousand.
    Mr. Young. Several thousand. It is ironic that you support 
this protection bill, and I have a list of 20-odd-some members 
that are fish-and-wildlife-associated conservation groups that 
oppose it, primarily because they claim it is an unnecessary 
intrusion to the State Wildlife Management authorities. That 
any interstate movement of viscera to and from a state where 
possession, use, and sale is not legal is already subject to 
prosecution under the Lacey Act. And CITES governs import and 
export. The U.S. and North American populations are healthy, 
robust and, in fact, expanding in most areas. And while 
poaching will occur and has occurred, and will continue to 
occur regardless of Federal law, the Lacey Act covers it. And 
that this bill would have arguably a minimal effect on Asian 
bear populations, which are most subject to poaching for 
viscera, because under intense pressure from habitat loss.
    Now, where do you come off supporting this bill?
    Mr. Schoenke. Well, let me say first of all, Mr. 
Congressman, American Hunters and Shooters Association came 
about because there are millions of hunters and shooters who 
are looking for a responsible and more moderate----
    Mr. Young. Are you saying the other groups aren't 
responsible?
    Mr. Schoenke. I am saying that they are not responsible in 
the sense----
    Mr. Young. They are not responsible. That is what you are 
saying.
    Mr. Schoenke. Yes, sir, I am saying that.
    Mr. Young. OK, that is what we want to know.
    Mr. Schoenke. OK. And the stance--wait a minute, hold on 
here. You asked me a question.
    Mr. Young. You are the fringe group.
    Mr. Schoenke. Let me answer the question, sir.
    Mr. Young. You are the fringe group.
    Mr. Schoenke. Let me answer the question.
    Mr. Young. Do you hear me? OK, now.
    Mr. Schoenke. Hold on here. If you are going to try to 
intimidate me----
    Mr. Young. Madame Chairman, he is the witness, and I can 
ask him whatever I want to ask him. Do you understand that?
    Mr. Schoenke. Let me answer the question.
    Ms. Bordallo. The members of the committee--this is our 
hearing.
    Mr. Schoenke. I understand that, Madame Chairwoman. I 
apologize for----
    Mr. Young. You may have played football, but don't get 
smart with me.
    Mr. Schoenke. If the Congressman is going to ask me a 
question, let me give him, let him have the respect to let me 
answer the question.
    Ms. Bordallo. All right. Just proceed with the answer.
    Mr. Schoenke. OK. Our organization, American Hunters and 
Shooters Association, came about because there are millions of 
hunters and shooters who are looking for a more responsible 
approach to hunting and shooting, conservation, and protection 
of wildlife.
    Because of that, we were founded. And we feel that this 
Bear Act is exactly that: it is the protection of wildlife.
    In talking with Mr. Hogan here, while we disagree, we also 
understand there is a problem here on poaching. That it is very 
easy to go into small areas within this country and wipe out a 
bear population. As a hunter and a shooter, I understand that. 
There is documented evidence to that effect.
    So is this a good Act? And we think it is. It is 
responsible, it is appropriate, and we support it.
    Thank you.
    Mr. Young. Mr. Hogan, you are speaking from your experience 
as Deputy Director of U.S. Fish and Wildlife. Would you 
conclude this bill would assist the Service in filling its 
highest priority needs?
    Mr. Hogan. No, Mr. Chairman or Mr. Congressman, I would 
not. The Fish and Wildlife Service Law Enforcement Program does 
a tremendous job, but I would argue that they are probably well 
understaffed. And their focus is really on species that are 
threatened with extinction, threatened or endangered.
    Black bears, as you know, are healthy. North American Black 
Bears are healthy throughout their range. And I really don't 
believe that this would assist the Fish and Wildlife Service.
    And furthermore, as you noted, the Lacey Act, the Federal 
law that would criminalize any activity that is a violation of 
state law once it is brought into interstate commerce exists. 
So the Fish and Wildlife Service has the Federal authority to 
prosecute any bear that is illegally taken.
    And I think the distinction here is that there is a 
perception that bears are illegally harvested and then sold. By 
definition, when a bear is poached, it has broken a state law. 
As soon as it goes into interstate commerce, it now violates 
state law and the Lacey Act, so there is state and Federal law 
able to be brought to bear against anyone who perpetuates that 
crime.
    So I don't believe it would add, give anything to the U.S. 
Fish and Wildlife Service Law Enforcement Program that they 
don't already have.
    Mr. Young. Mr. Hogan, you are familiar with the WWF TRAFFIC 
North American report, ``In the Black.'' This report has a 
number of specific conclusions and recommendations.
    Do you recall whether the report recommended enactment of 
the Federal Bear Protection Act? And why not take this 
approach?
    Mr. Hogan. They concluded that they did not think Federal 
legislation in this area was necessary in their report.
    Mr. Young. You know, people don't understand why I am 
excited about this. This would cover every bear killed, legal 
or poached. And I happen to represent people that have this 
problem that in fact will transport parts of that bear maybe to 
the grandma and grandmother, and grandfather and the grandson. 
I don't know.
    But to put them in the case, under this law--now the Lacey 
Act already covers this--as poached, is inappropriate. We have 
a tendency to sit in this committee, and people have outside 
interests organized so they can get a paycheck. But they cannot 
understand how it affects other people legally. And any bill we 
pass here, you better darn well make sure that a legally taken 
bear is not covered under this bill, period. If you do that, 
then you are imposing again the, I call it the armchair 
urbanized urbanites on people that live in the rural areas.
    I yield back the balance of my time.
    Ms. Bordallo. I thank the gentleman from Alaska, Mr. Young.
    There being no further questions, the Chair would now like 
to thank the panel, the first panel of witnesses, and to 
welcome the second panel.
    Mr. Brown. Madame Chair.
    Ms. Bordallo. Yes.
    Mr. Brown. I would like to enter into the record the 
statements in the black.
    Ms. Bordallo. OK. It has been asked that we enter into the 
record the report, `In the Black: Status, Management, and Trade 
of the American Black Bear.'' There being no objection, so 
ordered.
    [NOTE: The report ``In the Black'' by Douglas F. Williamson 
dated April 2002 has been retained in the Committee's official 
files.]
    Ms. Bordallo. Second panel, will you please be seated? For 
those observers in the back, would you like to come forward and 
take a seat here? We have some empty chairs. We like everybody 
to be seated during our committee hearings. Anywhere, right 
around this horseshoe here.
    Please be seated, everyone. The Chairwoman now recognizes 
our second panel of witnesses.
    Our witnesses on this panel include the following: Mr. 
Benito Perez, Chief of Law Enforcement, United States Fish and 
Wildlife Service; Mr. Wayne Pacelle, President and CEO of the 
Humane Society of the United States; and Mr. Steve Ross, 
Supervisor of Behavioral and Cognitive Research, and Chair of 
the AZA Chimpanzee Species Survival Plan, from the Lincoln Park 
Zoo.
    I now recognize Mr. Perez to testify for five minutes. And 
gentlemen, I would note once again for the all the witnesses 
that the red timing light on the table will indicate when your 
time concludes. And be assured that your full written statement 
will be submitted for the hearing record.
    This committee does watch the timing light, so please try 
to check it out. When it is red, your time is up.
    Mr. Perez, please begin.

             STATEMENT OF BENITO A. PEREZ, CHIEF, 
        LAW ENFORCEMENT, U.S. FISH AND WILDLIFE SERVICE

    Mr. Perez. Madame Chairwoman and members of the 
Subcommittee, I am Benito Perez, Chief of the U.S. Fish and 
Wildlife Service's Office of Law Enforcement. I am pleased to 
be here to discuss H.R. 5534, the Bear Protection Act of 2008, 
and H.R. 2964, the Captive Primate Safety Act.
    As members of the Subcommittee are aware, the Service is 
the lead Federal agency for wildlife law enforcement. The 
strategic goals and objectives of our law enforcement program 
include preventing unlawful trade of foreign fish, wildlife, 
and plants, as well as protecting the nation's fish, wildlife, 
and plants from unlawful exploitation.
    The Administration has reviewed H.R. 5534, the Bear 
Protection Act of 2008. While we appreciate the Subcommittee's 
interest in ensuring the protection of these important animals, 
the Administration does not support passage of this 
legislation.
    Under existing laws and treaties, illegal international 
trade in bear parts and products is prohibited by both the 
Endangered Species Act and CITES. CITES regulates commerce in 
species listed in its appendices, and is implemented through 
the Endangered Species Act.
    In the United States the Lacey Act prohibits the interstate 
transport of bear parts and products when taken in violation of 
state, tribal, or foreign laws. Nearly all states currently 
prohibit the sale of black bear viscera, making the Lacey Act 
in its current form an effective tool for dealing with illegal 
trade in bear parts.
    The Administration has worked consistently under these 
authorities to ensure that activities in the United States are 
not contributing to the decline of bear populations worldwide.
    American Black Bear populations are stable or increasing 
throughout virtually the entire natural range of the species. 
Indeed, under this existing framework, state programs have 
maintained healthy bear populations here in the United States 
for some time. For this reason the Administration has long 
deferred the state management programs, and agrees with the 
states that no further measures are needed.
    H.R. 2964, the Captive Primate Safety Act, would amend the 
Lacey Act to add nonhuman primates to the definition of 
prohibited wildlife species. Consistent with our response to 
similar legislation introduced in the 109th Congress, the 
Administration does not support this change, and cannot support 
H.R. 2964.
    The Administration's primary concern with H.R. 2964 is the 
Service's ability to meet the extended enforcement mandate 
created by this provision. The Service currently enforces the 
nation's wildlife laws and treaties that are protecting 
endangered species, marine mammals, and migratory birds. Given 
the scope of the Agency's conservation mission, the limited 
manpower available and the need to focus on highest-priority 
needs, the Service currently concentrates its enforcement 
efforts on preventing illegal activities that jeopardize the 
conservation of populations of such protected species.
    H.R. 2964 would instead emphasize and expand Service 
enforcement responsibilities into an area that has historically 
been the responsibility of state agencies. By including all 
nonhuman primates in the list of prohibited wildlife species, 
this bill would also extend the Service's enforcement mandate 
to policing currently legal activities involving interstate and 
foreign commerce of captive nonhuman primates. Many of these 
species may be lawfully used for research and other purposes 
under the Animal Welfare Act.
    In addition, the mechanism created by this bill appears to 
provide, at least in some instances, coverage that is 
duplicative of existing law. The Endangered Species Act already 
prohibits the interstate sale and international trade of many 
listed nonhuman primates that have been determined to need a 
high level of protection.
    While H.R. 2964 would extend such prohibitions to 
unregulated species of primate, it would not ban private 
ownership or intrastate sale of the prohibited species.
    In our view, a better approach would be for Congress to 
work with the Department of Agriculture to identify a suitable 
way to address any public safety and humane treatment concerns 
associated with possessing nonhuman primates. Private pet 
ownership concerns may be best addressed through state laws 
that currently address these issues.
    Section 3 of H.R. 2964 would correct the technical defect 
discovered by the Service during development of implementing 
regulations for the Captive Wildlife Safety Act. While the 
Administration generally supports this change, we do not 
support the legislation in its current form.
    The Service is committed to conserving wildlife, not only 
in this country, but throughout the world. We welcome the 
Subcommittee's interest in strengthening U.S. efforts in this 
arena, and appreciate the opportunity to participate in this 
hearing.
    This concludes my prepared remarks. I would be happy to 
respond to any questions you may have.
    [The prepared statement of Mr. Perez follows:]

         Statement of Benito A. Perez, Chief, Law Enforcement, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior

    Madam Chairwoman and Members of the Subcommittee, I am Benito 
Perez, Chief of the U.S. Fish and Wildlife Service's (Service) Office 
of Law Enforcement. I am pleased to be here today to discuss H.R. 5534, 
the ``Bear Protection Act of 2008'' and H.R. 2964, the ``Captive 
Primate Safety Act.''
    The Service is the lead Federal agency for wildlife law 
enforcement, including the enforcement of U.S. laws and treaties that 
regulate domestic and international wildlife trade. As such, the 
Service works to curb illegal wildlife trade through inspection 
activities, investigations, and international liaison and capacity 
building. The strategic goals and objectives of our Law Enforcement 
Program include ``preventing the unlawful import/export and interstate 
commerce of foreign fish, wildlife and plants'' and ``protecting the 
Nation's fish, wildlife and plants from unlawful exploitation.''
H.R. 5534, the Bear Protection Act of 2008
    The Administration has reviewed H.R.5534, the ``Bear Protection Act 
of 2008,'' which would amend the Lacey Act Amendments of 1981 to 
prohibit the trade of bear viscera and bear viscera products in both 
interstate and international trade. The Administration appreciates the 
Subcommittee's interest in ensuring the protection of these important 
animals. The Administration does not support passage of the legislation 
as it is largely duplicative of already existing legal authority.
    Under existing laws and treaties, illegal international trade in 
bear parts and products is prohibited by both the Endangered Species 
Act (ESA) and the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora (CITES), which regulates commerce in 
species listed in its appendices and is implemented through the ESA. In 
the United States, the Lacey Act prohibits the interstate transport of 
bear parts and products when taken in violation of state, tribal, and 
foreign laws. State laws and regulations currently prohibit the sale of 
black bear viscera throughout nearly the entire range of the species, 
making the Lacey Act in its current form an effective tool for dealing 
with illegal trade in bear parts.
    The Administration has worked consistently under these authorities 
to ensure that activities in the United States are not contributing to 
the decline of bear populations nationwide or on a global scale. While 
American black bear populations are generally stable or increasing 
throughout most of the natural range of the species, there is one 
subspecies with small population numbers, the Louisiana Black Bear, 
that is listed as a threatened species under the Endangered Species 
Act. Additionally, four states (LA, FL, MS, and TX) have listed the 
species as rare, threatened, or endangered under state law. The primary 
threat to these species has been habitat destruction, not poaching for 
bear viscera. State programs have generally maintained healthy bear 
populations here in the United States for some time and for this 
reason, the Administration has long deferred to state management 
programs, and agrees with the states that no further measures are 
needed at this time.
H.R. 2964, the Captive Primate Safety Act
    H.R. 2964 would amend the Lacey Act to add non-human primates to 
the definition of ``prohibited wildlife species'' contained within 16 
U.S.C. Sec. 3371(g), expanding upon the Captive Wildlife Safety Act, 
Public Law No. 108-191, passed by Congress in 2003, which modified the 
Lacey Act to include any live lion, tiger, leopard, cheetah, jaguar, or 
cougar species, or any hybrid of such species in the definition of 
``prohibited wildlife species.'' The Administration does not support 
this change, and cannot support H.R. 2964. This position is consistent 
with our response to similar legislation, H.R. 1329, introduced in the 
109th Congress.
    The Administration's primary concern is the Service's ability to 
meet the extended enforcement mandate created by this provision. As 
noted above, the Service currently enforces the Nation's wildlife laws 
and treaties that protect endangered species, marine mammals, and 
migratory birds. Given the scope of the agency's conservation mission, 
the limited manpower available, and the need to focus on highest 
priority needs, the Service currently concentrates its enforcement 
efforts on preventing illegal activities that jeopardize the 
conservation of wild populations of such protected species. H.R. 2964 
would, instead, emphasize and expand Service enforcement 
responsibilities into an area that has historically been a 
responsibility of state agencies and which we do not consider to be a 
wildlife conservation issue. By including all non-human primates in the 
list of prohibited wildlife species, this bill would also extend the 
Service's enforcement mandate to policing currently legal activities 
involving interstate and foreign commerce of captive non-human 
primates. Many of these species may be lawfully used for research and 
other purposes under the Animal Welfare Act (AWA). However, private pet 
ownership is not regulated under the AWA.
    In addition, the mechanism created by this bill appears to provide, 
at least in some instances, coverage that is duplicative of existing 
law. The ESA already prohibits the interstate sale and international 
trade of many listed non-human primate species that have been 
determined to need a high level of protection. While H.R. 2964 would 
extend such prohibitions to unregulated species of primates, it would 
not ban private ownership or intrastate sale of the prohibited species. 
The bill only addresses the interstate and foreign commerce of non-
human primates, and does not address public safety and the humane 
treatment of these animals. In addition, section 3372(e) of the Lacey 
Act exempts a number of groups and individuals from its prohibitions, 
further limiting the effectiveness of the legislation.
    Prohibiting the interstate transport of legally owned non-human 
primates would also have several negative consequences. Some 
individuals with disabilities currently use trained non-human primates 
as service animals. H.R. 2964 would prohibit these individuals from 
traveling out of state with their service animals. Additionally, should 
individuals who legally own non-human primates as pets move out of 
state, they would be required to leave the animals behind, potentially 
increasing the number of non-human primates being set free, needing to 
be placed in appropriate homes, or ending up in the custody of humane 
shelters and sanctuaries.
    In our view, a better approach would be for Congress to work with 
the Department of Agriculture to identify a suitable way to address any 
public safety and humane treatment concerns associated with possessing 
AWA regulated non-human primates through a more suitable legislative 
vehicle. Private pet ownership concerns may be best addressed through 
state laws that currently address these issues.
    In addition, section 3 of H.R. 2964 would correct a technical 
defect discovered by the Service during development of implementing 
regulations for the Captive Wildlife Safety Act. As presently written, 
the Captive Wildlife Safety Act provisions are a one-step offense 
within a section of the Lacey Act that presumes two-step violations, 
making violations of the Captive Wildlife Safety Act provision very 
difficult to enforce in a court of law. Section 3 of H.R. 2964 
addresses this problem by making it unlawful for a person to sell or 
purchase a live animal of any prohibited wildlife species in interstate 
or foreign commerce and includes provisions for civil and criminal 
penalties for violations of the requirements of this Act. While the 
Administration generally supports this change, for the reasons outlined 
above we do not support the legislation in its current form.
Conclusion
    The Service is committed to it role in the conservation of 
wildlife, not only in this country but throughout the world. The 
Service has a long history of proactively addressing international 
wildlife species conservation, and works with private citizens, local 
communities, state and Federal agencies, foreign governments, native 
peoples and non-governmental organizations in promoting coordinated 
domestic and international strategies to protect, restore, and enhance 
the world's diverse wildlife and habitats.
    The Service will continue working with other nations, international 
groups, states and Federal enforcement counterparts in this country to 
combat illegal wildlife trade. We welcome the Subcommittee's interest 
in strengthening domestic efforts to accomplish this, and appreciate 
the opportunity to participate in this hearing.
    Madam Chairwoman, this concludes my prepared remarks. I would be 
happy to respond to any questions that you may have.
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Mr. Perez, for your 
testimony.
    And now, Mr. Pacelle, welcome. And you can proceed with 
your testimony.

 STATEMENT OF WAYNE PACELLE, PRESIDENT AND CEO, HUMANE SOCIETY 
                      OF THE UNITED STATES

    Mr. Pacelle. Thank you, Chairwoman Bordallo. And thanks to 
you and full committee Chairman Rahall for organizing this 
hearing.
    The Humane Society of the United States supports both 
bills: H.R. 2964 and H.R. 5534.
    I will first make a few observations about the Bear 
Protection Act. Again, we appreciate Congressman Grijalva and 
Campbell of California for crafting this bill that focuses 
narrowly on a specific problem in global bear conservation and 
humane treatment of animals. That is the highly lucrative trade 
in bear viscera, such as gall bladders and bile.
    I think it is very important to just underscore this 
legislation does nothing to limit states from managing their 
resident bear populations, establishing bear hunting seasons, 
or allowing any method of hunting.
    Already we are moving to a national consensus on this issue 
of not promoting poaching by really cracking down on the bear-
parts trade. Thirty-four states prohibit the trade in gall 
bladders, while only five states allow commercialization, and 
the remainder either have no regulations or allow sale if the 
bear was killed outside the state.
    Addressing the Ranking Member's comments on the last panel, 
Alaska's Administrative Code notes that, ``A person may not 
purchase, sell, barter, advertise, or otherwise offer for sale 
or barter any part of a bear, except an article of handicraft 
made from the fur of a bear.'' So Alaska is one of those 34 
states that prohibits the trade in gall bladders.
    It is not just the issue of poaching American Black Bears. 
Bear viscera and gall bladders look alike from species to 
species, and it is a global economy that we live in. And these 
products are used in traditional Chinese medicine, even though 
there are alternatives, as Congressman Grijalva noted.
    The World Society for the Protection of Animals found that 
illegal bear products were on sale in Boston, Chicago, Los 
Angeles, New York, San Francisco, and Seattle. The WSPA 
investigation found that intact gall bladders accounted for 63 
percent of the bear products for sale in the U.S., and that one 
of the gall bladders, allegedly from a wild American Black 
Bear, sold for $2800.
    One out of every six shops visited during the survey sold 
bear products, and 75 percent of them claimed to have products 
from China.
    I think it is also important to put this in a context of 
international conservation. At the tenth meeting of the 
Conference of the Parties to CITES in Zimbabwe, the United 
States coauthored a resolution on conservation of, and trade 
in, bears. The resolution passed unanimously, more than 100 
nations. And it begins by saying that, ``Noting that the 
continued illegal trade in parts and derivatives of bear 
species undermines the effectiveness of the Convention, and 
that if CITES Parties and States not party do not take action 
to eliminate such trade, poaching may cause declines of wild 
bears that could lead to the extirpation of certain 
populations, or even species.''
    The resolution then says it ``urges all parties, 
particularly bear range and consuming countries, to take 
immediate action in order to demonstrably reduce the illegal 
trade in bear parts and derivatives by the 11th meeting of the 
Conference of the Parties, by, A, confirming, adopting or 
improving their national legislation to control the import and 
export of bear parts and derivatives, ensuring that the 
penalties for violations are sufficient to deter illegal 
trade.''
    So I would submit to you, Madame Chairwoman, that the Bear 
Protection Act before us today is national legislation that 
meets this international goal.
    I want to address the comments from the Fish and Wildlife 
Service briefly, about this being a burden on the Fish and 
Wildlife Service and its Division of Law Enforcement.
    This is simply another tool that the Fish and Wildlife 
Service and its special agents can use if they choose. There is 
no obligation to take X number of cases, or to divert any 
resources. This is entirely a discretionary law enforcement 
action.
    I also want to say that this whole idea of having a 
complementary law with the states, we have ample precedent in 
this Congress. The Congress has adopted legislation to combat 
the interstate transport of fighting animals. Even at a time 
when a number of states still permitted, still allowed illegal 
animal-fighting activities, the Federal government established 
a bright-line policy to say that that practice is wrong.
    Well, it is wrong to kill bears for their gall bladders and 
their bile. This has nothing to do with hunting; it is an anti-
poaching measure. And I am frankly astonished that anyone would 
support the position that it is OK to trade in bear gall 
bladders.
    Now my time has nearly elapsed, Madame Chairwoman. I do 
want to just briefly say that the Captive Primate Safety Act is 
one that we support. We associate ourselves with the comments 
from Dr. Goodall, and also the AVMA. Keeping wild animals as 
pets is generally a bad idea. They are not domesticated to live 
in our environments. They come with many behavioral and 
emotional complexities, physical challenges. And to have them 
in our backyards and basements typically results in inhumane 
treatment of these animals.
    The public safety risks do not just relate to the disease 
transmission issues, which are more prevalent because of the 
similarity of primates to humans; but also their physical 
strength, their biting ability. Why have these animals in our 
midst if we can check the success? People can have dogs and 
cats, they make wonderful companions. We don't need chimpanzees 
and macaques in our homes and in our communities that threaten 
people.
    Thank you very much.
    [The prepared statement of Mr. Pacelle follows:]

  Statement of Wayne Pacelle, President and Chief Executive Officer, 
                The Humane Society of the United States

    Thank you Chairwoman Bordallo and members of the Subcommittee for 
the opportunity to testify in support of both bills being considered 
today--H.R. 5534, the Bear Protection Act of 2008, introduced by 
Representatives Raul Grijalva and John Campbell, and H.R. 2964, the 
Captive Primate Safety Act, introduce by Representatives Eddie Bernice 
Johnson and Mark Kirk. I am Wayne Pacelle, president and CEO of The 
Humane Society of the United States (HSUS), the nation's largest animal 
protection organization, backed by 10 million Americans--one out of 
every 30.
    This bear protection testimony is also offered on behalf of the 
Bear Working Group of the Species Survival Network and Animals Asia, 
while the full testimony supporting both bills is also offered on 
behalf of Born Free USA.
Bear Protection Act
Overview
    For more than a decade, HSUS has investigated the national and 
international trade in bear parts, specifically the gallbladders and 
bile. The demand for bear viscera across America and in other countries 
drives bear poaching and the illegal trade in bear parts, and 
ultimately puts endangered bear species at great risk. Bear parts and 
derivatives are used in traditional medicines and, increasingly, luxury 
cosmetic items.
    The United States has an especially important role to play in bear 
conservation since it is both a bear range state and a nation with 
residents who consume bear parts.
    Congressmen Grijalva and Campbell have crafted a bill that focuses 
narrowly on a specific problem in global bear conservation: the highly 
lucrative trade in bear viscera such as the gallbladders and bile that 
is principally in demand in the enormously large Asian communities at 
home and abroad. The legislation does nothing to limit states from 
managing their resident bear populations, establishing bear hunting 
seasons, or allowing any method of hunting.
    This is not the first time the Congress has considered this 
legislation. The Senate passed very similar legislation on two 
occasions, and in the 107th Congress, the House version of the bill, 
then authored by Representative Elton Gallegly, attracted nearly 200 
cosponsors.
Legal Loopholes in the United States
    The Bear Protection Act creates sound national policy against the 
trade in bear gallbladders and bile. The absence of federal legislation 
prohibiting trade in bear parts allows an interstate and international 
illegal trade to flourish. We should not allow poachers and smugglers 
to exploit the current inconsistencies in state laws and profit from 
the sale of bear parts.
    Currently, individual states have laws to restrict illegal trade. 
There are 34 states that prohibit the trade in bear gallbladders, while 
only five states allow commercialization and the remainder either have 
no regulations or allow sale if the bear was killed outside the state. 
This legal discrepancy from state to state creates legal ambiguities 
that complicate enforcement, and these are the openings that poachers 
and other bear parts sellers exploit. The Bear Protection Act would 
close loopholes and establish a national policy discouraging bear 
poaching and curbing the bear parts trade.
    A number of states represented by members of this committee have 
strong laws concerning commercialization of bear parts. For example:
    <bullet>  Alaska's Administrative Code notes that a ``person may 
not purchase, sell, barter, advertise, or otherwise offer for sale or 
barter: (1) any part of a bear, except an article of handicraft made 
from the fur of a bear.''
    <bullet>  California's Fish and Game Code includes a provision 
stating that ``it is unlawful to sell or purchase, or possess for sale, 
the meat, skin, hide, teeth, claws, or other parts of any bear in this 
state'' and that ``the possession of more than one bear gall bladder is 
prima facie evidence that the bear gall bladders are possessed for 
sale.''
    <bullet>  In Virginia it is unlawful to ``offer for sale, sell, 
offer to purchase, or purchase, at any time or in any manner, any wild 
bird or wild animal or the carcass or any part thereof, except as 
specifically permitted by law.''
    Despite these strong state laws, poaching of bears and illegal 
commercialization of bear gallbladders persists, though its precise 
scale is unknown because of the secretive nature of the trade and of 
poaching in general.
    In one case that illustrates the value of the Bear Protection Act, 
an individual in Alaska was offered bear parts by a man in Idaho where 
commerce is legal. She agreed to buy them, sent payment, and was 
arrested when she went to the airport to collect her purchase. Although 
all of the Alaska resident's actions related to this unlawful purchase 
were committed within the state, the case was ultimately dismissed 
because the ``legal site'' of the purchase was not clearly defined.
    The Alaska Attorney General's office concluded that this decision 
``will lead to the inevitable result of encouraging individuals to 
unlawfully take bears in Alaska, take them outside to places like Idaho 
where the sale of bear parts is still legal, and sell them to 
purchasers in Alaska through out-of-state strawmen. This is the very 
kind of conduct the legislature and Board of Game intended to 
prevent....This does not further the administration of justice.''
    As recently as December 2007, a San Diego man was arrested for 
commercializing bear gallbladders. California Department of Fish and 
Game Chief of Enforcement Nancy Foley said in an official statement, 
``The lucrative profits derived from the illegal trade of bear 
products, most notably bear gall bladders, entice poachers who risk 
felony convictions.''
    Members of the Subcommittee may also be familiar with Operation 
SOUP and Operation VIPER in the Shenandoah Mountains and the large 
number of people involved in a sophisticated multi-state bear 
gallbladder smuggling operation. These operations uncovered the 
movement of bear galls from Virginia to the District of Columbia, 
Maryland, New York, West Virginia, and South Korea. At the time, 
Virginia prohibited trade, while West Virginia allowed the trade (as 
did the District and New York). After these cases made national 
headlines, West Virginia prohibited commercialization of bear 
gallbladders.
    Similar cases of bears being poached for their gallbladders have 
been uncovered throughout the nation, but we believe enforcement 
personnel have been able to interdict just a small portion of the 
trade.
    The bear parts trade in the United States does not just involve the 
poaching of American black bears, a species that is clearly not 
endangered. It may also involve the illegal importation of bear 
gallbladders or bile from highly endangered bears in Asia.
    A 2006 investigation by our colleagues at the World Society for the 
Protection of Animals found that illegal bear products were on sale in 
Boston, Chicago, Los Angeles, New York, San Francisco, and Seattle. 
Some of these states ban the commercialization; some allow it; and 
Illinois has no regulation.
    The WSPA investigation found that intact bear gallbladders 
accounted for 63 percent of the bear products for sale in the U.S. and 
that one of the gallbladders, allegedly from a wild American black 
bear, sold for $2,800. One out of every six shops visited during the 
survey sold bear products, and 75% of them claimed to have products 
from China.
    While the North American black bear population is healthy, and in 
most places stable to increasing, there is also clear evidence that 
bears are poached for their gallbladders and bear parts are being 
illegally smuggled from state to state and sold for profit.
    There is incentive to kill bears illegally in one state because 
individuals can then sell the parts legally in another state--
circumventing prohibitions on sale that exist in a large majority of 
states and undermining the effectiveness of state laws. State wildlife 
agencies and district attorneys' offices are hindered in investigating 
and prosecuting bear poaching and gallbladder trade cases by this 
patchwork of state laws. Passage of the BPA will create a consistent 
legal framework that will help reduce the number of bears poached 
globally to supply the trade.
Meeting Our International Responsibilities
    All eight extant bear species are listed under the Appendices to 
the Convention on International Trade in Endangered Species of Wild 
Fauna and Flora (CITES). The spectacled bear (Tremarctos ornatus), 
Asiatic black bear (Ursus thibetanus), sun bear (Helarctos malayanus), 
sloth bear (Melursus ursinus), giant panda (Ailuripoda melanoleuca) and 
some subspecies of brown bear (Ursus arctos) are listed on CITES 
Appendix I, thus prohibiting international commercial trade in their 
parts and products.
    Other species, including the polar bear (Ursus maritimus), some 
brown bear populations, and the American black bear (Ursus americanus), 
are listed on Appendix II which means some international trade in their 
parts and derivatives can occur, under very specific regulations.
    At the 10th meeting of the Conference of the Parties to CITES in 
Zimbabwe, the United States co-authored a Resolution on ``Conservation 
of and Trade in Bears.'' The Resolution, passed unanimously, begins by:
        ``NOTING that the continued illegal trade in parts and 
        derivatives of bear species undermines the effectiveness of the 
        Convention and that if CITES Parties and States not-party do 
        not take action to eliminate such trade, poaching may cause 
        declines of wild bears that could lead to the extirpation of 
        certain populations or even species.''
    The resolution then:
        ``URGES all Parties, particularly bear range and consuming 
        countries, to take immediate action in order to demonstrably 
        reduce the illegal trade in bear parts and derivatives by the 
        11th Meeting of the Conference of the Parties, by: a) 
        confirming, adopting or improving their national legislation to 
        control the import and export of bear parts and derivatives, 
        ensuring that the penalties for violations are sufficient to 
        deter illegal trade.''
    The Bear Protection Act is national legislation that meets this 
international goal.
Conclusion
    The passage of this legislation is not a burden upon the Fish and 
Wildlife Service and its Division of Law Enforcement, but another tool 
that special agents can use as they see fit. They have discretion in 
the cases they choose to pursue, and the enactment of that measure does 
not change the equation for them.
    The states have major responsibilities here, and the enactment of 
the Bear Protection Act will serve as a complement to their own 
enforcement efforts. It is a similar in concept to the enactment by 
Congress of a federal law years ago to restrict the interstate trade in 
fighting dogs and birds, even though at the time that the Congress 
passed that original measure, some states still allowed animal 
fighting.
    The world sadly watched for decades as the trade in elephant ivory, 
rhino horn, and tiger bone contributed to the precipitous decline of 
these species throughout their range. Now, bears are also targeted, and 
the threat is tangible, especially given the size of the national and 
global markets for bear parts. Trading in bears parts is not part of 
the hunting industry, and frankly it's not a legitimate industry. The 
Congress should give it no leniency.
Captive Primate Safety Act
    I'd like now to turn my attention to the Captive Primate Safety 
Act, which seeks to promote animal welfare and protect public health 
and safety by prohibiting interstate commerce in monkeys, chimpanzees, 
and other primates as pets. A companion bill in the Senate (S. 1498) 
was approved by the Senate Committee on Environment and Public Works in 
July 2007.
    Simply put, primates are wild animals and should not be pets. They 
can inflict serious injuries and spread life-threatening disease, and 
the average pet owner cannot provide the care they need in captivity.
    About 20 states prohibit keeping primates as pets, and many of the 
rest require a permit. In addition, importing primates into the United 
States for the pet trade is prohibited because of the health risks. 
Still, an estimated 15,000 primates are in private hands, and they are 
readily available for purchase from exotic animal breeders and dealers 
and even over the Internet. Because many of these animals move in 
interstate commerce, federal legislation is needed to complement state 
laws.
    The Captive Primate Safety Act will amend the Lacey Act by adding 
nonhuman primates to the list of animals who cannot be transported 
across state lines as pets. It does for primates what the Captive 
Wildlife Safety Act--which Congress passed unanimously in late 2003--
did for lions, tigers, and other big cats. It also includes technical 
corrections to facilitate enforcement of the big cat and primate 
measures.
    The legislation has been narrowly targeted to the pet trade. It has 
no impact on zoos, research, or responsible wildlife sanctuaries. The 
bill addresses the trade and transportation of these animals by 
untrained individuals. With the passage of this legislation, it will no 
longer be legal to attend an exotic animal auction in another state and 
bring home a pet monkey, or order one across state lines over the 
Internet.
Threat to Animal Welfare
    Nonhuman primates kept in captivity need housing in large 
enclosures, the companionship of other nonhuman primates, and a 
stimulating environment--in short, the kind of environment provided by 
their natural habitat. The average pet owner cannot meet these needs.
    The images in the media of monkeys and chimpanzees, sometimes 
dressed in human clothing and living as members of human families, 
present an entirely unrealistic picture of what keeping a primate 
requires. Primates isolated from their own kind and out of their native 
environments suffer physical and behavioral problems. Squirrel monkeys 
in the wild spend most of their time in treetops, rarely coming to the 
ground, in sharp contrast to life in a human home.
    In the wild, female primates share a very strong bond with their 
young. Newborn tufted capuchins may cling to their mothers for weeks, 
remain in constant contact for months, and live in family groups for 
years. <SUP>1</SUP> Primates in the pet trade may be taken from their 
mothers when they are just weeks or even days old. In the hands of 
primate breeders, breeding females are subjected to this loss again and 
again.
---------------------------------------------------------------------------
    \1\ Gron, Kurt, ``Primate Factsheets: Tufted capuchin (Cebus 
apella) Behavior,'' April 10, 2007. http://pin.primate.wisc.edu/
factsheets/entry/tufted_capuchin/behav accessed March 4, 2008.
---------------------------------------------------------------------------
    When they fail to meet their owner's expectations, pet primates are 
often subjected isolation and neglect, and owners may turn to brutal 
means to try to control them. Some owners resort to removing the 
animal's canine teeth--a practice the United States Department of 
Agriculture considers a violation of the Animal Welfare Act for animals 
kept in zoos <SUP>2</SUP>--but even that doesn't prevent injury.
---------------------------------------------------------------------------
    \2\ USDA Animal Care, ``Information Sheet on Declawing and Tooth 
Removal,'' August 2006. http://www.aphis.usda.gov/animal_welfare/
downloads/big_cat/declaw_tooth.pdf accessed March 4, 2008.
---------------------------------------------------------------------------
    Primates are long-lived. A chimpanzee who becomes too difficult to 
handle at age eight might live another 50 years. There are few options 
for placing these animals. Primates who are hand-raised by humans are 
deprived of appropriate models for their natural behaviors; it can be 
impossible to rehabilitate them to live with others of their kind. 
Reputable sanctuaries that can provide the requisite care are at or 
near capacity. Pet primates may end up confined to small cages, sold to 
substandard menageries, or back in the cycle of breeding and adding to 
the exotic animal trade.
Threat to Public Safety
    While infant primates may seem easy to manage, they inevitably grow 
stronger and more aggressive. Chimpanzees become many times stronger 
than humans and extremely difficult to handle. Even small monkeys can 
inflict serious harm by biting and scratching.
    At least 100 people--including 29 children--were injured by captive 
primates over the past ten years; many more incidents likely occurred 
but went unreported. From 1990 to 1992 alone, 28 people reported non-
occupational macaque bites to the Centers for Disease Control and 
Prevention. <SUP>3</SUP> A list of recent incidents is attached as 
Appendix 1.
---------------------------------------------------------------------------
    \3\ Ostrowski, Stephanie R. et al., ``B-virus from Pet Macaque 
Monkeys: An Emerging Threat in the United States?'' Emerging Infectious 
Diseases, Vol. 4, No. 1, January - March 1998. http://www.cdc.gov/
ncidod/eid/vol4no1/ostrowsk.htm accessed March 4, 2008.
---------------------------------------------------------------------------
    Children are particularly vulnerable to attack because primates 
view them as lower in social hierarchy, but adults are also at risk. 
Primates can move with great speed and agility--patas monkeys are said 
to reach speeds of 30 miles an hour. A 20-pound monkey can quickly 
overwhelm a 200-pound man, according to a 2006 Health Advisory issued 
by the Missouri Department of Health and Senior Services. <SUP>4</SUP> 
The advisory is attached as Appendix 2.
---------------------------------------------------------------------------
    \4\ ``Health Advisory: Dangers Associated With Keeping Primates as 
Pets,'' Missouri Department of Health and Senior Services, October 6, 
2006. www.dhss.mo.gov/BT_Response/HAdPrimates10-6-06.pdf accessed March 
4, 2008.
---------------------------------------------------------------------------
    Chimpanzees used in television and film are routinely retired from 
show business around eight years of age. Once they are past 
adolescence, even experienced trainers are unable to control them. In 
2005, a California man was severely mauled by two chimpanzees formerly 
used in entertainment who escaped their enclosure at an exotic animal 
facility. After months in a medically induced coma and a dozen 
surgeries, he still faced a long road to recovery.
    Primates are renowned escape artists. In this case, the caretaker 
left two of the three doors holding the animals in their enclosure 
open, but claimed she locked the third barrier--a wire mesh trapdoor 
held in place by a 4-inch pin about an arm's length from the chimps--
which the chimpanzees were able to open.
    In just the past few weeks, in Washington state a monkey reportedly 
figured out how to open the door to his new home when the owners 
weren't there. The monkey bit three people before being recaptured. In 
Arizona, a three-year-old boy was bitten on his wrist, possibly down to 
the bone, by a lemur his family had gotten only two weeks before.
Threat to Public Health
    Primates can harbor diseases and parasites that can be transmitted 
to humans. These include viral diseases (such as herpes B, hepatitis, 
and monkeypox), bacterial diseases (such as tuberculosis, salmonella, 
and shigella), fungal diseases (such as ringworm), intestinal 
protozoans and worms, and external parasites. <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ Renquist, David M. and Robert A. Whitney, Jr., ``Zoonoses 
Acquired From Pet Primates,'' Veterinary Clinics of North America: 
Small Animal Practice 17 (1) 219-240, 1987. http://
pin.primate.wisc.edu/aboutp/pets/zoonoses.html accessed March 4, 2008.
---------------------------------------------------------------------------
    The National Association of State Public Health Veterinarians 
(NASPHV) recommends prohibiting primates in exhibit settings where 
there is a reasonable possibility of contact with the animals in its 
Compendium of Measures to Prevent Disease Associated with Animals in 
Public Settings, 2007. <SUP>6</SUP> Public contact is especially likely 
when primates are kept as pets and transported into public settings.
---------------------------------------------------------------------------
    \6\ ``Compendium of Measures to Prevent Disease Associated with 
Animals in Public Settings, 2007,'' National Association of State 
Public Health Veterinarians, Inc., published in the CDC's Morbidity and 
Mortality Weekly Report, July 4, 2007. http://www.cdc.gov/mmwR/preview/
mmwrhtml/rr5605a1.htm accessed March 4, 2008.
---------------------------------------------------------------------------
    Due to the many health risks nonhuman primates pose, both known and 
unknown, the importation of primates into the United States for the pet 
trade has been prohibited since 1975. Primates may be imported for 
research purposes and must undergo a quarantine period in order to 
detect evidence of disease.
    Despite these laws, nonhuman primates may be smuggled into the 
country illegally. In August 2007, a man flew from Peru to Florida, 
where he waited several hours for a connecting flight to New York. It 
wasn't until he was aboard the flight to New York that passengers 
noticed the man had a live marmoset under his hat. The legal trade 
provides cover the illegal movement of these animals.
    The staffs of research facilities and accredited zoos are trained 
to avoid contact with nonhuman primates. Pet owners take these animals 
to the park and the grocery store. Two children were bitten by a pet 
macaque at a Missouri park in September 2007, and a clerk at a North 
Carolina convenience store was bitten by a pet monkey brought in by a 
customer in December 2007. In both cases, the owners ran off with the 
animals before they could be tested for disease.
        ``Nonhuman primates, by virtue of their genetic, physiologic, 
        and sometimes social similarities to humans, are particularly 
        likely sources of infectious agents that pose a threat to 
        humans,'' according to research published by the Centers for 
        Disease Control and Prevention (CDC). <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ Jones-Engel, Lisa et al., ``Primate-to-human retroviral 
transmission in Asia'' Emerging Infectious Diseases, Vol. 11, No. 7, 
July 2005. http://www.cdc.gov/ncidod/Eid/vol11no07/04-0957.htm accessed 
March 4, 2008.
---------------------------------------------------------------------------
    The following zoonotic disease threats can originate in primates.
Herpes B Virus
    Herpes B virus is present in most adult macaques, though they may 
not display any symptoms. Transmission to humans has been rare, but 
humans who develop clinical signs of Herpes B virus have a very high 
mortality rate without immediate treatment. CDC research concludes: 
``The extremely high prevalence of B-virus along with their behavioral 
characteristics make the macaque species unsuitable as pets.'' 
<SUP>8</SUP> Herpes B virus also has been found in capuchins, 
<SUP>9</SUP> patas monkeys, <SUP>10</SUP> and a colobus monkey 
<SUP>11</SUP> who were housed near macaques.
---------------------------------------------------------------------------
    \8\ Ostrowski, Stephanie R. et al., ``B-virus from Pet Macaque 
Monkeys: An Emerging Threat in the United States?'' Emerging Infectious 
Diseases, Vol. 4, No. 1, January - March 1998. http://www.cdc.gov/
ncidod/eid/vol4no1/ostrowsk.htm accessed March 4, 2008.
    \9\ Coulibaly, C. et al., ``A natural asymptomatic herpes B virus 
infection in a colony of laboratory brown capuchin monkeys (Cebus 
apella),'' Laboratory Animals, Vol. 38, No. 4, October 2004, 432-
438(7). http://www.ingentaconnect.com/content/rsm/lab/2004/00000038/
00000004/art00011 accessed March 4, 2008.
    \10\ Wilson, Ronald B. et al., ``Fatal Herpesvirus simiae (B virus) 
infection in a patas monkey (Erythrocebus patas),'' J Vet Diagn Invest 
2:242-244 (1990) http://jvdi.org/cgi/reprint/2/3/242.pdf accessed March 
4, 2008.
    \11\ Loomis, M.R. et al., ``Fatal herpesvirus infection in patas 
monkeys and a black and white colobus monkey'' (abstract), J Am Vet Med 
Assoc., 1981 Dec 1;179(11):1236-9. http://www.ncbi.nlm.nih.gov/sites/
entrez?db=pubmed&uid=6276349&cmd'showdetailview accessed March 4, 2008.
---------------------------------------------------------------------------
    The risk from Herpes B is evident from the experience in biomedical 
research. A worker at Yerkes National Primate Research Center in 
Georgia died from a Herpes B infection after body fluid from a macaque 
splashed into her eye in 1997. In December 2005, a five-year-old girl 
in the Philippines reportedly was bitten by a neighbor's pet macaque, 
contracted an infection, and died within days.
    Even if primates test negative for disease, professional animal 
facilities handle them as though they are a disease threat. Macaques at 
the Maryland Zoo in Baltimore tested negative for Herpes B year after 
year, until one tested positive.
    Pet buyers and public health officials may be unaware of the 
danger. In 2006, an Ohio man purchased a pet macaque from a woman in 
Idaho who had advertised the monkey for sale on the Internet. On the 
first day, the man was bitten while trying to feed the monkey. It was 
only after the bite that he and local health authorities learned about 
the risk of Herpes B.
Simian Foamy Virus
    Simian foamy virus is a retrovirus that infects a range of nonhuman 
primates. According to Canadian health authorities, about 70 to 90 
percent of nonhuman primates born in captivity have SFV. <SUP>12</SUP> 
In 2006, in light of the potential risk of SFV and as yet unidentified 
simian viruses, Canada prohibited blood donations by people who ever 
took care of or handled monkeys or their body fluids on a regular basis 
in their jobs.
---------------------------------------------------------------------------
    \12\ Health Canada, ``Fact Sheet--Simian Foamy Virus,'' July 26, 
2006. http://www.hc-sc.gc.ca/dhp-mps/brgtherap/activit/fs-fi/
fact_simian_foamy_virus_spumeux_simien_feuillet_e.html accessed March 
4, 2008.
---------------------------------------------------------------------------
    A case has been documented in Asia of SFV transmission from free-
roaming macaques to a person. To date SFV has not resulted in illness 
in humans, but researchers conclude that further study is needed into 
SFV transmission in other contexts, including pet ownership. ``The 
demonstration of SFV transmission in the context of a monkey temple in 
Bali points to a broad public health concern: other enzootic primate 
infectious agents may cross the species barrier and cause significant 
morbidity and mortality in human populations,'' they say. <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ Jones-Engel, Lisa et al., ``Primate-to-human retroviral 
transmission in Asia'' Emerging Infectious Diseases, Vol. 11, No. 7, 
July 2005. http://www.cdc.gov/ncidod/Eid/vol11no07/04-0957.htm accessed 
March 4, 2008.
---------------------------------------------------------------------------
Tuberculosis
    Human and nonhuman primates share susceptibility to wide array of 
bacterial agents including bacteria that causes tuberculosis. Monkeys 
imported for research, particularly from countries with a high 
incidence of the disease, have been found to be carrying tuberculosis. 
<SUP>14</SUP> Tuberculosis also can be transmitted from humans to 
nonhuman primates, and it can be fatal to them.
---------------------------------------------------------------------------
    \14\ ``Tuberculosis in Imported Nonhuman Primates--United States, 
June 1990-May 1993'' Centers for Disease Control and Prevention 
Morbidity and Mortality Weekly Report, 42(29);572-576, July 30, 1993. 
http://www.cdc.gov/mmwr/preview/mmwrhtml/00021299.htm accessed March 4, 
2008.
---------------------------------------------------------------------------
Wild Animals Belong in the Wild
    Because of the serious risk of disease transmission combined with 
the likelihood of escapes and attacks, keeping primates as pets 
threatens public health and safety. It also threatens the welfare of 
the animals. These social, intelligent animals should not be separated 
from others of their kind, forced to live in unsuitable environments, 
and confined in small cages to sequester these dangerous animals from 
people.
    We understand people's fascination with primates because they seem 
so much like us. But unlike cats and dogs--domesticated over thousands 
of years and dependent upon us for shelter and care--primates are wild 
animals. No amount of training or human affection will change their 
basic instincts. Because of their genetic similarity to us, they are 
ideal hosts for passing zoonotic diseases to people. For all of these 
reasons, they belong in the wild, not in our backyards and basements.
    This legislation will not prohibit keeping primates as pets, but by 
prohibiting interstate movement it will discourage the trade and help 
protect the animals and the community. This measure, like the Bear 
Protection Act, is a complement to state laws on the topic and sets a 
bright-line national policy that keeping primates as pets is 
unacceptable. We urge support for both measures.
Appendix 1

              Recent Primate Incidents Demonstrate Risks 
              To Public Health and Safety, Animal Welfare

    February 2008 (Arizona): A 3-year-old was bitten by a lemur his 
family got two weeks before.
    February 2008 (Washington): A pet monkey escaped from a home and 
bit three people before being recaptured.
    December 2007 (North Carolina): A woman working at a convenience 
store was bitten by a pet monkey brought in by a customer; the customer 
then ran out of the store with the monkey.
    September 2007 (Missouri): Two children were bitten by a pet 
macaque monkey at a park. The woman who owned the monkey ran off with 
the animal. Macaques often carry Herpes B virus, and research published 
by the CDC concludes the health risk makes them unsuitable as pets.
    August 2007 (Wisconsin): A woman was bitten by a monkey a man had 
on a leash; the monkey later escaped and was on the loose for several 
hours before being recaptured and quarantined.
    June 2007 (Vermont): State game wardens seized two monkeys and 
charged a man with having them illegally. Officials said the animals 
were moved from place to place and kept in small cages.
    April 2007 (Mississippi): A federal agent approached a home and was 
attacked by a macaque.
    February 2007 (Michigan): A 3-year-old was scratched by a macaque 
being housed at a pet shop.
    January 2007 (Louisiana): An 8-year-old boy got rabies shots after 
being bitten by a pet lemur.
    October 2006 (Ohio): A man was bitten by a pet macaque monkey he 
received that day from an Idaho woman who had advertised the animal for 
sale on the Internet.
    August 2006 (Tennessee): A woman was buckling her 3-year-old 
granddaughter into a car seat when a neighbor's monkey jumped into the 
car and attacked the girl, who needed stitches.
    August 2006: (Illinois): A pet monkey escaped from a cage and 
severely bit a teenager.
    March 2006 (Louisiana): A pet bonnet macaque escaped from a cage 
and attacked a 2-year-old boy across the street. The boy received 
rabies prevention treatments.
    March 2006 (Texas): A pet monkey bit a person and was euthanized to 
test for disease.
    November 2005 (Arizona): A pet monkey escaped from a cage and tore 
though a neighbor's birthday party, biting two children.
    August 2005 (Tennessee): A pet monkey escaped or was stolen; anyone 
spotting the monkey was warned not to make eye contact because the 
owner said the animal would bite.
    July 2005 (Ohio): A pet macaque escaped from an enclosure, jumped 
into a truck, bit a man, and fled.
    May 2005 (West Virginia): A 13-year-old girl was bitten by a pet 
monkey a woman had on a leash at a shopping center.
    March 2005 (California): A man was brutally mauled by two 
chimpanzees who escaped their enclosure at an exotic animal facility.
Appendix 2
    ``Health Advisory: Dangers Associated With Keeping Primates as 
Pets,'' Missouri Department of Health and Senior Services, October 6, 
2006

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 

   Response to questions submitted for the record by Wayne Pacelle, 
                             Humane Society

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  Mr. Perez makes a good point: how is the U.S. Fish and Wildlife 
        Service supposed to take on the additional responsibility of 
        enforcing the ban that this bill would put in place? The 
        Service is already underfunded.
Answer:
    We agree that the U.S. Fish and Wildlife Service (USFWS) has 
enormous law enforcement responsibilities, but we disagree with the 
agency in its view that the enactment of these measures would create 
undue burdens. Instead, we believe that strong laws to protect bears 
and primates are valuable and needed tools to combat poaching and the 
mistreatment of primates.
    The Humane Society of the United States and many of our colleagues 
working in the animal protection and wildlife conservation field have 
strongly advocates for enhanced funding of the Division of Law 
Enforcement at the USFWS. We will continue to do so. Poachers are a 
threat to all wildlife, and nabbing them on bear poaching charges helps 
all wildlife and fulfills the core mission of the USFWS.
    Enforcement actions under the Bear Protection Act and the Captive 
Primate Safety Act are discretionary. They are tools that law 
enforcement can use to protect wildlife from abuse and exploitation.
    The Bear Protection Act would make it easier for state wildlife law 
enforcement departments to apprehend bear poachers and bear parts 
smugglers and prosecute them effectively. This is true because there 
would no longer be a significant burden or proof to show the site of 
the bear poaching or the origin of the galls--commercialization would 
be prohibited nationally. The Bear Protection Act would not impose on 
the Service whatsoever; it will enhance operations and capacity at the 
state and federal level.
    Further, as we heard in the testimony before your Subcommittee from 
Skip Wissinger, in Operation SOUP there was terrific and detailed 
cooperation between the Virginia Department of Game and Inland 
Fisheries and the National Park Service. The primary involvement of 
USFWS only came in the form of bear gall forensic analysis at the 
national forensics laboratory in Ashland, Oregon.
    The last CBO cost estimate for the Bear Protection Act concluded 
the following: ``CBO expects that implementing [the Bear Protection 
Act] S. 1109 would not increase the enforcement responsibilities of 
federal agencies because they would carry out the legislation in 
conjunction with a number of other very similar laws, such as the ESA. 
No additional enforcement efforts would be necessary except for the 
initial promulgation of regulations by the USFWS in consultation with 
other agencies, such as the Department of Health and Human Services.''
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Pacelle, for your 
careful consideration of these two bills.
    And finally, I would like to invite Mr. Ross to present his 
testimony.

STATEMENT OF STEVE ROSS, SUPERVISOR OF BEHAVIORAL AND COGNITIVE 
   RESEARCH AND CHAIR, AZA CHIMPANZEE SPECIES SURVIVAL PLAN, 
              LINCOLN PARK ZOO, CHICAGO, ILLINOIS

    Mr. Ross. Thank you very much, Madame Chair, for the 
opportunity to testify before you and the Subcommittee 
regarding H.R. 2964, on behalf of the Association of Zoos and 
Aquariums, or AZA.
    AZA represents 216 professionally managed and accredited 
institutions which draw over 156 million visitors annually. AZA 
institutions are the leaders in animal care and welfare, 
conservation science, and conservation education, and currently 
AZA member institutions are involved in 112 different species 
survival plan programs throughout the world, including 159 
species including primates, such as baboons, chimpanzees, 
macaques, mangabeys, orangutans, and tamarins.
    It is in this context that AZA expresses its strong support 
for H.R. 2964. The bill is a logical extension of the Captive 
Wildlife Safety Act, which of course was passed into law in 
2003. Combined, these measures begin to address the public 
safety threats posed by the private ownership of certain wild 
and dangerous animals as pets, as well as the important animal 
welfare issues associated with the personal ownership of these 
animals.
    This bill represents a much-needed step toward stemming the 
tide of the growing exotic animal pet trade, and this 
legislation takes aim at the increase in the number of 
unregulated and untrained individuals who are maintaining 
nonhuman primates as personal pets.
    As we have heard from Dr. Goodall, primates are among the 
most intelligent species on earth. They have large brains, 
complex social systems, and their behavioral needs are so 
specialized that in 1985, an amendment to the Animal Welfare 
Act was passed that specifically called for specialized 
environmental enhancement for nonhuman primates.
    But the ability of private pet owners to meet these 
behavioral and psychological needs is suspect, and too often 
pet primates are subjected to sub-optimal housing, 
inappropriate social environments, and as a result, compromised 
quality of life.
    Now, earlier this year I had the opportunity to visit with 
a couple who had two young chimpanzees as pets. They were 
actually young adults. This couple had purchased the 
chimpanzees at a young age from private dealers out of state, 
and transported back across state lines to live with them at 
their private residence.
    When the chimpanzees were much younger, they were brought 
to birthday parties and other events, as well as photographed 
for commercial purposes. But today they are older, more 
dangerous, and now live in two separate small cages indoors. 
They are unable to go outside. They cannot fully interact with 
each other or others of their species. And despite the couple's 
obvious affection for them, they are unable to receive even 
minimally acceptable housing and care.
    Finding a new home for them is next to impossible; and as 
such, these chimpanzees might live another 30 or 40 years in 
the same cramped conditions.
    In addition to these welfare considerations, private 
ownership of nonhuman primates has significant public health 
consequences, as we have heard. And these threaten the well-
being and safety of not only the pet owners themselves, but of 
their friends and their family, and neighbors and community.
    Many of these pet owners, pet primates are kept without 
proper veterinary care, as neighborhood vet clinics don't have 
the training or expertise to diagnose or treat these rare and 
exotic species. Given that these animals have the ability to 
contract, carry, and transmit many diseases that can infect 
humans, this presents a serious zoonotic threat to communities 
across the country.
    Many of the nonhuman species that would be covered by this 
legislation are powerful, intelligent, and dangerous by almost 
any measure. The great apes in particular, including 
chimpanzees and orangutans, which are used as pets in this 
country, require specialized care and housing far beyond what 
most private citizens can provide, and the consequences of 
their escape into the local community could have devastating 
results.
    As we have heard, the bite of any but the smallest primate 
species would result in serious wounding to humans, and the 
more powerful primates are certainly capable of inflicting 
lethal damage.
    Based on our member institutions' unparalleled experience 
and expertise in dealing with these types of animals, the AZA 
firmly believes that nonhuman primates cannot be properly 
maintained by individuals without the necessary resources or 
knowledge to care for them. Not only is the well-being of these 
highly intelligent and endangered animals being neglected by 
their presence as pets in sub-optimal housing, but it presents 
significant health and safety risks to neighbors, children, and 
domestic pets in the community.
    These powerful and unpredictable animals should only be 
maintained by qualified experts from accredited zoological 
institutions or other professionally operated and regulated 
facilities.
    Madame Chair, this bill represents a timely response to an 
ever-increasing human health and animal welfare concern. The 
ability to restrict the interstate transport of pet primates 
would have a significant impact on the private pet trade, and 
curtails an industry that has long ignored the serious risk 
that is subjected to local communities across the country. It 
brings much-needed attention to an issue that has public 
health, safety, and animal welfare consequences.
    AZA, our conservation management programs, and our 216 
accredited member institutions stand ready to assist you in 
this challenge, and the overarching issues surrounding the 
illegal and unregulated trade in wildlife and wildlife parts.
    Thank you.
    [The prepared statement of Mr. Ross follows:]

    Statement of Steve Ross, Supervisor, Behavioral and Cognitive  
  Research, Lester E Fisher Center for the Study and Conservation of 
 Apes, Lincoln Park Zoo, and Chair, Chimpanzee Species Survival Plan, 
                   Association of Zoos and Aquariums

    Thank you Madam Chair, for the opportunity to testify before you 
and the Subcommittee regarding H.R. 2964, the Captive Primate Safety 
Act. Before I begin, I would like to request that my written testimony 
on behalf of the Association of Zoos and Aquariums (AZA) be included in 
the hearing record.
    My name is Steve Ross. I am the Supervisor of Behavioral and 
Cognitive Research at the Lester E. Fisher Center for the Study and 
Conservation of Apes at Lincoln Park Zoo in Chicago and the Chair of 
the AZA Chimpanzee Species Survival Plan (SSP). I have worked with 
nonhuman primates for 14 years and the primary focus of my research has 
been on improving the care and management of captive primates--
specifically that of chimpanzees.
    AZA represents 216 professionally-managed and accredited 
institutions which draw over 156 million visitors annually. AZA 
institutions are the leaders in animal care and welfare, conservation 
science and conservation education. One of the cornerstones of AZA is 
its Species Survival Plan (SSP) program--a long-term plan involving 
genetically-diverse breeding, habitat preservation, public education, 
field conservation and supportive research to ensure survival for many 
threatened and endangered species. Currently, AZA member institutions 
are involved in 112 different SSP programs throughout the world 
covering 159 species, including primate species such as baboons, 
bonobos, chimpanzees, gibbons, gorillas, macaques, mangabeys, 
marmosets, orangutans and tamarins.
    It is in this context that AZA expresses its strong support for 
H.R. 2964. The bill is a logical extension of the Captive Wildlife 
Safety Act which was passed into law in 2003. Combined, these measures 
begin to address the public safety threats posed by the private 
ownership of certain wild and dangerous animals as pets, as well as the 
important animal welfare issues associated with the personal ownership 
of these animals. This bill represents a much-needed step towards 
stemming the tide of the growing exotic animal pet trade. This 
legislation takes aim at the increase in the number of unregulated and 
untrained individuals who are maintaining non-human primates as 
personal pets.
    Specifically, H.R. 2964 would amend the Lacey Act to prohibit the 
interstate and foreign commerce of dangerous exotic animals defined as 
non-human primates for use as pets. This legislation would not ban the 
private ownership of these species and would specifically exempt zoos, 
circuses, sanctuaries, incorporated humane societies and others that 
are currently regulated by the U.S. Department of Agriculture (USDA) 
under the provisions of the Animal Welfare Act.
    Currently, very few states have enacted outright bans on the 
private ownership of these dangerous exotic animals with only a handful 
of other states enacting partial bans. For instance, in a recent 
thorough review of state legislation I conducted with Sarah Baekler of 
the Chimpanzee Collaboratory in preparation for an article to be 
published in Science this week, we found that only 6 states have full 
and complete bans on the private ownership of chimpanzees--arguably the 
most dangerous of the nonhuman primates that would be affected by H.R. 
2964. To further complicate matters, full enforcement of these bans has 
been difficult and inconsistent given the scope of the problem. The 
result is a patchwork of laws, regulatory loopholes and a thriving 
commercial trade in dangerous exotic animals. There are hundreds of web 
sites and numerous catalogues that market exotic animals, including 
dangerous and powerful non-human primates, as pets. The inconsistent 
enforcement of current regulations and increasing demand has fostered a 
dangerous underground industry in exotic pets.
    Primates are among the most intelligent species on earth. They have 
large brains, complex social systems and their behavioral needs are so 
specialized that in 1985, an amendment to the Animal Welfare Act was 
passed that specifically called for specialized environmental 
enhancement for nonhuman primates. But the ability of private pet 
owners to meet these behavioral and psychological needs is suspect and 
too often pet primates are subjected to suboptimal housing, 
inappropriate social environments and as a result, compromised quality 
of life.
    Earlier this year, I had the opportunity to visit with a couple who 
have two young adult chimpanzees as pets. The couple had purchased the 
chimpanzees at a young age from private dealers out of state and 
transported them back to live with them at their private residence in 
New York State. When the chimpanzees were much younger, they were 
brought to birthday parties and other events, as well as photographed 
for commercial purposes. But today they are older, more dangerous and 
live in two separate, small cages indoors. They are unable to go 
outside. They cannot fully interact with each other or others of their 
species. And despite the couples' obvious affection for them, they are 
unable to receive even minimally acceptable housing and care. Finding a 
new home for them is next to impossible and as such, these chimpanzees 
may live another 30 years in these same cramped conditions.
    In addition to these welfare considerations, private ownership of 
nonhuman primates has significant public health consequences that 
threaten the well-being and safety of not only the pet owners 
themselves but of their friends, family, neighbors and community. Many 
of these pet primates are kept without proper veterinary care as 
neighborhood vet clinics often don't have the training or expertise to 
diagnose or treat rare and exotic species such as nonhuman primates. 
Given that these animals have the ability to contract, carry and 
transmit many diseases that can infect humans (such as herpes B, monkey 
pox and tuberculosis), this presents a serious zoonotic threat to 
communities across the country. One recent study found that 67% of non-
occupational macaque bite incidents from 1993-97 were B-virus positive 
and that children were more than three times as likely to be the 
victims of such bites.
    Finally, it is important to point out the inherent dangers to which 
the pet primate community is subjecting their local communities across 
the country. Many of the nonhuman species that would be covered by this 
legislation are powerful, intelligent and dangerous by almost any 
measure. The great apes in particular, including chimpanzees and 
orangutans, require specialized care and housing far beyond what most 
private citizens can provide and the consequences of their escape into 
the local community could have devastating results. The bite of any but 
the smallest primate species would result in serious wounding to humans 
and more powerful primate species are certainly capable of inflicting 
lethal damage. Just last week, a pet macaque monkey escaped from it's 
owner in Spokane, Washington and bit three people, including a young 
female exchange student. This event was thankfully not serious but 
given that macaques are natural carriers of the potentially fatal 
Herpes B virus, it is clear that the potential consequences of 
inadequate housing by an unregulated and inexperienced population are 
grave.
    Collectively, AZA institutions care for over 800,000 wild animals 
on a daily basis--many of these animals are extremely dangerous. Based 
on our member institutions' unparalleled experience and expertise in 
dealing with these animals, the AZA firmly believes that non-human 
primates cannot be properly maintained by individuals without the 
necessary resources or knowledge to care for them. Non-human primates 
are highly complex and intelligent animals with very specific physical, 
behavioral, husbandry, health and nutritional needs. Very rarely would 
these all of these needs be able to be met by someone who possesses 
these animals for use as a pet. Not only is the well-being of these 
highly intelligent and endangered animals being neglected but their 
presence as pets in suboptimal housing presents a significant health 
and safety risk to neighbors, children, and domestic pets in the 
community. These powerful, unpredictable animals should only be 
maintained by qualified experts from accredited zoological institutions 
or other professionally-operated, regulated facilities. Curatorial 
staffs in these facilities have the requisite knowledge and experience 
to meet the behavioral and physical needs of these animals and 
understand the inherent risks associated with caring for them. In 
addition, these facilities have the resources to provide the necessary 
housing, nutrition, veterinary care and enrichment to accommodate the 
animals' special needs and to maintain them in a safe and humane 
environment.
    There is also emerging consensus on the part of animal welfare, 
public safety and professional organizations and the Federal government 
concerning the need for concerted action to address the issue of 
nonhuman primates that are kept as pets. For example, the American 
Association of Zoological Veterinarians which represents over 1000 
veterinarians caring for zoo animals in the United States points out 
that keeping and trading exotic and captive wild animals can cause 
serious problems including: (1) zoonotic disease transmission; (2) 
human injury and death; (3) compromised animal welfare due to 
inadequate knowledge and experience to meet the complex social, 
emotional, behavioral and physical needs of these animals; (4) medical 
problems due to inadequate veterinary care, poor nutrition, poor 
husbandry or due to various surgical procedures, such as dental 
extractions, performed for the sole purpose of trying to turn a wild 
animal into a pet; (5) abandonment, suffering or death due to 
insufficient financial resources to provide a safe and humane 
environment; (6) potential for escape due to improper transport, 
insecure containment or lack of proper equipment; and (7) damage to 
wild populations of rare species due to over-collection, introduction 
of non-native species or exotic diseases.
    Madam Chair, this bill represents a timely response to an ever-
increasing human health and animal welfare concern. The ability to 
restrict the interstate transport of pet primates would have a 
significant impact on the private pet trade and curtails an industry 
that has ignored the serious risks that it has subjected to local 
communities across the country. It brings much-needed attention to an 
issue with public health, safety and animal welfare consequences. AZA, 
our conservation management programs, and our 216 accredited member 
institutions stand ready to assist you in this challenge and the 
overarching issues surrounding the illegal and unregulated trade in 
wildlife and wildlife parts.
    Thank you again, Madam Chair, for this opportunity to comment on 
this important public safety and animal welfare issue. I would be happy 
to answer any questions that you may have.
                                 ______
                                 

     Response to questions submitted for the record by Steve Ross, 
                   Association of Zoos and Aquariums

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  Mr. Ross, thank you for your testimony and your commitment to 
        improving the care and management of captive primates. You 
        mentioned in your testimony the specific needs of nonhuman 
        primates.
<bullet>  Why is it difficult to meet these needs in the home 
        environment?
    Zoos and other regulated facilities have the staff, resources and 
expertise to care and house animals, such as primates, that require 
complex physical and social environments. Most private citizens lack 
the space, physical elements, financial means or expertise to build an 
appropriate physical environment for primates which would consist of 
species-appropriate furnishings, enrichment and substrates. Likewise, 
almost all primates are very social, and as such they require species-
typical groupings to optimize their welfare condition. Although most 
primate pet owners may feel they provide adequate care and attention, 
there is no substitute for the companionship of a conspecific (a member 
of the same species) with shared behavioral and communication 
tendencies.
<bullet>  Do most nonhuman primate pets become more aggressive with age 
        and improper care?
    My expertise is focused on chimpanzees and as such my answer will 
focus on that species as a case study for other primates. When 
chimpanzees reach adolescence, there is an increase in specific 
hormonal levels and an associated change in behavior. Male chimpanzees 
begin testing their social hierarchy (``pecking order''), become more 
active and interested in the opposite sex, and as a result, tend to be 
involved in physical altercations. Given that chimpanzees are a highly 
social species with marked multimale hierarchy, it is common to see 
rates of aggression increase as they move out of infanthood.
    I am not aware of any data to definitively correlate improper care 
and rates of aggression. However, my personal experience is that 
chimpanzees that are housed in substandard conditions, may be prone to 
many behavioral indicators of anxiety and frustration including 
increased aggressive behavior.
<bullet>  Why are a substantial portion of injuries inflicted by 
        nonhuman primates toward children?
    I do not have any data to substantiate the cause of that particular 
finding. My personal opinion is that children present are at greater 
risk because they are more curious, less aware of the risks and perhaps 
less physically able to avoid those risks (in this cases, those risks 
are in the form of a highly intelligent, fast-moving and unpredictable 
wild animal).
<bullet>  What sort of training is given to qualified experts from 
        accredited zoological institutions to care for nonhuman 
        primates?
    Today, the vast majority of staff at accredited zoological 
institutions--from the animal caretakers to curators to research 
staff--have at least a bachelor's degree in an associated field of 
study (zoology, biology, etc.). Furthermore, most zoos have detailed 
internal training programs on husbandry and behavior and require years 
of experience before hiring caretakers. Finally, many AZA programs, 
such as the Chimpanzee Species Survival Plan (the group that manages 
the population of chimpanzees in accredited North American zoos), offer 
biennial husbandry workshops to ensure keepers have access to the 
latest care and husbandry information.
2.  You mentioned that proper veterinary care for nonhuman primates may 
        be difficult to receive from a neighborhood clinic.
<bullet>  How specialized does a veterinarian need to be to care for a 
        nonhuman primate?
    The vast majority of veterinarians do not deal with nonhuman 
primates and as such, do not have the experience with those species. 
Beyond this, it is best for me to defer to a veterinary expert.
<bullet>  Is the average veterinarian equipped to detect diseases that 
        can infect humans?
    This is outside my expertise.
3.  Can you explain the reasons behind dental extractions in nonhuman 
        primates and speak to the effectiveness of such practice?
    Dental extractions are not a contemporary management technique in 
accredited zoos. I know of no data that substantiates it as an 
effective form of aggression control. Furthermore, extraction of teeth 
may render a primate defenseless if/when it must be moved in with 
conspecifics, as often is the case with pet primates.
4.  What are the differences in the way a primate would live at an AZA 
        accredited zoo and in a private home as a pet? How do these 
        differences affect the welfare of the animal?
    Again, I will focus on chimpanzees given my expertise with that 
species in particular. Although there is variation between zoos, the 
fact that all AZA zoos undergo the same rigorous and standardized 
accreditation process allows us to maintain high standards of care and 
housing.
    <bullet>  Currently there are no solitary chimpanzees in AZA zoos 
as the SSP feels social housing is of the utmost importance. The median 
group size (as of January 2008) is 6. This is in contrast to the 
typical social condition of pet chimpanzees: usually one, or at best 
two, individuals.
    <bullet>  AZA zoos have on-staff veterinarians and often highly 
trained nutritionists and behaviorists as their disposal to aid in the 
care of their chimpanzees. Pet chimpanzees must receive their 
specialized health care at local veterinary offices (sometimes many 
miles away), often from vets without the specialized training or 
facilities to treat those species.
    <bullet>  The investment to house and care for chimpanzees at AZA 
zoos is considerably higher than the average primate pet owner. Large, 
multi-million dollar, indoor-outdoor exhibits are the norm now--
providing an enriching physical environment. Private pet owners may 
have good intentions but their ability to provide equally stimulating 
physical environments is questionable.
    <bullet>  It is important to also consider the cooperative 
management paradigm utilized by the community of AZA accredited zoos. 
Through the coordination of Species Survival Plans (SSPs), animals 
which may be better suited at a different facility or social group, can 
be transferred to a more suitable location. Transfers are made with the 
best interests of the population and individual animal welfare in mind. 
This network of accredited institution also provided an invaluable 
resource in terms of expertise and experience when difficult veterinary 
or husbandry issues arise. In the case of private ownership, such 
options are simply not available and as a result, pet primates are 
often abandoned or left to languish in inappropriate conditions because 
of a lack of alternatives.
5.  Do zoo personnel handle primates? What precautions do they take to 
        prevent the spread of disease? Could you please differentiate 
        this practice from the way primates are treated as pets?
    The forms of contact and handling differ greatly between primate 
species. However, AZA zoos have strict protocols in place to minimize 
the risk of disease transmission. Further details and examples of such 
protocols should be sought from the veterinary community within AZA.
6.  I understand monkeys and chimpanzees have on occasion escaped from 
        zoos. What do zoos do to prevent escapes, and how would this 
        compare to a primate kept as a pet?
    Primates are wild animals and are highly unpredictable. As such, 
there have been incidents in which they have escaped from zoo 
facilities. Although these incidents are relatively rare and highly 
publicized, it does underscore the fact that these animals are 
intelligent enough to find ways out of even the most secure locations. 
Given that pet primates are housed usually in home-made enclosures 
built by personnel without the proper expertise or experience, the risk 
of escape from a private residence is considerably higher. Furthermore, 
most zoos have thorough policies in place in the event of an escape, to 
best ensure a safe recovery. An escape from a private residence into a 
local community is a far greater danger.<bullet>  7.  Are small monkeys 
safe? Or can they also cause injuries and spread disease?
    My expertise is in the behavior of chimpanzees and as such I will 
defer these questions relating to monkeys and small primates to my 
colleagues in AZA. That said, there is clear information in the 
scientific literature of the potential for monkeys (such as macaques) 
to carry diseases (such as Herpes B simplex) which can be fatal in 
humans. A recent paper stated that ``Seroprevalence of neutralizing 
antibodies to B-virus in captive adult macaque populations is 73%-
100%'' (Emerging Infectious Diseases, 4:117-121).
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Ross. We appreciate 
your views on these pieces of legislation.
    And the Chair would now like to recognize the gentleman 
from Alaska--he has another appointment--Mr. Young for any 
questions that he may have.
    Mr. Young. Thank you, Madame Chairman. Mr. Pacelle, I wrote 
you and four other animal groups a letter in November of 2006 
regarding the Santa Rosa Island. In that letter I urged you to 
join conservation groups, such as the Congressional Sports 
Foundation Safari Club, et cetera, in imposing legislation that 
would compel the slaughter of elk and deer that have made Santa 
Rosa Island their home for the past 70 years.
    I not only have not received a response to my letter, but 
do not believe that the Humane Society of the United States has 
ever opposed such legislation, or supports a responsible number 
of elk or deer remain in the Santa Rosa Island.
    The question is, do you support this senseless slaughter? 
Or should elk and deer on Santa Rosa Island have visitors to 
enjoy beyond 2011? And why doesn't the Humane Society get on 
the record in opposition to this slaughter?
    Mr. Pacelle. Thank you, Congressman Young. And I am sorry 
that you didn't receive a reply from us.
    I would say that that issue posed a dilemma for us. We 
recognize that some of the environmental organizations wanted 
to eliminate this species from this island ecosystem because of 
the vegetative impacts.
    We often disagree with some of the environmental groups on 
how they treat the non-native species. We do insist that they 
be treated humanely.
    We were not all that happy with the hunting set-up, though, 
because we saw it as not a particularly fair chase 
circumstance. So it presented a dilemma for us in that respect. 
And we really didn't weigh in on it one way or the other, to be 
quite honest with you.
    Mr. Young. The reason I ask that question is, to me, if the 
Humane Society is against the demise of any animal, you know, 
can you recognize these quotes? If we can shut down all sport 
hunting in a moment, we would?
    Mr. Pacelle. Let me just, let me first address the issue 
that the Humane Society, you know, is--I can't remember the 
phrasing you said about any animal. But really, we are an anti-
cruelty organization. I mean, we reluctantly support the humane 
euthanasia in shelters if there are not enough homes for them. 
So really what we want to do is eliminate gratuitous cruelty 
and suffering.
    In terms of the quote that you mentioned, that has been 
kicking around, Congressman Young, since the early 1990s. I 
have repeatedly emphasized that the Humane Society of the 
United States works to stop what we regard as particularly 
egregious hunting practices.
    Now, I know that you agree with some of these practices, 
like bear baiting and aerial gunning of wolves. You and I 
disagree on those practices. But that is where we focus the 
preponderance of our energy, and not going after regular 
hunting practices.
    Mr. Young. Well, it says our goal is against sport hunting 
in the same category as cock-fighting and dog-fighting.
    Mr. Pacelle. Those are not quotes from me.
    Mr. Young. Well, I beg to differ. We have this document.
    Mr. Pacelle. Yes, I would like to see it, because they have 
been----
    Mr. Young. The second one is we have no----
    Mr. Pacelle.--kicking around the internet for 17 years.
    Mr. Young.--problems--this is a quote. ``We have no 
problems with the extension of domestic animals; they are 
creations of human selective breeding.''
    Mr. Pacelle. Yes, well, that is completely taken out of 
context, Congressman Young. I am glad to have the opportunity 
to correct it.
    Mr. Young. You are beginning to sound like a politician.
    Mr. Pacelle. Well, we have been following you for many 
years.
    [Laughter.]
    Mr. Young. I know you have. I appreciate it. And I welcome 
your following me, because every time you do, the numbers go 
up.
    Mr. Pacelle. Well, good for you. Glad we could help.
    Mr. Young. I appreciate it. I need all the help I can get.
    Mr. Pacelle. Yes, I know you do.
    Mr. Young. Welcome.
    Mr. Pacelle. I want to just comment on the selective 
breeding comment.
    I was asked to address an agricultural forum--this was a 
livestock forum--and I was asked if we need an endangered 
species for rare breeds of livestock. And I said that we 
didn't.
    And I am sure, Congressman Young, that you would agree that 
we don't need another Federal law to preserve every breed of 
domesticated species.
    Now, my own views on minor breeds have evolved over time. 
But it was in the context of rare breeds of livestock, and had 
nothing to do with domesticated animals in general. So I am 
very glad to have the opportunity to clarify that statement.
    Mr. Young. OK. Last question. Now, you do support the 
slaughter of the animals on Santa Rosa Island.
    Mr. Pacelle. No, we don't support the slaughter.
    Mr. Young. You don't support it. But you won't get involved 
to try to stop it.
    Mr. Pacelle. We thought that that legislation had a pretty 
clear political trajectory, and was passing.
    Mr. Young. So you do support it.
    Mr. Pacelle. No. We didn't take a position.
    Mr. Young. But you won't get involved in trying to stop the 
slaughter of those animals.
    Mr. Pacelle. That is correct. We did not take a position on 
that because we found----
    Mr. Young. So much for the Humane Society.
    Mr. Pacelle.--both options were unpalatable to us.
    Ms. Bordallo. Thank you very much, Mr. Young. And now I do 
have a couple of questions for the panel.
    The first one is for Mr. Pacelle. Mr. Hogan's comment that 
closing legal markets increases prices in the underground 
market. Could passage of this bill bring about that unintended 
consequence?
    Mr. Pacelle. To me, Madame Chairwoman?
    Ms. Bordallo. Mr. Pacelle.
    Mr. Pacelle. Yes, yes. Well, listen, we already have a 
situation where nearly two thirds of the states criminalize the 
trade in bear parts. What we are doing now is just having a 
consistent standard that addresses the problems in this country 
and internationally.
    Yes, when you criminalize something, you potentially can 
boost prices. But we think the far greater threat is the 
legalized trade in these species. We need to crack down on 
this. There are very large communities in the United States 
that have an interest in these products, and globally there are 
enormous markets.
    And until we curb the trade, many bear species are going to 
be threatened. And we simply don't want to encourage the 
inhumane killing of even a relatively abundant species like the 
American Black Bear. Why kill the animal for his or her gall 
bladder and bile? That is just an inhumane and barbaric act.
    Ms. Bordallo. I have another--thank you. I have another 
question for Mr. Perez.
    You testified that state laws and regulations currently 
prohibit the sale of black bear viscera, is that correct? 
Viscera, viscera.
    Oh, I am sorry. This is for Mr. Pacelle again, yes.
    Throughout nearly the entire range of the species, making 
the Lacey Act in its current form an effective tool for dealing 
with illegal trade in bear parts.
    Now, is this legislation duplicative of existing legal 
authority?
    Mr. Pacelle. The Lacey Act is a very valuable Federal tool 
to crack down on poaching and the illegal wildlife trade.
    Again, you know, it has nothing to do with hunting. Not 
even Congressman Young has a bear gall bladder pinned to his 
wall.
    The issue here is that we are harmonizing the state efforts 
with the national effort, because this country simply does not 
have an interest in protecting the industry of trading in bear 
gall bladders and bile. It is not a legitimate industry; it is 
even less legitimate than activities like dog fighting and cock 
fighting. There was actually money that was made in an industry 
sense. This is random killing of animals, with a few people 
profiting very handsomely from it.
    Ms. Bordallo. All right. So in answer to my question, it is 
not duplicating anything? Is that what you are saying?
    Mr. Pacelle. We believe, Congresswoman----
    Ms. Bordallo. It is.
    Mr. Pacelle.--that it is complementary.
    Ms. Bordallo. It is complementary.
    Mr. Pacelle. That the states are doing their job, the 
national government, the Federal government needs to do its 
job. Because we live in a global economy. The states don't have 
the range or the reach to address the global trade in bear 
parts.
    The United States is a party to CITES, the Convention on 
International Trade in Endangered Species. We have agents that 
can work with import-export issues, and can make multi-state 
cases.
    The State of Alaska wants to crack down on the trade in 
bear parts, as it does, that is great. But if it is a multi-
state effort that involves Alaska, California, and Nevada, that 
is where the Federal government can play a complementary role 
and help the states.
    Ms. Bordallo. Thank you very much. The Chair now recognizes 
Mr. Wittman from the State of Virginia.
    Mr. Wittman. Thank you, Madame Chairwoman. Mr. Perez, there 
have been allegations made that certain primates listed in our 
Endangered Species Act are being kept as pets. If this is true, 
doesn't the Fish and Wildlife Service already have the 
statutory authority to prosecute those individuals who attempt 
to sell these species across state lines?
    Mr. Perez. That typically would be true on its face. The 
reality is that there are various mechanisms by which we have 
the burden of proving that that particular item that resides in 
that home is indeed something that was acquired unlawfully. So 
we would have to backtrack to get to that point.
    There are a variety of circumstances, I would say 
predominantly, by which a possession of a primate in and of 
itself is not a violation.
    Mr. Wittman. OK, very good. Would you agree with the 
statement of Mr. Schoenke that the recognition of the legal 
bear-parts trade by the states is actually facilitating illegal 
markets?
    Mr. Perez. I believe the existence or non-existence of a 
legal mechanism for any species that we protect still, in and 
of itself, has that segment of society that wants to circumvent 
whatever those mechanisms are, either to make it easier, or 
necessarily just people who don't want to comply, or acquire 
items in contravention of that.
    So while it may have some contribution, I don't necessarily 
agree that it is going to create a market that doesn't already 
exist.
    Mr. Pacelle. May I respond to that, Congressman?
    Mr. Wittman. Sure.
    Mr. Pacelle. Thank you. I do think that the presence of a 
legal trade simply makes it more difficult for law enforcement 
to distinguish between the legal traffic and illegal traffic.
    So in that sense, I think that is a particularly compelling 
argument for the legislation. If you have this going on in some 
states, and people are then moving product to that state, it 
truly does undermine the effectiveness of laws in Virginia and 
West Virginia, and other states that are trying to crack down.
    You could have a situation where one state became a legal 
hub for the trade, and that would undermine the effectiveness 
of the prohibitions that many states have. And that is again 
why I think that this is a classic case of the complementarity 
between state and Federal policies.
    Again, on an issue where we are attempting to say what is 
the social value of a bear-parts trade. We do have hunting in 
this society, we do have legal bear-hunting seasons and 
trophies and hides. But we don't commercialize that trade. 
Those are for personal use. And the history of modern wildlife 
management is grounded on the idea of non-commercialization. 
Use the animals for your personal use; you are not to trade in 
their products, in their parts.
    This is an anti-poaching bill at its basic level, and a 
conservation measure.
    Mr. Wittman. Thank you, Madame Chairwoman. I would ask, I 
have a letter here from a number of associations. I would ask 
unanimous consent that it be entered into the record.
    Ms. Bordallo. So ordered.
    [The letter submitted for the record by the Archery Trade 
Association, Association of Fish and Wildlife Agencies, Bear 
Trust International, et al., follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Again, Mr. Ross, thank you for your testimony. Can you 
elaborate on the physical and social environments that are 
required by these animals? And why is it difficult to meet 
these needs in the home environment?
    Mr. Ross. Well, as Dr. Goodall alluded to, when we are 
thinking about the behavioral and physical needs of these 
animals, it does range quite a bit between tamarins and some of 
the smaller monkeys, all the way up to the great apes, 
orangutans, and chimpanzees.
    That said, all of these animals are highly intelligent, and 
most of them are very social, requiring on both hands a very 
secure environment, and a very complex environment. Most of 
these needs take years of training to try to design. I can 
think specifically of our new facility at Lincoln Park Zoo, 
which took, you know, three or four years to design the 
biosecurity to keep these animals inside safely, both from an 
animal standpoint and from a visitor standpoint. And these 
resources and expertise are just, just not there in the private 
pet ownership community, where they are able to securely keep 
these animals in, both from a safety standpoint, but also for 
the animal welfare requirements.
    Ms. Bordallo. I think the main part of my question was, 
what is the difference between the zoo environment and the home 
environment? Would one be better than the other?
    Mr. Ross. Yes, I would say very much so. Zoos are able to 
keep primates in more species-typical groupings. For instance, 
chimpanzees, we have 12 chimpanzees in our facility that can 
live together; as opposed to a pet circumstance, where those 
chimpanzees are living simply with other humans, and not with 
others of their kind.
    Having a chimpanzee, for example, live alone and only with 
humans presents an unfamiliar social and psychological 
environment, which is not conducive to its own welfare.
    Mr. Pacelle. May I just say a quick word about that?
    Ms. Bordallo. Certainly.
    Mr. Pacelle. Yes. You know, as Mr. Ross indicated, there 
are 216 accredited zoos in the United States. We heard 
testimony today that there are perhaps 15,000 primates in 
private hands.
    The zoos have standards in terms of professional care. They 
have resources. They have enclosures that protect the primates 
from people, so there is an exclusion that goes on.
    Primates in the home can interact not only with members of 
the family, but they can interact with visitors who come to the 
home. Because they don't have the attention to resources and 
security that the zoos do, the animals may escape and get into 
the community. So the points of contact with the public are 
potentially much more vast because there are many more 
different points where they live versus the 200 or so zoos.
    And again, the zoos have standards, the AZA has standards 
about not having any interaction between the primates and the 
visitors, in terms of physical contact. Whereas in the home 
setting, there are no standards at all, and people just rely on 
their own judgment, which we have heard many times is often 
very bad.
    Ms. Bordallo. Thank you. I would agree. I think there 
certainly is security and protection in a zoo, whereas in a 
home environment, if the animal decides to become aggressive, 
it is much more dangerous. So I can see that.
    I would like to thank all of the witnesses for their 
participation in the hearing today. Members of the Subcommittee 
may have some additional questions for the witnesses, and we 
will ask you to respond to these in writing. The hearing record 
for all the witnesses, both panel I and panel II, will be held 
open for 10 days for these responses.
    If there is no further business before the Subcommittee, 
the Chairwoman again thanks the members of the Subcommittee and 
our witnesses. And the Subcommittee stands adjourned.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record Dr. David L. 
Garshelis, Co-Chair IUCN/SSC Bear Specialist Group, Bear 
Project Leader, Minnesota Department of Natural Resources, 
Adjunct Professor, University of Minnesota, follows:]

Statement submitted for the record by Dr. David L. Garshelis, Co-Chair 
    IUCN/SSC Bear Specialist Group, Bear Project Leader, Minnesota 
   Department of Natural Resources, Adjunct Professor, University of 
                               Minnesota

EXECUTIVE SUMMARY
    This testimony represents the views of the two largest groups of 
professional bear biologists and conservationists in the United States 
and globally (IUCN Bear Specialist Group and International Association 
for Bear Research and Management). We applaud the desire of the U.S. 
Congress to aid in the conservation of bears. Here, we raise four 
principal points regarding the proposed Bear Protection Act: (1) 
American black bears in the U.S. (and Canada) are thriving, and are 
minimally affected by poaching for bear parts. The Bear Protection Act 
will have little impact on populations of this species, although it may 
help to apprehend some poachers. (2) Poaching for bear parts (gall 
bladders and paws) is still rampant in Asia, even though the killing of 
bears and selling of bear parts is illegal in most Asian countries, and 
import and export of bear parts within Asia and between Asia and the 
U.S. is regulated by CITES. The Bear Protection Act, as written will 
provide no benefit to bear populations in Asia. (3) We recommend two 
additions to the bill: the inclusion of bear paws among the items 
banned from trade, and an exemption for scientists to transport bear 
parts across state lines for research purposes. Because there is great 
interest in the physiology of bear hibernation and potential 
applications to human medicine, some organs of bears are of particular 
interest, and are often shipped to experts in different parts of the 
country. (4) As this bill suggests a genuine concern by the U.S. 
Congress about the detrimental effects of the trade in bear parts on 
bear populations worldwide, we recommend more effective legislation 
that would directly address the dire situation for bears in Asia. 
Reduction of poaching is the paramount issue, and a multi-faceted 
effort to accomplish this will require significantly increased funding. 
Funding is also necessary to evaluate and address the issue of Chinese 
and Vietnamese bear farms (where 13,000 bears are milked for their 
bile), and to provide scientific data on the extent, relative size, and 
changes in populations of wild bears, which can be used to highlight 
conservation problems and direct resources. A Bear Conservation Act 
that included a funding provision like that of other multinational 
species conservation acts would dramatically improve the outlook for 
Asian bears. Meanwhile, we support the intent of the Bear Protection 
Act to crack down on commercial bear poachers, hoping that this is the 
first step in improved efforts at conserving bears.
INTRODUCTION
    Madam Chair and Members of the Subcommittee: My name is David 
Garshelis, and I am delighted to have been invited to comment on the 
proposed Bear Protection Act from the perspective of a bear scientist 
and applied conservationist. For the past 25 years I have been a 
professional bear researcher for the Minnesota Department of Natural 
Resources. For nearly 20 years I have also conducted research projects 
on Asian bears, in collaboration with Asian students and biologists. 
The views expressed here are not only my own, but represent those of 
both the IUCN/SSC Bear Specialist Group (BSG) and the International 
Association for Bear Research and Management (IBA). I co-chair the BSG 
with Dr. Bruce McLellan, and am an ex-officio member of the governing 
Council of the IBA.
    The BSG and IBA are the largest and most respected professional 
organizations for wildlife biologists working to manage, conserve, and 
restore the world's bears. These two organizations work closely 
together in gathering and utilizing scientific information to sponsor, 
conduct, and evaluate conservation and management programs on all eight 
species of bears. These organizations are comprised of nearly 600 bear 
specialists from over 50 countries, and include university professors, 
biologists working in natural resource agencies, non-governmental 
organizations, and zoos, graduate students, and educators. Our members 
conduct scientific research, monitor and manage bear populations, 
interact with government agencies to promote bear conservation, and 
work to prevent human-bear conflicts. IBA sponsors international 
conferences and publishes the peer-reviewed scientific journal Ursus, 
which is the foremost source of technical and scientific information 
about the world's bears.
    Both groups have had input into and approved the following 
testimony regarding the proposed Bear Protection Act.
STATUS OF WILD BLACK BEARS IN THE U.S.
    American black bears (Ursus americanus) range through Canada, the 
United States, and northern Mexico. As recently as the 1970s, most U.S. 
states had declining populations, and were struggling to reverse a long 
downward trend. That decline resulted mainly from extensive forest 
clearing combined with the unrestricted killing of bears as nuisances 
or pests. This trend has since been reversed through habitat management 
(mainly targeted at other species, but benefiting bears), stricter 
regulations regarding the killing of nuisance bears, public education 
on avoiding nuisance bear situations, and tighter regulation of hunter 
harvests.
    Compared with most other North American big game species, American 
black bears have a low reproductive rate, so population recovery tends 
to be slow. Recovery may also be hampered by habitat fragmentation in 
some places (e.g., Louisiana and Florida). Nevertheless, the return of 
robust populations of American black bears has been a significant 
success story across the continent.
    Today at least 17 of 41 states with resident black bears have 
populations that are significantly increasing; none have declining 
populations. Additionally, black bear migrants have appeared in such 
states as South Dakota, Nebraska, and Rhode Island (where they have not 
existed for 200 years).
    The total U.S. population of black bears, excluding Alaska, is 
estimated at about 300,000, and the total Canadian population likely 
exceeds 450,000. State management agencies or universities have 
conducted scientific studies to estimate population size and rates of 
change of many U.S. bear populations. At least 18 states estimate 
populations of 5,000 or more black bears, 8 of which have more than 
20,000. No reliable estimates exist for Alaska, but the population of 
black bears there is believed to exceed 100,000, yielding a total for 
the continent of 900,000. The continental population has been growing 
at about 2% per year for the past two decades.
    Black bears are presently harvested as a game species in 28 U.S. 
states and 12 Canadian provinces or territories. The annual hunter 
harvest across the continent is 40,000-50,000 black bears. Hunters kill 
bears for recreation and for products, such as the hide and meat. Some 
surveys have indicated that hunters view the acquisition of meat as a 
prime reason for black bear hunting. The sale of meat is banned, but 
many U.S. states all Canadian provinces with black bears allow the sale 
of hides and skulls. It is believed, however, that few people hunt 
specifically to sell these parts, as the profit is likely to be small.
    Bear gall bladders and paws, however, can be sold at a sizeable 
profit. The former is prized in Traditional Chinese Medicine (TCM), and 
the latter as an expensive delicacy in Asia. The high price of these 
commodities creates a motive to poach black bears. However, while each 
year some bear poachers involved in the trade of these parts are 
apprehended, wildlife agencies across the U.S. and Canada indicate that 
such poaching has a negligible impact on American black bear 
populations. The legal harvest of black bears is by far the largest 
source of mortality for this species. This and all other major sources 
of human-caused mortality (e.g., nuisance kills, collisions with 
vehicles, poaching) are now controlled to the extent that in most 
areas, black bear populations are thriving.
STATUS OF WILD BEARS IN ASIA
    Of the eight species of bears in the world, six live in Asia, and 
four live only in Asia. We center our comments on Asian bears because 
they have been most severely impacted by the trade in bear parts. Four 
Asian jurisdictions are the principal users of bear gall bladders and 
paws (China, Taiwan, Japan, and South Korea), thus prompting illegal 
importation of these parts from other Asian countries, and sale of 
parts from bears taken within these countries.
    Gall bladders and paws from Asiatic black bears (U. thibetanus), 
Brown bears (U. arctos), Sun bears (Helarctos malayanus), and Sloth 
bears (Melursus ursinus) are all marketed, but the greatest demand by 
far is for Asiatic black bears. Accordingly, even in places where 
Asiatic black bears and Sun bears occur together, poachers target the 
former. Sun bears and Sloth bear populations are suffering from habitat 
loss and direct killing for reasons other than the trade in bear parts 
(e.g., to protect crops or for human safety), whereas the trade in bear 
parts is a prime concern principally for Asiatic black bears.
    Asiatic black bears are very similar to American black bears 
ecologically and biologically. They occupy 18 countries in Asia, 
ranging from Iran in the west, across northern India, most of Southeast 
Asia, north through a large portion of China, the Korean Peninsula, 
parts of the Russian Far East, Japan, and Taiwan (see map, Appendix 1).
    No reliable estimates exist for populations of Asiatic black bears 
anywhere within their range because scientific data are lacking. 
However, four countries claim to have more than 5,000 Asiatic black 
bears (India, China, Russia, and Japan), one of which (China) estimates 
more than 20,000 (China may have half the world's population of this 
species). While these may seem to be a large numbers, it is important 
to realize that most Asiatic black bear populations are highly 
fragmented by human activities into much smaller isolates, making them 
even more vulnerable to uncontrolled killing and potential extirpation. 
Only two countries are believed to have increasing populations of this 
species: Japan, where they are hunted much like the U.S., and South 
Korea, where they are increasing only because the small population 
there is being augmented with bears from Russia. Rangewide, we estimate 
that numbers of Asiatic black bears have declined by 30-50% during the 
past 30 years.
    A major factor contributing to the decline of Asiatic black bears 
is thought to be poaching for gall bladders and paws. This information 
derives from anecdotal reports, surveys of local people, and occasional 
confiscations of large numbers of bear parts (sometimes in the 
hundreds). In truth, there is no scientific documentation of the status 
of this species. Population studies, which are common for bears 
throughout the U.S. and Canada, and generally funded by state and 
provincial agencies, are beyond the technical and/or financial means of 
most Asian countries, and very few American biologists have been able 
to work on Asian bears due to severe shortages of funding for such 
cooperative efforts.
    Asiatic black bears are killed either directly by commercial bear 
poachers, indirectly by hunters seeking other species, such as deer or 
wild boar, or by people protecting their crops or property. In some 
countries bears are killed with guns, but in many countries guns are 
illegal so people use wire snares, rat poison, pit-fall traps, or 
homemade bombs (which the bears bite). Once the bear is killed, whether 
intentionally or incidentally, the parts are sold, even though this is 
officially illegal in nearly all of Asia.
WHAT THE BILL WILL ACCOMPLISH
    Presently, a variety of laws govern the sale of gall bladders and 
paws of American black bears. Five U.S. states allow hunters taking a 
bear in that state to sell the gall bladder, and four of these states 
plus three others allow the hunter to sell the paws. Another six states 
(three with healthy bear populations of their own) allow residents to 
purchase gall bladders and paws from bears taken in other states (but 
not that state), as long as there is documentation that the kill was by 
a legal hunter. Four other states, all without bears, have no laws 
concerning the sale of bear gall bladders or paws, effectively allowing 
such sales.
    Given that legal sales require legal take, and that hunters 
generally are allowed to take only one bear per year, it seems 
inconceivable that hunters could have much of a legal business selling 
bear parts. Moreover, since there are only five states that allow the 
sale of these parts from their own hunted bears, it is only the bear 
populations in these states that are potentially affected by any legal 
commercial trade in these parts; all these states, however, have 
robust, stable or increasing populations. Hence, the bill is likely to 
have little or no direct affect on American black bear populations.
    It is possible, though, that the illegal trade in American black 
bear parts is facilitated to an extent by the varied laws that allow 
some legal trade across state borders. In that sense, the bill may 
assist law enforcement agencies in catching and prosecuting bear 
poachers.
    The export of American black bear parts to Asia has been regulated 
by CITES since 1992, when the species was listed in Appendix II due to 
similarity of appearance of their gall bladders and paws to those of 
Appendix I Asian bear species. This listing requires a CITES 
certificate of origin for any parts to be legally transported across 
international borders; CITES certificates of origin are provided only 
with proof that the bear was legally taken.
    There are very few cases of American black bear parts being legally 
exported to Asia. Moreover, since all legal exports are from hunter-
harvested bears, this trade has little impact on the already well-
managed populations of this species. The reason for the CITES Appendix 
II listing was to require identification tags on these parts, so they 
could be distinguished from those of Asiatic black bears. This gives 
law enforcement personnel in Asia greater power to make arrests, as 
untagged gall bladders of Asiatic black bears could not be passed off 
as being from legally-obtained American black bears.
    This bill would prohibit all export of gallbladders from American 
black bears. Given the low legal export and CITES regulations already 
in place, it appears to us that the bill would provide minimal added 
conservation benefit to Asian bears.
WHAT THE BILL WILL NOT ACCOMPLISH
    The stated purpose of the bill is to ``conserve global bear 
populations.'' The bill also mentions thousands of bears in China that 
are kept on farms and milked for their bile. Whereas we agree that the 
protection of wild Asian bears and elimination of bear farming are 
noble goals, we believe that the bill will have little or no effect on 
either. The bill is referred to as the ``Bear Protection Act'', but 
will do little to help bears in the places where they genuinely need 
more protection.
    There is potentially some merit, though, in leading by example, 
even if the protective measures offered by the bill are not needed in 
the United States. Thus, although the bill does not directly address 
the plight of Asian bears, it provides evidence that the United States 
recognizes that the gall bladder trade is a principal factor impacting 
Asian bears. Furthermore, passage of the bill would indicate that the 
magnitude of this issue has persuaded the federal government of the 
United States to override state laws in order to obtain a unified 
position on the trade in gallbladders. That may send an important 
message to Asia about the U.S. commitment to deter the trade in bear 
parts.
    The problem is that the message, for all its good intentions, may 
signify little to the countries where the trade in bear parts is 
particularly problematic. Governments in Asia are already cognizant 
that bear poaching is largely related to the trade in bear parts, but 
most either deny that this poaching is having a large effect, or 
recognize the problem but cannot do anything about it. Most already 
have strict laws prohibiting the trade in bear parts, but are unable to 
enforce them (see Appendix II).
    The context of the U.S. and Asian situations is so different as to 
be virtually incomparable, so leading and following really make little 
sense. American black bears are so numerous that the annual harvestable 
take through legal hunting approaches the total world population of 
Asiatic black bears. Gall bladders have no value to most American 
citizens, so hunters discard them in the woods. American black bear 
hunters tend to be middle class people who hunt for recreation and for 
trophies. A law prohibiting trade in gall bladders would affect only a 
small minority of Traditional Chinese Medicine practitioners living in 
the U.S. In China, by contrast, there is a large demand for this 
product by upper income people, while many desperately poor people live 
in rural areas occupied by bears. To those poor people, killing a bear 
and selling its parts, particularly a bear that has been damaging their 
few crops, can make a difference in how much food or medicine they can 
buy or whether their family can afford small luxury items, like a 
television. Although both the sale of parts and the killing of bears is 
forbidden (with a few exceptions), very little enforcement of these 
laws occurs because there are too few enforcement personnel, and a 
general lack of recognition that bears are declining. The U.S. model, 
where tens of thousands of bears are harvested for sport, and a 
medicinal commodity routinely discarded, simply does not apply to the 
situation in Asia.
ISSUES MISSING FROM THE BILL
    The one potential benefit of this bill is that it might deter some 
commercially-motivated bear poaching. If that is the chief aim, then 
bear paws should also be included in the ban. Paws are not used in TCM, 
but are sought after as a delicacy, and command a high price. Recent, 
large confiscations of shipments of bear paws on their way to China 
(from Russia and various countries in Southeast Asia) are evidence of 
the demand for this product, and potentially devastating effects on 
wild populations of Asian bears.
    Just as with gall bladders, the trade in paws has little adverse 
effect on populations of American black bears. However, just as with 
gall bladders, there is a patchwork of state laws regarding the sale of 
bear paws (because most of these laws are archaic and did not recognize 
that this is an edible product). It is possible that some poachers kill 
bears principally to sell their paws. Therefore, it seems logical that 
if the interstate sale of gall bladders is prohibited, that paws (but 
not claws) be included as well.
    The proposed bill includes all bear viscera, not just the gall 
bladder. The reason for this is unclear, as other organs have no 
commercial value. However, scientists are presently involved in a 
number of studies of these other organs. Several of these studies 
relate to bear physiology during hibernation, the understanding of 
which may ultimately provide medical benefits to humans. Organs are 
shipped to the few experts across the country. It appears that this 
bill prohibits the import or export of all bear viscera across state 
lines without exception. We argue that an exemption should be made for 
scientific purposes, and further that any permitting for such transport 
by scientists should be extremely simple, as often the products need to 
be shipped fresh (immediately after the bear dies, often when the death 
is unanticipated).
WHAT IS REALLY NEEDED
    We applaud the Congress of the United States for the concern over 
the trade in bear parts. Although our testimony demonstrates that this 
bill, as written, will have little or no actual effect on bear 
populations anywhere in the world (though it might help deter some 
poaching within the U.S.), we think it provides an opportunity for 
greater discourse about bear conservation. We thus view this as a 
positive step toward a more concerted effort to address this issue in a 
more direct way. Indeed, we hope that any publicity arising from this 
bill uses the opportunity to highlight the true depth of the problem, 
rather than credit the bill with solutions. Moreover, we hope that it 
generates a greater effort to find real solutions.
    The situation for bears in Asia is the opposite of that in the U.S. 
Habitat loss in Asia continues to be a concern in many areas, although 
efforts are underway in some countries to reverse it. Asiatic black 
bear hunting is forbidden in most places, but poaching continues to be 
widespread, fueled largely by the demand for gall bladders and paws. 
The situation is complicated by the fact that bear bile has proven 
medicinal benefits and a 3,000-year history in TCM. The situation is 
further confounded by the farming of 12,000-13,000 bears in China and 
Vietnam, where they are milked for their bile. Chinese authorities 
claim that this vast production of cheap bile diminishes the demand for 
more expensive bile from wild bears, and thus reduces the killing of 
wild bears; opponents of bear farms fear that increased accessibility 
to farmed bear bile (now in such surpluses that it is sold in non-TCM 
products, such as shampoos, lotions, cosmetics, sports drinks, and 
toothpaste) may encourage more users.
    Successes in restoring American black bears and brown (grizzly) 
bears of North America and parts of Europe have demonstrated that the 
key to bear conservation is reducing human-caused mortality and 
providing sufficient habitat. Thus, in Asia, reduction in the trade in 
bear parts, combined with habitat protection, is essential. The 
situation for bears in Asia is complicated by the fact that the present 
level of information is so poor. Increasing complaints of bears raiding 
cropfields gives the false perception to government authorities that 
populations are burgeoning, when in reality this trend likely reflects 
diminishing habitat quality in the adjacent forest and increasing human 
incursions with agriculture into the few areas of bear habitat that 
remain.
    We believe there is time to act on behalf of Asian bear 
conservation in a meaningful way, and to reverse their downward slide. 
Below we list the top priorities:
    <bullet>  Survey portions of the geographic range where the 
continued existence of bears is unknown. Although China comprises the 
largest area of range for Asiatic black bears, up to half of the 
assumed range in China may not even be occupied by bears (Appendix I). 
We recently learned that another Asian bear species, the Sloth bear, 
may have disappeared recently from Bangladesh; this loss was undetected 
by authorities because they have no knowledge of where bears actually 
exist. These examples demonstrate the poor state of knowledge about 
these species. It is not only important to know where bears exist, but 
also to train local biologists on how to detect bear presence, so 
changes in distribution can be readily ascertained.
    <bullet>  Obtain information on bear population trends. Very little 
data are available on population trends of any Asian bears, but with 
few exceptions, present evidence indicates that most populations are 
declining: area and quality of forested habitats are generally in 
decline, poaching levels remain high, and knowledgeable local people 
typically indicate that poaching has caused visible declines in bear 
numbers. One great hindrance to bear conservation, though, is the 
reluctance of government authorities in Asia to admit that populations 
are in decline. We believe that there are ways to more effectively 
monitor population trends, and that if government authorities were 
provided better data showing what are likely to be alarming declines in 
bear numbers, more action would be taken, and such action could be 
directed at the areas most in need.
    <bullet>  Conduct direct, on-the ground conservation work on issues 
affecting bears in Asia. We see several potential ways that Asian 
governments could improve conservation of bears. These include: 
assistance with reducing human-bear conflicts (bears raiding crops and 
damaging property); improved training, increased staff, and provision 
of better equipment for park guards and local authorities dealing with 
poachers; better training for patrolling staffs of nature reserves for 
monitoring bear occurrence and finding bear poaching activities; 
establishment of reserves to protect bears in key areas where 
populations are small and disjunct; increased CITES enforcement staff 
to thwart imports and exports of bear parts; and increased education 
about the status of Asian bears and effects of the bile trade, provided 
through television programs, signs, school programs, and local 
community activities.
    <bullet>  Address the bear farming issue. The Chinese government 
asserts that bile produced on bear farms reduces the demand for wild 
bile, and hence the impetus to poach wild bears. The counter-argument 
is that this large quantity of relatively cheap bile and the active 
promotion and marketing of the sale of this bile entices more users, 
with some ultimately desiring and being able to afford wild bile. A 
rigorous study is needed to resolve this important debate, because if 
the latter, counter-argument were correct, it would provide a 
conservation rationale (not just an animal welfare rationale) for 
closing these farms. Meanwhile, thousands of bears reside on farms, 
many in inhumane conditions. A non-governmental organization has raised 
funds to house a few hundred bears that have been removed from some of 
the worst farms. Vietnamese and Chinese authorities are willing to 
remove thousands more, but large captive facilities are needed to house 
them (because these bears would be incapable of surviving in the wild).
    The scope of these issues is massive, and the funding needed to 
address them is also therefore large. Professional organizations like 
ours, and other conservation organizations, have not been able to raise 
sufficient funds to have much of an effect. For example, the 
International Association for Bear Research and Management is only able 
to provide small annual grants, averaging $5,000 each, for about 10-12 
bear research and conservation projects worldwide. An order of 
magnitude larger source of funding is needed, such as that provided by 
the Multinational Species Conservation Funds. These funds, allocated 
for the conservation of African and Asian elephants, rhinos, tigers, 
great apes, and marine turtles, have been tremendously effective in 
reversing dire conditions for these imperiled species.
    Obviously there is a need for more funding for conservation for a 
host of other varied taxa, of which bears are just one. We restrict our 
argument that bears should be a priority for such funding to the simple 
point that Congress has overtly acknowledged this priority through 
deliberation of the Bear Protection Act. If the passage of that bill is 
to stand as an initial small step toward worldwide bear conservation 
action administered by the U.S. government, and does so mainly by 
increasing awareness of the looming issue of the gall bladder trade, 
then the next, crucial step is increased funding directed at the real 
issues, which occur in Asia.
    Our endorsement of the present bill is thus predicated on follow-up 
action, specifically increased funding to address the pressing 
conservation issues in Asia that result from the trade in bear parts. 
If Congress only goes as far as to pass the present legislation, 
thereby restricting the small-scale legal trade in gall bladders within 
the U.S., then little real bear conservation will be accomplished.
CONCLUDING COMMENTS
    Thank you for this opportunity to provide comments that will 
hopefully forge a fruitful path toward effective conservation of the 
world's bears. Neither I, nor the organizations that I represent, 
intended through this testimony to give the impression that we did not 
see value in the proposed Bear Protection Act. We only wanted to stress 
the issue that we thought other testimony would likely miss: the 
problem regarding the trade in bear parts is much larger than can be 
dealt with by simply strengthening the laws regarding interstate 
trafficking of gall bladders. Our organizations, composed of 
professional biologists, do not deal with enforcement, so we are not in 
a position to comment on how much such a bill would aid in the 
prosecution of poachers. Thus, we restricted our comments to 
population-level effects on bears. By doing so we hope that we have not 
diminished what others might testify to in terms of the enhanced 
ability of enforcement personnel to stop bear poaching. Of course we 
support any measure that cracks down on poachers.
    Had I been present to testify orally, and had I been asked whether, 
in my opinion, this bill should pass, I would certainly have said yes. 
But, I would have hastened to add--please keep in mind that the issue 
is much larger, and so this legislation should be viewed as a 
beginning, not the end.
    I welcome further discussion on any of these issues (dave.garshelis
@dnr.state.mn.us; 218-327-4146).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
